<html>
<title> - PERSPECTIVES ON THE PRESIDENT'S VISION FOR SPACE EXPLORATION</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
                    PERSPECTIVES ON THE PRESIDENT'S
                      VISION FOR SPACE EXPLORATION

=======================================================================

                                HEARING

                               BEFORE THE

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 10, 2004

                               __________

                           Serial No. 108-45

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science

                                 ______



                 U.S. GOVERNMENT PRINTING OFFICE

92-339                 WASHINGTON : 2004
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866)512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001











                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
RALPH M. HALL, Texas                 BART GORDON, Tennessee
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         LYNN C. WOOLSEY, California
KEN CALVERT, California              NICK LAMPSON, Texas
NICK SMITH, Michigan                 JOHN B. LARSON, Connecticut
ROSCOE G. BARTLETT, Maryland         MARK UDALL, Colorado
VERNON J. EHLERS, Michigan           DAVID WU, Oregon
GIL GUTKNECHT, Minnesota             MICHAEL M. HONDA, California
GEORGE R. NETHERCUTT, JR.,           BRAD MILLER, North Carolina
    Washington                       LINCOLN DAVIS, Tennessee
FRANK D. LUCAS, Oklahoma             SHEILA JACKSON LEE, Texas
JUDY BIGGERT, Illinois               ZOE LOFGREN, California
WAYNE T. GILCHREST, Maryland         BRAD SHERMAN, California
W. TODD AKIN, Missouri               BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         DENNIS MOORE, Kansas
MELISSA A. HART, Pennsylvania        ANTHONY D. WEINER, New York
J. RANDY FORBES, Virginia            JIM MATHESON, Utah
PHIL GINGREY, Georgia                DENNIS A. CARDOZA, California
ROB BISHOP, Utah                     VACANCY
MICHAEL C. BURGESS, Texas            VACANCY
JO BONNER, Alabama                   VACANCY
TOM FEENEY, Florida
RANDY NEUGEBAUER, Texas
VACANCY











                            C O N T E N T S

                             March 10, 2004

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Sherwood L. Boehlert, Chairman, 
  Committee on Science, U.S. House of Representatives............    31
    Written Statement............................................    31

Statement by Representative Bart Gordon, Ranking Minority Member, 
  Committee on Science, U.S. House of Representatives............    32
    Written Statement............................................    33

                               Witnesses:

Mr. Norman R. Augustine, Former Chief Executive Officer, Lockheed 
  Martin; Chair, Advisory Committee on the Future of the U.S. 
  Space Program
    Oral Statement...............................................    34
    Written Statement............................................    36
    Biography....................................................    39

Dr. Michael D. Griffin, President, In-Q-Tel; Former Chief 
  Engineer, NASA; Former Associate Administrator, Exploration 
  Systems, NASA
    Oral Statement...............................................    40
    Written Statement............................................    41
    Biography....................................................    45

Dr. Donna L. Shirley, Director, Science Fiction Museum; Former 
  Manager, Jet Propulsion Laboratory's Mars Program; Former 
  Assistant Dean, University of Oklahoma Aerospace Mechanical 
  Engineering Department
    Oral Statement...............................................    46
    Written Statement............................................    48
    Biography....................................................    55
    Financial Disclosure.........................................    58

Dr. Laurence R. Young, Apollo Program Professor, Massachusetts 
  Institute of Technology (MIT); Founding Director of the 
  National Space Biomedical Research Institute (NSBRI)
    Oral Statement...............................................    59
    Written Statement............................................    60
    Biography....................................................    68

Dr. Lennard A. Fisk, Chair, Space Studies Board (SSB), National 
  Academy of Sciences; Chair, Department of Atmospheric, Oceanic, 
  and Space Sciences, University of Michigan; Former Associate 
  Administrator, Space Science and Applications, NASA
    Oral Statement...............................................    70
    Written Statement............................................    71
    Biography....................................................    76

Discussion
  Role of Human Space Flight in National Scientific Goals........    77
  Role of Robots in the Human Exploration of Space...............    77
  Concerns With the Moon as an Interim Step to Exploring Mars....    78
  Lessons Learned From the Space Exploration Initiative of 1989..    79
  Shifting NASA Missions to Other Agencies.......................    80
  Expectations for the International Space Station...............    81
  Costs of Moon and Mars Missions................................    82
  Costs and Risks of Human Space Flight..........................    84
  New Priorities for Space Station Research......................    86
  Role of the Space Station......................................    86
  Funding Priorities of Science or Exploration...................    88
  Effects of Budget Changes......................................    90
  Studies of Space Exploration...................................    92
  Review of NASA Centers.........................................    94
  Manned and Robotic Space Exploration...........................    95
  Retiring the Space Shuttle.....................................    97
  National Vision for Space Exploration..........................    99
  Motivation for Science and Math Education......................   100
  Risks of Human Space Flight Versus Other Endeavors.............   101
  Costs of Human Space Exploration Compared to Other National 
    Objectives...................................................   102
  Space Shuttle Risks............................................   103
  Questions About Ice on the Moon................................   104

              Appendix: Answers to Post-Hearing Questions

Mr. Norman R. Augustine, Former Chief Executive Officer, Lockheed 
  Martin; Chair, Advisory Committee on the Future of the U.S. 
  Space Program..................................................   108

Dr. Michael D. Griffin, President, In-Q-Tel; Former Chief 
  Engineer, NASA; Former Associate Administrator, Exploration 
  Systems, NASA..................................................   112

Dr. Donna L. Shirley, Director, Science Fiction Museum; Former 
  Manager, Jet Propulsion Laboratory's Mars Program; Former 
  Assistant Dean, University of Oklahoma Aerospace Mechanical 
  Engineering Department.........................................   116

Dr. Laurence R. Young, Apollo Program Professor, Massachusetts 
  Institute of Technology (MIT); Founding Director of the 
  National Space Biomedical Research Institute (NSBRI)...........   119

Dr. Lennard A. Fisk, Chair, Space Studies Board (SSB), National 
  Academy of Sciences; Chair, Department of Atmospheric, Oceanic, 
  and Space Sciences, University of Michigan; Former Associate 
  Administrator, Space Science and Applications, NASA............   122















      PERSPECTIVES ON THE PRESIDENT'S VISION FOR SPACE EXPLORATION

                              ----------                              


                       WEDNESDAY, MARCH 10, 2004

                  House of Representatives,
                                      Committee on Science,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:01 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Sherwood L. 
Boehlert [Chairman of the Committee] presiding.



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                    Perspectives on the President's

                      Vision for Space Exploration

                       wednesday, march 10, 2004
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

I. Purpose

    The House Committee on Science will hold a hearing entitled 
Perspectives on the President's Vision for Space Exploration on March 
10, 2004, at 10:00 a.m. in room 2318 of the Rayburn House Office 
Building. The Committee will receive testimony from non-governmental 
witnesses regarding the President's recently announced space 
exploration initiative. Charters from two previous, relevant Science 
Committee hearings are attached.

II. Brief Overview

    The witnesses have been asked to give their views on the purpose, 
structure, costs and technical challenges of the President's initiative 
and on how it would affect other NASA programs. The goal of the hearing 
is to get guidance from outside experts on some of the most difficult 
questions the Congress must consider in evaluating the initiative.
    For example, the most difficult obstacle to staying on the Moon for 
an extended period or to sending a human to Mars may be the impact of 
spending long periods in space on the human body. Both the radiation 
and reduced gravity have marked impacts on human physiology. Some 
scientists (but none on our panel) go so far as to describe these 
challenges as ``insurmountable.'' The Committee needs to know (among 
other things) how difficult a hurdle human physiology is, whether 
NASA's plans to deal with these issues are sufficient, and how research 
on human physiology in space will influence the development of 
spacecraft and other technical aspects of the initiative. Several of 
the witnesses at the hearing will be able to address such matters.

III. Witnesses

Mr. Norman Augustine was the Chief Executive Officer of Lockheed Martin 
and chair of the Advisory Committee on the Future of the U.S. Space 
Program, a review of NASA's programs and priorities in 1990 that is 
still relevant today. Mr. Augustine was asked to testify on:

        <bullet>  Would the initiative achieve an appropriate balance 
        among NASA's activities? In particular, the Augustine 
        Commission viewed space science and Earth science as the top 
        priorities at NASA. Is that still your view and is it reflected 
        in the President's initiative?

        <bullet>  Does the estimated spending through 2020 seem 
        adequate to carry out the President's initiative? Which 
        elements of the President's initiative seem most likely to cost 
        more money or take more time than is currently allotted to 
        them?

        <bullet>  What questions is it most important for Congress to 
        ask as it evaluates the proposed initiative?

Dr. Donna Shirley is the Director of the Science Fiction Museum and a 
former Manager of the Jet Propulsion Laboratory's Mars Program and 
former Assistant Dean of the University of Oklahoma Aerospace 
Mechanical Engineering Department. Dr. Shirley was asked to testify on:

        <bullet>  What are compelling justifications for sending humans 
        into space? Does the President's initiative provide adequate 
        justification for sending humans to the Moon and Mars?

        <bullet>  To what extent would scientific research concerning 
        Mars be aided by a human presence on, or in orbit around that 
        planet?

        <bullet>  Are the International Space Station and the Moon the 
        most appropriate stepping-stones for human space exploration if 
        the ultimate objective is a human landing on Mars? What would 
        be the advantages and disadvantages of a program that was 
        targeted instead on sending a human directly to Mars? To what 
        extent is research on the International Space Station likely to 
        help remove the hurdles to long-duration space flight?

        <bullet>  Does the proposed initiative achieve the proper 
        balance among NASA's activities? Particularly, is the balance 
        between exploration, space science and Earth science, and 
        between human and robotic missions appropriate?

Dr. Michael Griffin is the President of In-Q-Tel. He has nearly 30 
years of experience managing space and information technology 
organizations. He served as NASA's Chief Engineer and Associate 
Administrator for NASA in the early 1990s. Dr. Griffin was asked to 
testify on:

        <bullet>  Does the estimated spending through 2020 seem 
        adequate to carry out the President's initiative? Which 
        elements of the President's initiative seem most likely to cost 
        more money or take more time than is currently allotted to 
        them?

        <bullet>  What are the greatest technological hurdles the 
        President's initiative must clear to be successful? To what 
        extent must resolving some technological issues await further 
        fundamental research? For example, how much work on a 
        spacecraft for a Mars mission can be done before more is known 
        about the effect on humans of spending long periods of time in 
        space? How much work can be done before new propulsion 
        technologies are developed?

        <bullet>  Are the International Space Station and the Moon the 
        most appropriate stepping stones for human space exploration if 
        the ultimate objective is a human landing on Mars? What would 
        be the advantages and disadvantages of a program that was 
        targeted instead directly on sending a human to Mars?

        <bullet>  What questions is it most important for Congress to 
        ask as it evaluates the proposed initiative?

Dr. Lennard Fisk is Chair of the Space Studies Board (SSB), National 
Academy of Sciences. Dr. Fisk led an SSB space policy workshop of 
experts in the fall 2003 that attempted to define the principal 
purposes, goals, and priorities of U.S. civil space program. The report 
from this workshop, ``Issues and Opportunities Regarding the U.S. Space 
Program,'' was released in January 2004. Fisk is Chair of the 
University of Michigan Department of Atmospheric, Oceanic, and Space 
Sciences and former Associate Administrator of NASA's space science and 
applications department. Dr. Fisk was asked to testify on:

        <bullet>  What are compelling justifications for sending humans 
        into space? Does the President's initiative provide adequate 
        justification for sending humans to the Moon and Mars?

        <bullet>  Are the International Space Station and the Moon the 
        most appropriate stepping-stones for human space exploration if 
        the ultimate objective is a human landing on Mars? What would 
        be the advantages and disadvantages of a program that was 
        targeted instead directly on sending a human to Mars?

        <bullet>  To what extent is research on the International Space 
        Station likely to help remove the hurdles to long-term human 
        presence in space? Does the proposed initiative achieve the 
        proper balance among NASA's activities? Particularly, does the 
        initiative strike the right balance between exploration, space 
        science and Earth science?

        <bullet>  Does the estimated spending through 2020 seem 
        adequate to carry out the President's initiative? Which 
        elements of the President's initiative seem most likely to cost 
        more money or take more time than is currently allotted to 
        them? What questions is it most important for Congress to ask 
        as it evaluates the proposed initiative?

Dr. Larry Young is the Apollo Program Professor at the Massachusetts 
Institute of Technology (MIT) and Founding Director of the National 
Space Biomedical Research Institute (NSBRI) in Houston, TX. He is an 
expert on the physiological challenges for humans in space. Dr. Young 
was asked to testify on:

        <bullet>  What are the most significant human physiology 
        challenges that must be understood and overcome before humans 
        embark on a mission to Mars or an extended presence on the 
        Moon? How daunting are those challenges and how quickly might 
        they be resolved? How much significant research has been 
        conducted on these issues already and where was that research 
        conducted?

        <bullet>  To what extent could research aboard the 
        International Space Station contribute to resolving critical 
        questions related to human physiology in space? What kinds of 
        experiments would have to be conducted and how long would it 
        likely take before they produced meaningful results? Would 
        additional equipment be needed aboard the Station for the 
        experiments? To what extent could the requisite research be 
        conducted on Earth?

        <bullet>  To what extent would the research budget for the 
        Space Station have to change to accommodate a successful 
        research in human physiology? How many astronauts would be 
        needed aboard the Station to conduct such an agenda?

        <bullet>  How long after experiments began would the 
        International Space Station have to remain in operation to 
        produce meaningful information about human physiology?

Attachments

        1.  Charter from the February 12, 2004 House Science Committee 
        hearing on The President's Vision for Space Exploration.

        2.  Charter from the October 16, 2003 House Science Committee 
        hearing on The Future of Human Space Flight
                            hearing charter

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                   U.S. Vision for Space Exploration

                      thursday, february 12, 2004
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

1. Purpose

    On Thursday, February 12th at 10:00 a.m., the Science Committee 
will hold a Full Committee hearing on the President's proposed space 
exploration initiative, which was announced Jan. 14. (A copy of the 
White House document that outlines the President's vision is attached 
as Attachment A.)

2. The President's Proposal

    The President's plan can be seen as having three distinct, but 
related aspects. The first aspect concerns current human space flight 
programs. The President proposes to complete construction of the 
International Space Station (ISS) by the end of the decade and to 
retire the Space Shuttle at that point. ISS research is to be 
reconfigured to focus on questions related to the impact on human 
health of spending long periods in space. Under the proposal, the U.S. 
participation in ISS is slated to end around 2016, although the 
Administration has said that that date may shift. The National 
Aeronautics and Space Administration (NASA) has also decided to cancel 
the Shuttle mission that was needed to keep the Hubble Space Telescope 
in operation past 2007. Ending the Shuttle and Station programs is 
necessary to free up funds for other aspects of the proposal and to 
avoid Shuttle recertification in 2010, an expensive process called for 
by the Columbia Accident Investigation Board.
    The second aspect of the plan concerns new medium-term goals for 
human space flight. The central goal is to return to the Moon between 
2015 and 2020. To do this, NASA will develop a new Crew Exploration 
Vehicle (CEV), which will carry humans by 2014. (The CEV may also be 
used to service the Space Station.)
    The third aspect of the plan concerns long-range goals for the 
years past 2020. The entire plan is geared toward preparing for this 
period, but what will happen during these years is (perhaps 
necessarily) left entirely open-ended. The ultimate goals are to send 
humans to Mars and to increase the commercial exploitation of space. 
The timing of future exploration is left open and will depend on the 
pace of technology development and discovery during the years leading 
up to 2020. The President announced the appointment of a nine-member 
commission, headed by former Secretary of the Air Force Pete Aldridge, 
that will focus primarily on recommending what kinds of things ought to 
be done in the long-run on the Moon and to get to Mars, and how those 
activities might shape programs in the nearer-term.

3. Overarching Questions

    The President's plan raises many fundamental questions about the 
purposes of the U.S. space program and about the details of how it will 
be carried out. The overarching questions for the hearing include:

        1.  What is the purpose of the exploration program? To what 
        degree will it be designed to answer scientific research 
        questions? To what degree will it be designed to promote 
        commercialization or national security interests? How high a 
        national priority is exploration for exploration's sake?

        2.  How much will the President's proposal cost to implement 
        now and in the future? What are the greatest uncertainties in 
        the budget estimates that have been presented? When will those 
        figures become more definite? Are there early points at which 
        progress can reasonably be assessed? What is being done to 
        avoid the inaccurate cost estimates that have plagued the Space 
        Shuttle, Space Station and Orbital Space Plane programs?

        3.  What budgetary tradeoffs will have to be made to fund the 
        President's proposal? Specifically, what will the impact be on 
        NASA's programs in astronomy, outer planetary exploration, 
        Earth science, and aeronautics?

    The overall goal of the hearing is to make sure the Committee has 
clear information on the philosophy and budgetary assumptions that 
undergird the President's proposal.

4. Witnesses

Mr. Sean O'Keefe, Administrator of the National Aeronautics and Space 
Administration.

Dr. John Marburger, Director of the Office of Science and Technology 
Policy.

5. Issues

        <bullet>  What is the goal of the President's initiative? Human 
        space travel is inherently expensive and risky compared to 
        robotic missions. Congress needs to decide whether human space 
        travel is a priority that merits continued funding, and 
        obviously that will depend, in part, on what is to be gained. 
        In his Jan. 14 speech, the President said, ``We choose to 
        explore space because doing so improves our lives and lifts our 
        national spirit.'' But the Administration has sent mixed 
        signals about what kinds of improvements will be sought. In 
        some presentations, the Administration has left the impression 
        that exploration is a basic human need, an end in itself--an 
        activity that will be informed by science and may contribute to 
        science, but that will not have a science-driven agenda. In 
        other presentations, the Administration has implied that 
        science is the primary rationale for the President's vision. In 
        other places, commercialization, national security, and the 
        possibility of technological spinoffs have been offered as 
        rationales. None of these reasons is mutually exclusive, but 
        the goals of the program will determine the spending and 
        activities that are undertaken.

        <bullet>  How much will the President's initiative cost? The 
        President has been clear that he is not willing to seek massive 
        amounts of new spending to fund the initiative--unlike the 
        approach that was taken during the Apollo program in the 1960s. 
        NASA officials have said that if work does not proceed 
        smoothly, they will extend deadlines rather than increase 
        annual costs. (Moving deadlines would still increase cumulative 
        costs.) The President has proposed a 5.6 percent increase for 
        NASA (to $15.4 billion) for Fiscal Year (FY) 05, by far the 
        largest increase for any R&D agency.

             Figuring out how much the President's initiative would 
        cost is not easy because of the many assumptions that need to 
        be made. Adding to the complexity, NASA has described the costs 
        differently in different documents, using different baselines.

             The most specific figures concern the next five years 
        (FY05-09), over which the President proposes to spend a 
        cumulative total of $87.1 billion on the entire NASA budget. 
        NASA has compared the proposal to two different baselines. In 
        the first comparison, NASA says that over the next five years, 
        the President proposes to spend $1 billion more on the entire 
        NASA budget than NASA had predicted it would spend in February, 
        2003. (That estimate was made as part of the Presidents's FY04 
        budget.) In the second comparison, NASA describes the 
        President's proposal as providing $12.6 billion more, 
        cumulatively, over five years for the entire NASA budget 
        compared to what NASA would have received if its spending had 
        been frozen for five years at the FY04 level of about $15 
        billion. (NASA uses this figure frequently, but there is no 
        evidence that NASA was ever going to face such a freeze.)

             Figuring out how much of the NASA budget will be dedicated 
        to the President's initiative depends on what is included in 
        that spending category. Should it include the Space Shuttle and 
        Space Station? Should it include robotic missions that were 
        planned before the President's announcement, but may contribute 
        to it, or just new ones? NASA, generally, includes all robotic 
        missions that will contribute to the initiative and excludes 
        the Space Shuttle and Space Station. Using those definitions, 
        the initiative would receive $31.4 billion over the next five 
        years. Costs would increase considerably in the subsequent 10 
        years, and costs cannot even be estimated for the period beyond 
        that because the activities remain undefined. (See Attachment 
        B, although, according to NASA, the chart was designed more for 
        internal purposes than to give a precise picture of out-year 
        spending.)

        <bullet>  What are the greatest uncertainties in NASA's cost 
        projections? Of necessity, the proposed budget is based on best 
        guesses of costs for key elements of the President's 
        initiative.

             Perhaps the greatest uncertainty remains the cost of 
        continuing to operate the Space Shuttle. Any delay in retiring 
        the Space Shuttle will add significantly to NASA's costs (as 
        well as raising the question of whether the Shuttle should fly 
        without recertification). NASA continues to assume a return to 
        flight this fall, although experts inside and outside the 
        agency are raising doubts about whether that deadline can be 
        met. Once flights resume, NASA plans about five flights a 
        year--a pace that Admiral Gehman, the Chair of the Columbia 
        Accident Investigation Board, has said could revive concerns 
        about ``schedule pressure'' adversely affecting safety. 
        Retiring the Shuttle on schedule may also require using means 
        other than the Shuttle to take up crew and supplies to the 
        Space Station because the Shuttle will be needed to complete 
        Station construction. Shuttle retirement could also be delayed 
        if key portions of the Station, such as the centrifuge being 
        built by the Japanese, are not completed on schedule. (The 
        centrifuge is generally viewed as the most valuable piece of 
        scientific equipment that will be brought to the Station.) NASA 
        is still figuring out the ``manifests'' for the remaining 
        Shuttle flights--that is, the description of when flights would 
        leave and return and what they would carry.

             The costs of developing the CEV, the new vehicle that 
        would take astronauts to the Moon and beyond also are uncertain 
        because development has not yet begun. In some ways, CEV 
        development will build on the Orbital Space Plane (OSP) project 
        that NASA discontinued as part of the President's initiative. 
        The OSP, which was to be designed primarily to take astronauts 
        to the Space Station, was already facing cost overruns in its 
        early design stages, and Congress was raising doubts about its 
        usefulness. NASA now estimates that it will spend $6.5 billion 
        over the next five years on CEV development.

             The CEV will also require the development of a new launch 
        system, and NASA has not decided yet how to approach the design 
        of a new launch vehicle. NASA is now estimating that the 
        development of such a vehicle will cost about $5 billion.

             Administration officials have said that because the CEV 
        and its launch system will be developed over a longer time 
        period than was allotted for the OSP there will be time to 
        reevaluate costs before becoming overly committed to a 
        particular design. Total CEV development is expected to cost 
        about $15 billion.

             The cost of the CEV may be affected by how NASA decides to 
        select a contractor for the program. NASA limited OSP 
        development to two competitors. NASA has not yet made clear 
        whether it will have a more open competition for the CEV.

        <bullet>  How will the President's initiative affect the rest 
        of NASA's programs? The Space Sciences budget will continue to 
        grow (from $3.9 billion in FY04 to $5.6 billion in FY09) 
        because many of its robotics missions will be considered part 
        of preparation for human exploration. Most of these missions 
        will be entirely unchanged despite the redesignation. In 
        addition, new lunar missions will be added. Nonetheless, 
        projects totaling about $2.6 billion will be cut from the Space 
        Sciences budget over the next five years (compared to the 
        Administration's February, 2003 projections) by canceling or 
        deferring missions and programs that are considered less 
        important to human exploration. (Other projects are added so 
        that, overall, Space Sciences will receive slightly more over 
        the five-year period than had been planned, if one excludes 
        Project Prometheus, which is being transferred from Space 
        Sciences to another account.) One question is how Space 
        Sciences will fare in the years after FY09 when the costs of a 
        human lunar landing will begin to increase substantially.

             Earth Science would fare far worse, sustaining cuts in 
        FY05 through FY08. Earth Science spending would decline from 
        $1.52 billion in FY04 to $1.47 billion in FY09, a year in which 
        it is slated to receive an increase. NASA Earth Science 
        missions are a major component of the Administration's climate 
        change science program.

             Aeronautics would be essentially flat through the period, 
        increasing in some years and decreasing in others, but ending 
        up in FY09 at $942 million--a drop from the FY04 level of $946 
        million.

             (See Attachment C for more details.)

        <bullet>  Why is the Shuttle mission to the Hubble Space 
        Telescope being cancelled? The Administration is describing the 
        Hubble cancellation as a ``close call'' made by the 
        Administrator because of safety concerns. The Hubble, which has 
        been enormously successful, is expected to go dark around 2007 
        without a servicing mission. Many astronomers are lobbying for 
        that mission to occur, and, indeed, before the President's 
        initiative was announced, a panel assembled by the National 
        Academy of Sciences, called for another servicing mission to be 
        added to extend the telescope's life even further. That request 
        became moot with the decision to discontinue the Shuttle in 
        2010. However, some experts contend that ground-based 
        telescopes have advanced so much in recent years that they can 
        now make up for at least some of the capability that would be 
        lost if the Hubble ceases to function.

             A Shuttle mission to the Hubble is a special case because 
        Hubble missions cannot reach the Space Station, which could be 
        used as a ``safe haven'' in case of an emergency or the need to 
        inspect or repair the Shuttle. The Columbia Accident 
        Investigation Board said that the Shuttle should fly to 
        destinations other than the Space Station only when NASA had 
        developed an ``autonomous'' inspection and repair capability--
        that is, a way to inspect without using the Space Station. NASA 
        believes such a capability is probably many years away. As a 
        substitute, NASA examined having a second Shuttle ready to fly 
        a rescue mission, but viewed that as dangerous and 
        prohibitively expensive. However, debate continues among Hubble 
        enthusiasts as to the relative dangers of a mission to the 
        Station and a mission to Hubble.

             NASA acknowledges that there were ``secondary'' 
        considerations that also led to the cancellation of the Hubble 
        mission, including the need to complete all the Shuttle 
        missions needed for Station construction by 2010.

        <bullet>  How will the President's initiative change the Space 
        Station program? As a result of the initiative, NASA is 
        reexamining the entire Station research program. Decisions on 
        the new program may not be made for about a year. The new 
        program will focus on questions of human health. Among the 
        questions this raises are: what research will be discontinued 
        and was any of it of real value? How much will the new research 
        agenda cost? Does the new research really require facilities in 
        space and will it be peer reviewed? Will concerns arise since 
        much of the new research will presumably involve using 
        astronauts as human experimental subjects?

        <bullet>  How will NASA transport crews to the Station after 
        the Shuttle is retired? The Administration acknowledges that it 
        has not yet figured out how to get crews to the Station between 
        the retirement of the Shuttle in 2010 and the first flight of 
        the CEV in 2014. (The Shuttle may also be unavailable for crew 
        transfer earlier, if its schedule needs to be devoted entirely 
        to Station construction.)

             The U.S. is already using the Russian Soyuz spacecraft for 
        crew transfer while the Shuttle is grounded. However, it is 
        doing so under an agreement that the Russians will have 
        fulfilled by 2006. Renewing the agreement may require a change 
        in the Iran Nonproliferation Act (INA), which Congress passed 
        in 2000. That Act attempts to prevent the spread of weapons of 
        mass destruction to Iran by prohibiting the purchase of Russian 
        rockets by the U.S. unless the President certifies that no 
        Russian entity is engaged in any sales of missiles or missile 
        systems to Iran. (The INA does not apply to the current 
        agreement.)

             Amending the Act would be controversial, and so far the 
        Administration has hedged its bets, simply saying that the 
        matter is under review.

        <bullet>  How will NASA carry cargo to and from the Station 
        after the Shuttle is retired? Similar to the crew situation, 
        NASA has no current plan for getting cargo to the Station after 
        the Shuttle is retired. NASA is using Russian Progress vehicles 
        while the Shuttle is grounded, but continuing to do so 
        indefinitely could require amending the Iran Nonproliferation 
        Act. (See above.) NASA might also rely on Europe or Japan, 
        which are partners in the Space Station and which are 
        developing cargo-carrying spacecraft of their own. But those 
        craft have not yet been flight-tested. Some have suggested that 
        NASA could convert the Space Shuttle itself into a cargo-only 
        craft that could deliver huge loads of cargo to the ISS. But 
        critics have said that such an approach would be much more 
        expensive than flying smaller loads on existing rockets. 
        Finally, NASA might try to purchase the services of commercial 
        rocket firms. But at present no firm has a rocket that can 
        supply the Station, although several have indicated a 
        willingness to try to carry small amounts of cargo there. 
        Another complication is that some cargo for the Space Station 
        is very large--major replacement parts, for example--and most 
        craft other than the Shuttle are not big enough to carry such 
        cargo.

6. Questions to witnesses:

    In his letter of invitation to appear as a witness, Administrator 
O'Keefe was asked to address the following questions in his testimony:

        (1)  What specific activities must be undertaken and milestones 
        achieved over the next twelve months and over the next five 
        years to implement the new initiative? What analysis was 
        performed to ensure that the proposed budget is adequate to 
        accomplish those activities?

        (2)  Specifically, what changes (in spending and program 
        content) are contemplated in the Shuttle, International Space 
        Station, and Space Science programs as a result of the new 
        initiative?

        (3)  What is the current status of NASA's thinking about a 
        mission to the Hubble Space Telescope? What changes in spending 
        and in other NASA activities would be necessary to allow one or 
        two more missions to the Hubble?

        (4)  Are any changes to the Iran Non-proliferation Act, the 
        Space Station Inter-Governmental Agreement or any other 
        agreements required to complete the Space Station? If so, 
        please explain how the Administration plans to inform and 
        consult with the Congress on these changes, including the 
        timetable for any actions that may be necessary.

    In his letter of invitation to appear as a witness, Dr. Marburger 
was given the following information and asked to address the following 
questions in his testimony:

         In their briefings on the initiative, White House officials 
        have said that you were an active participant in developing the 
        initiative, and that, more specifically, you had reviewed the 
        initiative to ensure that no essential science activities would 
        be sacrificed to pay for it.

         In your testimony, you should describe the role you and your 
        staff played in formulating the initiative and why and how you 
        concluded that the initiative would be a net benefit from a 
        scientific point of view. As part of that description, please 
        specifically address the following:

                (1)  What criteria did you use to determine whether an 
                activity was ``essential,'' and how did you evaluate 
                and balance the differing scientific benefits of 
                existing and potential NASA activities?

                (2)  To what extent, has and can the International 
                Space Station contribute to science? Did you review any 
                specific new research agenda for the Space Station as 
                part of your evaluation of the overall initiative?

                (3)  To what extent can scientific research that would 
                be accomplished by manned missions to the Moon be 
                accomplished by space telescopes or by unmanned probes 
                on the Moon?

                (4)  How would you describe the contributions to 
                science made by the Hubble Space Telescope? How would 
                you assess what would be lost if the Hubble ceases to 
                function earlier than had been planned? How did you 
                weigh those losses against the potential benefits of 
                other activities under the new initiative?''

7. Attachments

Attachment A: A Renewed Spirit of Discovery: The President's Vision for 
U.S. Space Exploration

Attachment B: NASA Budget Projection 2004-2020. (This chart can be 
viewed in color on the Internet at http://www.nasa.gov/pdf/
54873main<INF>-</INF>budget<INF>-</INF>chart<INF>-</INF>14jan04.pdf

Attachment C: NASA FY 2005 Budget


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                            hearing charter

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                             The Future of

                           Human Space Flight

                       thursday, october 16, 2003
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

1. Purpose

    The Committee on Science will hold a hearing on The Future of Human 
Space Flight on October 16, 2003 at 10:00 a.m. in Room 2318 of the 
Rayburn House Office Building. The hearing will examine the rationale 
for human presence in space, the feasibility and cost of various 
potential long-term goals, and the near-term implications of 
establishing these goals.

2. Overarching Questions

    The witnesses will outline their perspectives on human space flight 
and lay out various options that could be pursued. Overarching 
questions that will be addressed are:

        <bullet>  What is the U.S. likely to gain by the proposed 
        options for human space flight and why could such gains not be 
        obtained in other ways?

        <bullet>  What is a rough estimate of the costs of pursuing any 
        of the proposed options? What is the approximate amount of time 
        that it would take to achieve the goals of the proposed 
        options?

        <bullet>  What are the technical hurdles that must be overcome 
        in pursuing the options and the steps that must be taken to 
        overcome those hurdles? (i.e., are there intermediate program 
        goals and when might these be achieved?)

        <bullet>  What are the implications of the options for the 
        current human space flight program? To what degree does the 
        current program contribute to, or impede other options that 
        could be pursued?

3. Key Issues

    In the aftermath of the Columbia tragedy and the Columbia Accident 
Investigation Board report, the Nation has a rare opportunity to re-
examine the vision and goals of the human space flight program. The 
following are some of the key issues:

Is there a compelling reason for human presence in space? The Apollo 
program to send a man to the Moon was clearly tied to a broader 
national goal, winning the Cold War. Today, NASA's human space flight 
program lacks a similar goal and is not tied to any national 
imperative. While NASA officials often argue that a human presence in 
space is necessary to carry out scientific research, even many 
advocates of human space flight suggest that science alone is not a 
compelling justification because much research can be conducted with 
unmanned probes. Instead advocates point to other rationales, including 
the human imperative to explore, a need for a strategic presence ,in 
space, the potential for technological spinoffs, and the possible 
development of human colonies in space, which they say could be 
especially important in the event of a natural or human-induced 
calamity on Earth.

What are the appropriate roles for robotic exploration and human 
exploration? Robotic spacecraft have landed on the Moon and Mars, and 
(in the case of the Soviet Union) on Venus. Robotic spacecraft have 
flown by every planet in the Solar System with the exception of Pluto, 
and NASA is currently developing a mission to that planet. Robotic 
spacecraft provide a wealth of scientific information and typically 
cost a fraction of what a human mission costs. In January 2004, NASA's 
Mars Exploration Rovers Mission will land two identical rovers, named 
Spirit and Opportunity, on the Martian surface to search for clues of 
water. This mission cost less than $1 billion. In some cases, robotic 
spacecraft and human missions work together to perform complementary 
tasks, such as when astronauts service and repair the Hubble Space 
Telescope or when robotic missions are used to scout out landing sites 
for human missions as was done before Apollo. Key issues include: What 
is the appropriate balance between robotic and human missions? What 
activities can only be accomplished with humans? Should NASA focus its 
efforts on robotic exploration until a suitable purpose can be 
developed and agreed upon for human exploration?

How would the Space Shuttle, the International Space Station and other 
aspects of the current human space flight program fit with any vision 
for NASA's future? Neither the Space Shuttle nor the Space Station has 
met its primary original goal. The Shuttle, for example, has not led to 
low-cost, routine, and reliable access to space; the Space Station is 
no longer being designed to provide a space-based platform to assemble 
and launch missions beyond Earth's orbit. Some advocates of a bolder 
mission for NASA argue that both the Shuttle and the Space Station 
consume large amounts of money simply to send humans repeatedly into 
Low Earth Orbit (LEO) without moving toward any more ambitious or 
compelling goal. Others point out that the Space Station could 
contribute to future missions by providing data on how the human body 
reacts to prolonged stays in space. It is not clear how the Orbital 
Space Plane--the next vehicle on the drawing boards at NASA--would 
contribute to future missions. While NASA has talked about having the 
Space Plane contribute to longer-range goals, it is being designed only 
to ferry astronauts back and forth to the Space Station.

What technological barriers must be overcome? Human space flight is 
inherently dangerous. Human space exploration beyond Earth orbit is 
particularly hazardous because the radiation environment beyond the 
protective Van Allen belts\1\ is much greater than the radiation levels 
experienced on the Space Station. Furthermore, the increased distance 
from Earth makes it impractical, and in some cases impossible, to 
return quickly if a problem arises. Also, it has been clearly 
demonstrated that near-zero gravity has a slowly debilitating effect on 
human physiology. For example, astronauts can lose between 6 and 24 
percent of their bone mass over the course of a year in space.\2\ 
Depending on the duration and destination of the mission, improved 
technologies for propulsion, power, and life support systems may need 
to be developed.
---------------------------------------------------------------------------
    \1\ The Van Allen Belts are layers of charged high-energy particles 
located above Earth's atmosphere (4000 to 40,000 miles up). The Earth's 
magnetic field traps the particles and protects astronauts on the Space 
Station from cosmic radiation.
    \2\ http://spaceresearch.nasa.gov/general<INF>-</INF>info/
issphysiology.html

What can we afford? The U.S. spends more than $6 billion annually on 
human space flight, including the Space Shuttle, Space Station, and 
Space Station research. This amount accounts for more than 40 percent 
of NASA's budget. Both Space Station and Space Shuttle have cost 
significantly more than originally expected and, following the Columbia 
tragedy, Shuttle costs are likely to increase. A large and sustained 
investment is likely to be necessary for any ambitious human space 
flight mission to succeed. NASA spending accounted for as much as 3.5 
percent of the entire federal budget during the Apollo program, but 
today represents less than one percent of federal spending. Is the U.S. 
prepared to make NASA a sustained funding priority?

4.  Background--Previous Studies on Future Goals for Space\3\
---------------------------------------------------------------------------

    \3\ Based on Congressional Research Service Report 95-873, Space 
Activities of the United States, CIS [the Commonwealth of Independent 
States] and other Launching Countries/Organizations 1957-1994, Marcia 
S. Smith, Specialist in Science and Technology Policy
---------------------------------------------------------------------------
    Over the last 40 years, numerous studies, commissions, and task 
forces have attempted to address the future of the U.S. civil space 
program, and the human space flight program in particular. The 
following provides a summary of several key studies.
National Commission on Space--(The Paine Commission, 1986)
    In 1984, Congress created a commission to look at the long-term 
future of the civil space program. Chaired by former NASA Administrator 
Thomas O. Paine, the 15-member panel spent a year developing a 50-year 
plan. This plan was detailed in their report Pioneering the Space 
Frontier. In summary, the Commission called for the United States to 
lead the way in opening the inner solar system for science, 
exploration, and development. The Commission envisioned the 
establishment of bases on the Moon and Mars and the creation of a 
routine transportation system among the Earth, Moon, and Mars. The 
Commission emphasized that it was not trying to predict the future, but 
rather show what the United States could do if it chose to do so. The 
Commission envisioned human exploration missions returning to the Moon 
by 2005 and going to Mars by 2015. The report detailed a program 
involving both robotic and human exploration, acting synergistically to 
achieve the goal of opening the solar system. The report did not 
provide a cost estimate for carrying out its recommendations, but 
identified three principal benefits: (1) advancement of science and 
technology; (2) economic benefit of low-cost launch systems; and (3) 
opening up new worlds on the space frontier.
Leadership and America's Future in Space--(The Ride Report, 1987)
    Astronaut Sally Ride's report Leadership and America's Future in 
Space was prepared as an internal NASA report. The report stated that 
the U.S. had lost its leadership in space and was in danger of being 
surpassed by other countries. The report argued that to regain 
leadership the U.S. space program must have two attributes: (1) a sound 
program of scientific research and technology development; and (2) 
significant and visible accomplishments. The report detailed four 
programs areas for comparatively near-term (15-20 year) activities: 
Mission to Planet Earth (now called Earth Science), robotic exploration 
of the solar system, a Moon base, and sending humans to Mars. The 
report recommended that NASA pursue programs in each of these areas. 
The report envisioned humans returning to the Moon by 2000, preceded by 
robotic probes to select a site for the Moon base. The report proposed 
one-year expeditionary missions to Mars between 2005 and 2010. The 
report concluded that settling Mars should be an eventual goal. As a 
result of the Ride report, NASA established the Office of Exploration 
to investigate long-range proposals for human exploration to the Moon 
and Mars.
President Bush's Space Exploration Initiative (SEI)--1989-1993
    On July 20, 1989, the 20th anniversary of the first Apollo landing 
on the Moon, President Bush made a major space policy address, 
endorsing the goal of returning humans to the Moon and then going on to 
Mars ``in the 21st Century.'' The program was referred to as the Space 
Exploration Initiative (SEI). At the time the President made his 
statement in 1989, the Director of the Office of Management and Budget 
suggested that the program would cost $400 billion over 30 years. While 
Congress endorsed the philosophy of the program, Congress was reluctant 
to approve the program because of the expected cost. The SEI program 
was formally terminated in 1993 and the NASA Office of Exploration was 
dismantled.
The Advisory Committee on the Future of the U.S. Space Program--(The 
        Augustine Report, 1990)
    In 1990, concerns about problems with several NASA programs (Hubble 
Space Telescope's flawed mirror, hydrogen leaks grounding the Shuttle 
for five months, and several issues with the Space Station program) 
prompted the White House to strongly encourage NASA to establish an 
outside advisory panel to reviews its programs and management. The 
panel was chaired by then-Chairman and CEO of Martin Marietta Inc., 
Norman Augustine. The panel recommended that NASA's budget increase by 
10 percent per year after inflation. The report recommended activities 
for NASA in five major areas. They were: (1) Space Science (e.g., 
Hubble Space Telescope), which the report said should be NASA's highest 
priority and be maintained at 20 percent of NASA's overall budget; (2) 
Mission to Planet Earth (now called Earth Science); (3) Mission from 
Planet Earth, which would include robotic spacecraft needed as 
precursors to human exploration. The long-term goal would be human 
exploration of Mars. No specific timetable for this mission was set. 
Instead, the panel urged NASA to adopt a philosophy of ``go-as-you-
pay;'' (4) space technology, (i.e., design of subsystems and materials 
for spacecraft) for which the report said spending should double or 
triple; and (5) development of a ``heavy lift'' unmanned, expendable 
launch vehicle to complement the Space Shuttle. The panel stated that 
if the 10 percent budget increases were not available the programs 
should be prioritized as follows: (1) Space Science; (2) Mission to 
Planet Earth; (3) heavy lift launch vehicle; (4) technology 
development: and (5) Mission from Planet Earth.
National Academy of Sciences Study--The Human Exploration of Space, 
        1997
    In 1997, the Academy undertook a study of the role of science in 
human space exploration. The study examined scientific activities that 
must be conducted before human exploration beyond Earth orbit could be 
practically undertaken and science that would be enabled or facilitated 
by human presence. The study concluded that clear goals must be set and 
that an integrated science program, with the appropriate balance of 
human and robotic missions, to collect relevant data to enable future 
missions beyond Earth orbit should be pursued.
Columbia Accident Investigation Board (CAIB)--(The Gehman Report, 2003)
    In its August report, the CAIB concluded that there was a 
problematic mismatch between NASA's missions and its budget. This 
occurred because NASA and/or Congress failed to scale back NASA's 
missions when funding did not match requested levels or when initial 
cost estimates proved to be inaccurate. The CAIB also pointed out that 
``for the past three decades, NASA has suffered because of the ``lack. 
. .of any national mandate providing NASA a compelling mission 
requiring human presence in space.'' The CAIB stated that investments 
in a ``next generation launch vehicle'' will be successful only if the 
investment ``is sustained over the decade; if by the time a decision to 
develop a new vehicle is made there is a clearer idea of how the new 
space transportation system fits into the Nation's overall plans for 
space; and if the U.S. Government is willing at the time a development 
decision is made to commit the substantial resources required to 
implement it.'' For further CAIB comments, see Attachment A.

5. Witnesses

Dr. Michael Griffin is the President and Chief Operating Officer of In-
Q-Tel. He has nearly 30 years of experience managing information and 
space technology organizations. Dr. Griffin has served as Executive 
Vice President and CEO of Magellan Systems Division of Orbital Sciences 
Corporation, and as EVP and General Manager of Orbital Space Systems 
Group. Prior to that he served as both the Chief Engineer and Associate 
Administrator for Exploration at NASA, and at the Pentagon as the 
Deputy for Technology of the Strategic Defense Initiative Organization.

Dr. Wesley T. Huntress is the Director of the Carnegie Institution's 
Geophysical Laboratory. From 1993 to 1998 he was NASA's Associate 
Administrator for Space Science. In this position he was responsible 
for NASA's programs in Astrophysics, Planetary Exploration and Space 
Physics. Previously, he was Director of the Solar System Exploration 
Division. Dr. Huntress earned his B.S. in Chemistry at Brown University 
in 1964, and his Ph.D. in Chemical Physics at Stanford University in 
1968. He is the recipient of a number of honors including the NASA 
Exceptional Service Medal.

Dr. Matthew B. Koss is an Assistant Professor of Physics of the College 
of Holy Cross in Worcester, Massachusetts. He has been the Lead 
Scientist on several Space Shuttle microgravity flight experiments 
flown on STS-62, STS-75, and STS-87. He received an AB degree from 
Vassar College in 1983 and a Ph.D. in Experimental Condensed Physics 
from Tufts University in 1989.

Dr. Alex Roland is Professor of History and Chairman of the Department 
of History at Duke University, where he teaches military history and 
the history of technology. From 1973 to 1981 he was a historian with 
NASA. He has written and lectured widely on the United States manned 
space flight program. He is past President of the Society for the 
History of Technology and of the U.S. National Committee of the 
International Union for the History and Philosophy of Science.

Dr. Bruce Murray is Professor Emeritus of Planetary Science and Geology 
at the California Institute of Technology. He was Director of the NASA/
Caltech Jet Propulsion Laboratory from 1976 to 1982, which included the 
Viking landings on Mars and the Voyager mission through Jupiter and 
Saturn encounters. In 1979, he, the late Carl Sagan, and Louis Friedman 
founded The Planetary Society. He has published over 130 scientific 
papers and authored or co-authored six books. He received his college 
education at M.I.T., culminating in the Ph.D. in 1955.

6. Witness Questions

    All the witnesses except Dr. Koss were asked to layout an option 
that they believed NASA should pursue and answer the following 
questions in their testimony:

        <bullet>  What is the U.S. likely to gain by your proposed 
        option for human space flight and why could such gains not be 
        obtained in other ways?

        <bullet>  What is a rough estimate of the costs of pursuing 
        your proposed option? What is the approximate amount of time 
        that it would take to achieve the goals of your proposed 
        option?

        <bullet>  What are the technical hurdles that must be overcome 
        in pursuing your option and the steps that must be taken to 
        overcome those hurdles? (i.e., are there intermediate program 
        goals and when might these be achieved?)

        <bullet>  What are the implications of your option for the 
        current human space flight program? To what degree does the 
        current program contribute to, or impede other options that 
        could be pursued?

    Dr. Koss was asked to answer these questions:

        <bullet>  How necessary is it to have the participation of 
        people in space for successful research in material sciences? 
        What proportion, if any, of the experiments now conducted on 
        the Space Shuttle or Space Station could be conducted 
        autonomously with unmanned systems? If researchers no longer 
        had access to the Space Shuttle or Space Station how would 
        advancement in the material sciences be affected?

        <bullet>  What alternatives exist to carry to orbit micro-
        gravity experiments that could be conducted autonomously if the 
        Space Shuttle or Space Station were not available for whatever 
        reason? If none, how much would it cost NASA to provide 
        researchers such an alternative?

        <bullet>  To what extent, if any, would a more ambitious 
        mission for NASA, such as sending people back to the Moon or to 
        Mars, be likely to provide material science researchers with 
        unique opportunities for experimentation?

7. Attachments:

        <bullet>  Attachment A: Excerpt from the Columbia Accident 
        Investigation Board Report.

        <bullet>  Attachment B: NASA's five-year budget runout.

        <bullet>  Attachment C: Editorial by Dr. Matthew B. Koss.

ATTACHMENT A

Excerpted from the Columbia Accident Investigation Board Report Volume 
        1, Chapter 9, August 2003.

``Lack of a National Vision for Space''

    In 1969 President Richard Nixon rejected NASA's sweeping vision for 
a post-Apollo effort that involved full development of low-Earth orbit, 
permanent outposts on the Moon, and initial journeys to Mars. Since 
that rejection, these objectives have reappeared as central elements in 
many proposals setting forth a long-term vision for the U.S. Space 
program. In 1986 the National Commission on Space proposed ``a 
pioneering mission for 21st century America: To lead the exploration 
and development of the space frontier, advancing science, technology, 
and enterprise, and building institutions and systems that make 
accessible vast new resources and support human settlements beyond 
Earth orbit, from the highlands of the Moon to the plains of Mars.'' 
\4\ In 1989, on the 20th anniversary of the first lunar landing, 
President George H.W. Bush proposed a Space Exploration Initiative, 
calling for ``a sustained program of manned exploration of the solar 
system.'' \5\ Space advocates have been consistent in their call for 
sending humans beyond low-Earth orbit as the appropriate objective of 
U.S. space activities. Review committees as diverse as the 1990 
Advisory Committee on the Future of the U.S. Space Program, chaired by 
Norman Augustine, and the 2001 International Space Station Management 
and Cost Evaluation Task Force have suggested that the primary 
justification for a space station is to conduct the research required 
to plan missions to Mars and/or other distant destinations. However, 
human travel to destinations beyond Earth orbit has not been adopted as 
a national objective. The report of the Augustine Committee commented, 
``It seems that most Americans do support a viable space program for 
the Nation--but no two individuals seem able to agree upon what that 
space program should be.'' \6\ The Board observes that none of the 
competing long-term visions for space have found support from the 
Nation's leadership, or indeed among the general public. The U.S. 
civilian space effort has moved forward for more than 30 years without 
a guiding vision, and none seems imminent. In the past, this absence of 
a strategic vision in itself has reflected a policy decision, since 
there have been many opportunities for national leaders to agree on 
ambitious goals for space, and none have done so.''
---------------------------------------------------------------------------
    \4\ National Commission on Space Pioneering the Space Frontier: An 
Exciting Vision of Our Next Fifty Years in Space, Report of the 
National Commission on Space (Bantam Books, 1986), p. 2.
    \5\ President George H.W. Bush, ``Remarks on the 20th Anniversary 
of the Apollo 11 Moon Landing,'' Washington, D.C., July 20, 1989.
    \6\ ``Report of the Advisory Committee on the Future of the U.S. 
Space Program,'' December 1990, p. 2.


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

---------------------------------------------------------------------------
ATTACHMENT C

Copyright 2003 The New York Times Company
The New York Times

June 29, 2003, Sunday, Late Edition--Final

                  How Science Brought Down the Shuttle

                           By Matthew B. Koss
    Matthew B. Koss is an assistant professor of physics at the College 
of the Holy Cross.

    As a scientist whose experiments were carried out on three missions 
of the Space Shuttle Columbia, I have been following with great 
interest the findings of the board looking into the Shuttle's demise. 
Though a piece of foam may be found ultimately responsible, as the 
Columbia Accident Investigation Board announced last week, on some 
level I feel personally culpable for the loss of the seven astronauts. 
In-orbit experiments like mine have been used to justify manned space 
projects like the Shuttle for decades.
    The truth is that the vast majority of scientific experiments 
conducted in orbit--including my own--do not require astronauts. The 
main reason for in-orbit experimentation is to observe how a scientific 
process works without gravity-driven influences. But almost all of 
these tests, save those that must be done on humans, can be controlled 
from the ground via computer or by robots in space. In fact, some of 
the best work is done this way when the crew is asleep, not moving 
about and causing vibrations.
    To be sure, a lot of important science has been conducted in orbit. 
For example, research on the large single crystals of silicon that are 
at the heart of computer chips arose from the many detailed studies of 
crystal growth on the Space Shuttle. But, in fact, experiments like 
these are often more efficient and yield more fruitful results when 
done without the involvement of astronauts.
    The science performed on the Shuttle can be classified as either a 
payload or a mid-deck laboratory experiment. Payload experiments are 
self-contained packages mounted in the payload bay, the wide open space 
in the back of the Shuttle. They either run autonomously or are 
controlled remotely via computers on the ground. Laboratory experiments 
are performed in the mid-deck or Spacelab module, and are done by the 
astronauts with computer assistance from the ground.
    My experiments, on the fundamentals of how liquids turn into 
solids, were originally planned for the mid-deck, where they would be 
controlled by an astronaut who was scheduled to do eight tests. But 
because of launching delays, the project was changed to a payload 
experiment that would perform tests autonomously. During the flight, 
initial data was transmitted to the ground and analyzed by me and my 
colleagues. Performing the experiment remotely, without crew 
involvement, allowed us to do 63 test runs.
    (Remote-controlled experiments may seem to contradict images we 
have grown accustomed to--of happy, busy astronauts manipulating 
scientific equipment or talking about the science on-board, or 
occasionally reporting on the objectives of experiments. But this 
public image of astronauts as laboratory scientists working on their 
own experiments is a bit misleading. Since the Mercury 7 pioneers, the 
astronaut corps has served one overriding political and public 
relations purpose--to sell the space program.
    The idea of using the Space Shuttle as a scientific laboratory 
actually came about after the Shuttle's design was already in place. 
The Shuttle program was conceived in the waning days of the Apollo 
program as the best option to continue a manned space program at the 
lowest cost. However, without a place to shuttle to, and not nearly 
enough satellites that needed a Shuttle to launch or repair them, the 
Shuttle program succeeded in doing little beyond creating a human 
presence in space. The idea of the Shuttle as an in-orbit lab was used 
as a justification for investment in its future.
    Similarly, the International Space Station has been aggressively 
marketed as a science lab. In fact, the Station is seriously flawed in 
that too much crew time needs to be committed to Station maintenance, 
and too many of the planned experiments depend on crew operations when 
they could more effectively be done without them. In many cases, the 
crew is needed only to deploy an autonomous experiment.
    Because of cost overruns and budget problems, the Station's crew 
was cut back to three from the planned seven. Originally, 120 
astronaut-hours per week were to have been devoted to science; this has 
been cut back to 20 hours per week. With the Shuttle program grounded 
once again, it has become even more difficult to exchange crews, 
replace experiments or repair and refurbish equipment.
    Scientific experimentation in space can be safer and more cost 
effective using long-duration remote controlled orbital spacecraft. At 
the outset, the costs of developing this technology may appear greater 
than simply perfecting the Shuttle. But if you do not need to provide a 
safe and sustaining environment for astronauts--making sure takeoffs 
and landings aren't too fast, providing enough food and oxygen--the 
overall cost will be significantly reduced.
    If NASA is not able to convince the public of the importance of 
science in orbit without astronaut involvement, then so be it. At least 
America's refusal to support science would be honest, would not 
needlessly endanger human lives or compromise the integrity of science 
and scientists.
    We will always need astronauts to assume certain risks to develop 
the technology that allows for human exploration of space. The space 
shuttles and space stations may be necessary to fulfill that mission. 
However, we need to separate the goal of scientific experimentation 
from the desire for space exploration. I hope that the unfortunate 
death of the Columbia astronauts will forever sever the false link that 
has been created between the two.
    Astronauts do not risk their lives to perform scientific 
experiments in space. They fly to fulfill a much more basic and human 
desire--to experience the vastness of space.
    Chairman Boehlert. We are going to start right away as some 
of our Members are coming in. We are told that in 15 minutes or 
so we are going to be rudely interrupted by the bells calling 
us to the Floor. That is unfortunate, but off we go.
    The hearing will come to order. I want to welcome everyone 
here for our second hearing on the President's proposed space 
exploration initiative. I am going to keep my comments brief, 
because we are going to have to break for votes soon, and 
because my concerns with the President's proposal should be 
well understood by now.
    I think all I need to say about my views this morning is to 
reiterate that I remain undecided about whether and how to 
undertake the exploration program. I would add that, as the 
outlines of the likely fiscal year 2005 budget becomes clearer, 
my questions about the initiative only become more pressing.
    We could not ask for a better panel to help answer those 
questions than the one we have before us today. I am truly 
honored to have such a distinguished group of experts here, 
people with long and deep experience with the space program who 
have nonetheless remained probing and independent thinkers 
about space policy.
    The panelists have also done us the great and all too rare 
service in their testimony of responding very directly to the 
specific questions that were posed to them, and that will help 
us have a focused and truly interactive session this morning 
with, I hope, plenty of discussion among the witnesses 
themselves.
    The questions we posed are some of the fundamental ones 
that Congress must consider as it evaluates the initiative: 
Exactly what role should humans play in exploration? To what 
extent can the International Space Station and the Moon play a 
useful role in a program whose ultimate goal is Mars? Are the 
cost and schedule estimates realistic? Can the program be 
funded without doing undue harm to other NASA programs? What 
challenges must we meet to enable humans to remain healthy 
during long stays in space, and how can we meet those 
challenges?
    We have also asked for guidance on what other questions 
Congress should be asking, and I can think of no more 
distinguished people than the people before us today to address 
those questions to.
    Our witnesses this morning, all of whom support the 
initiative in principle, have a variety of thoughtful answers 
to our questions. I very much look forward to hearing from 
them.
    Mr. Gordon.
    [The prepared statement of Mr. Boehlert follows:]
            Prepared Statement of Chairman Sherwood Boehlert
    I want to welcome everyone here for our second hearing on the 
President's proposed space exploration initiative. I'm going to keep my 
comments brief because we're going to have to break for votes soon, and 
because my concerns with the President's proposal should be well 
understood by now.
    I think all I need to say about my views this morning is to 
reiterate that I remain undecided about whether and how to undertake 
the exploration program. I would add that, as the outlines of the 
likely fiscal 2005 budget become clearer, my questions about the 
initiative only become more pressing.
    We could not ask for a better panel to help answer those questions 
than the one we have before us this morning. I truly am honored to have 
such a distinguished group of experts here--people with long and deep 
experience with the space program who have nonetheless remained probing 
and independent thinkers about space policy.
    The panelists have also done us the great and all too rare service, 
in their testimony, of responding very directly to the specific 
questions that were posed to them, and that will help us have a focused 
and truly interactive session this morning with, I hope, plenty of 
discussion among the witnesses themselves.
    The questions we posed are some of the fundamental ones that 
Congress must consider as it evaluates the initiative: Exactly what 
role should humans play in exploration? To what extent can the 
International Space Station and the Moon play a useful role in a 
program whose ultimate goal is Mars?
    Are the cost and schedule estimates realistic? Can the program be 
funded without doing undue harm to other NASA programs? What challenges 
must we meet to enable humans to remain healthy during long stays in 
space and how can we meet those challenges?
    We've also asked for guidance on what other questions Congress 
should be asking.
    Our witnesses this morning--all of whom support the initiative in 
principle--have a variety of thoughtful answers to our questions. I 
very much look forward to hearing from them.
    Mr. Gordon.

    Mr. Gordon. Thank you, Mr. Chairman, and good morning. 
Welcome to the witnesses. There are many important issues 
associated with the President's space exploration initiative, 
and I look forward to hearing your perspectives.
    I come to this hearing as one who believes that it is 
important for the U.S. civil space program to have challenges 
and long-term goals. And also, I want to welcome--or welcomed 
the President's January the 14th speech announcing some 
specific exploration goals, including returning to the Moon and 
eventually human missions to Mars.
    At the same time, we all know that a speech is not a plan, 
and Congress is going to need to know a lot more about the 
initiative if we are going to evaluate its viability. 
Unfortunately, the initial explanations have raised more 
questions than they have answered.
    As you know, last month when I asked the President's 
science advisor and the NASA Administrator what the President 
was told about the cost of this initiative, I couldn't get a 
clear answer. I hope that we will get one soon, and that it 
will be much more clear.
    However, ``affordability'' is about more than just how much 
it will cost to return the U.S. astronauts to the Moon. 
``Affordability'' also has to do with the impact made to the 
rest of NASA's program in order to fund the President's plan. 
In that regard, the cuts, the deferrals, the cancellations that 
will be made over the next five years to the space launch, 
space science, Earth science, and biological and physical 
research activities have already been publicized. What has not 
gotten much attention is the impact on the non-exploration 
parts of NASA's budget over the next decade and a half. In 
fact, in order to fund the exploration initiative, NASA's plan 
assumes that Earth science, aeronautics, basic biological and 
physical research, space science research on Sun-Earth 
connections, space science research on the structure and 
evolution of the universe, space communications, and education, 
as well as their associated infrastructure requirements will 
all be lumped into a single funding pot that will be best--will 
be, at best, a flat and, more likely, shrinking in purchasing 
power between now and 2020. That seems to me to be neither a 
wise nor realistic approach.
    So Mr. Chairman, I support the goal of exploring our solar 
system, however, until I am convinced that the President's plan 
to achieve that goal is credible and responsible, I am not 
prepared to give that plan my support. I think NASA has a lot 
of work ahead of it if it is going--if it intends to develop a 
plan that can garner national consensus behind it. And I hope 
that our witnesses will help identify some of the issues that 
we need to address.
    Once again, I welcome our witnesses today, and look forward 
to your very important testimony.
    [The prepared statement of Mr. Gordon follows:]
            Prepared Statement of Representative Bart Gordon
    Good morning. I want to welcome the witnesses to today's hearing. 
There are many important issues associated with the President's space 
exploration initiative, and I look forward to hearing your 
perspectives.
    I come to this hearing as one who believes that it is important for 
the U.S. civil space program to have challenging long-term goals. Thus, 
I welcomed the President's January 14th speech announcing some specific 
exploration goals, including a return to the Moon and eventual human 
missions to Mars.
    At the same time, we all know that a speech is not a plan. Congress 
is going to need to know a lot more about the initiative if we are to 
evaluate its viability. Unfortunately, the initial explanations have 
raised more questions than they have answered.
    As you know, last month when I asked the President's science 
advisor and the NASA Administrator what the President was told about 
the cost of his initiative, I couldn't get a clear answer. I hope that 
we get one before too much longer.
    However ``affordability'' is about more than just how much it will 
cost to return U.S. astronauts to the Moon. ``Affordability'' also has 
to do with the impacts made to the rest of NASA's programs in order to 
fund the President's plan. In that regard, the cuts, deferrals, and 
cancellations that will be made over the next five years to the space 
launch, space science, Earth science, and biological and physical 
research activities have already been publicized. What has not gotten 
much attention is the impact on the non-Exploration parts of NASA's 
budget over the next decade and a half. In fact, in order to fund the 
exploration initiative, NASA's plan assumes that:

        <bullet>  Earth Science,

        <bullet>  Aeronautics,

        <bullet>  Basic biological and physical research,

        <bullet>  Space science research on Sun-Earth Connections,

        <bullet>  Space science research on the structure and evolution 
        of the universe,

        <bullet>  Space communications, and

        <bullet>  Education,

        <bullet>  As well as their associated infrastructure 
        requirements. . .

    . . .will all be lumped into a single funding pot [the Aeronautics 
and Other Science category] that will at best be flat and more likely 
be shrinking in purchasing power between now and 2020. That seems to me 
to be neither a wise nor a realistic approach.
    Mr. Chairman, I support the goal of exploring our solar system. 
However, until I am convinced that the President's plan to achieve that 
goal is credible and responsible, I am not prepared to give that plan 
my support. I think NASA has a lot of work ahead of it if it intends to 
develop a plan that can garner a national consensus behind it, and I 
hope that our witnesses will help identify some of the issues that need 
to be addressed.

    Chairman Boehlert. Thank you very much, Mr. Gordon.
    Our panel today consists of: Mr. Norman Augustine, former 
Chief Executive Office of Lockheed Martin, Chair, Advisory 
Committee on the Future of the U.S. Space Program; Dr. Michael 
Griffin, President, In-Q-Tel, former Chief Engineer, NASA, 
former Associate Administrator, Exploration Systems at NASA; 
Dr. Donna Shirley, Director, Science Fiction Museum, former 
Manager, Jet Propulsion Laboratory's Mars Program, former 
Assistant Dean, University of Oklahoma Aerospace Mechanical 
Engineering Department; Dr. Larry Young, Apollo Program 
Professor, Massachusetts Institute of Technology, founding 
Director of the National Space Biomedical Research Institute; 
and Dr. Lennard Fisk, Chair, Space Studies Board, National 
Academy of Sciences, Chair, Department of Atmospheric, Oceanic, 
and Space Sciences, University of Michigan, former Associate 
Administrator, Space Science and Applications, NASA.
    As our audience, and certainly this--the Members up here 
realize, this is a very distinguished panel, and I thank all of 
you for serving as resources to this committee. Your minds are 
fertile ground to be attacked, and we look forward to hearing 
from you, and, more importantly, we look forward to a healthy 
and productive exchange.
    Mr. Augustine, you are up first.

 STATEMENT OF MR. NORMAN R. AUGUSTINE, FORMER CHIEF EXECUTIVE 
  OFFICER, LOCKHEED MARTIN; CHAIR, ADVISORY COMMITTEE ON THE 
                FUTURE OF THE U.S. SPACE PROGRAM

    Mr. Augustine. Well, good morning, Mr. Chairman, and 
Members of the Committee. And thank you for the invitation to 
appear before you today. With your permission, I would like to 
submit a formal statement for the record.
    Chairman Boehlert. Without objection, the formal statements 
of all of the witnesses will appear in their entirety. We would 
ask that you summarize it. Don't get nervous if the red light 
comes on, Mr. Augustine. What you have to say is too important 
to be deterred by a red light, and the same holds true for the 
other panel members. But the shorter the initial presentation, 
the more opportunity we have for questions.
    Mr. Augustine. Well, before beginning, I probably should, 
in the spirit of full disclosure of possible conflicts of 
interest, call to your attention that I am a retiree and a 
board member of Lockheed Martin Corporation, former President 
of the American Institute of Aeronautics and Astronautics, a 
former director of The Planetary Society, and a former chairman 
of the Aerospace Industry Association.
    I--with that said, I have been asked to address the 
findings to the Committee on the Future of the U.S. Space 
Program, a committee that was convened 14 years ago by then-
President Bush. I have also been asked to share with you my 
personal thoughts on several specific issues you have raised.
    The committee which I chaired in about 1990 found a NASA 
that was overextended in terms of funding demands of the 
programs it was undertaking as compared to the funding that was 
available. The Space Shuttle and the Space Station were, and 
are today, major consumers of the NASA budget, leaving 
relatively limited room for other initiatives.
    We concluded that America's space program should be a 
balanced program, involving both humans in space and the use of 
robotic spacecraft. We observed that science should be given 
first priority, since science is the basis of new knowledge and 
thereby also forms the underpinnings of technological progress 
as well.
    We concluded the space transportation was, and I might note 
is, the primary impediment to a continuing healthy space 
program. It was concluded that we should not use humans in 
space as ``truck drivers.'' Rather, we should limit their roles 
to instances where humans in situ can, in fact, make a 
difference. We observed reluctantly, but explicitly, that it 
was not a matter of if we would lose another Space Shuttle, but 
only a matter of when. This unfortunate conclusion was based on 
our belief that the reliability estimates, which were then 
being attributed to the Shuttle, were grossly optimistic. We 
predicted that such a loss would probably occur in the next 
several years. And we went on to note that if America does not 
have the will to endure occasional losses, having taken all 
reasonable steps to avoid them, we should reconsider whether 
our nation belongs in space at all.
    Finally, we concluded that a human trip to Mars is the 
correct long-term goal of America's space program, using the 
Moon as a stepping stone to achieve that goal.
    That summarizes some of the findings of our commission. 
Many of the observations are, perhaps, relevant today. I would 
like now to turn to my own perspective and address the specific 
questions that you have asked. First, I continue to believe 
that a human mission to Mars is the proper long-term objective, 
and should be approached in a step-wise fashion: first the 
Space Station, then the Moon, and then Mars. There will be 
those who will say of a manned lunar mission ``been there, done 
that,'' but there are good engineering and programmatic reasons 
for this sequential approach.
    While there are technical challenges to be met, especially 
in the fields of propulsion, electric power generation, and 
human factors, by far, the greatest challenge that we will face 
will be to provide adequate funding and to do so over an 
extended period of time. It is ironic that this should be the 
case, but far and away, the greatest risk that we could create 
would be to undertake a complex mission without adequate 
funding, including reserves, in terms of money, time, and 
technical approaches. That is why our committee originally 
proposed a ``go-as-you-pay'' approach to a Mars program.
    With regard to the respective roles of humans and robots, I 
believe robots are best suited for very high-risk undertakings, 
very long duration, remote missions, and functions which 
require minimal adaptability, such as monitoring and reporting. 
In contrast, humans would be best suited for missions that 
involve exploration, construction, and repair.
    Looking at the priority of a Mars mission in the grand 
scheme of things, I don't think that such a mission can be 
justified solely on the basis of technological and economic 
benefits. I believe that one must include intangibles, but very 
real, benefits as well.
    The science programs conducted by the NIH and NSF have seen 
significant growth, although I would note that the hard 
sciences, physics, chemistry, and their partners, mathematics 
and engineering, have been neglected. Do I believe that going 
to Mars is more important than, say, cancer research? Clearly, 
the answer is no. But do I believe that America, which spends 
large sums on Hollywood movies, video games, rock concerts, 
football players, and yes, even golf courses, cannot afford to 
explore the solar system with humans? The answer is, again, a 
resounding no. It is noteworthy that few pursuits seem to 
attract the interest of America's youth towards science and 
technology as does the intrigue of exploring space. This is a 
non-trivial consideration in our world wherein our standard of 
living increasingly depends on our preeminence in science and 
technology, yet a world in which the United States graduates a 
declining number of engineers virtually every year: 58,000 last 
year as compared with India's 80,000, Japan's 200,000, and 
China's 800,000.
    I would thus conclude--close by observing simply that one 
day humans will stand on Mars, and the only questions are when 
and who? The first Martian might well be in the fourth grade 
somewhere right now. Hopefully it is somewhere in the United 
States.
    Thank you very much.
    [The prepared statement of Mr. Augustine follows:]
               Prepared Statement of Norman R. Augustine
    Mr. Chairman and Members of the Committee, thank you for the 
invitation to appear before you today. I am pleased that you are taking 
this opportunity to examine America's space program and hope that a 
plan can be created which will endure over time and in which all 
Americans can take pride.
    Before making my statement I should, in the spirit of full 
disclosure, call to your attention that I am a retiree and Board Member 
of the Lockheed Martin Corporation, a former President of the American 
Institute of Aeronautics and Astronautics, a former director of The 
Planetary Society and a former chairman of the Aerospace Industry 
Association.
    I have been asked to address the findings of the Committee on the 
Future of the U.S. Space Program, a committee which was established 
approximately fourteen years ago by then-President Bush. I will briefly 
summarize what I believe were some of our more significant findings and 
recommendations and, as you have requested, close with a few brief 
observations of my own.
    It goes without saying that a great deal has changed since the 
commission which I chaired conducted its work. Today there is no Soviet 
Union dedicating substantial resources to maintain its own dynamic 
space program--and thereby providing a competitive impetus to America's 
space program. In fact, rather than the Soviets and the U.S. being 
adversaries in space, the company I recently had the privilege of 
serving is now a partner in launching commercial spacecraft with those 
same Soviet enterprises that conducted the USSR space program of an 
earlier era--a notion that would have been unimaginable during the 
period preceding our committee's deliberations.
    And there have been other significant changes which have impacted 
America's space program during the period which has intervened. For 
example,

        <bullet>  China is emerging as a major space participant, 
        having recently taken particularly significant steps toward 
        full membership in the space community.

        <bullet>  The United States has not realized the ten percent 
        annual growth in the NASA budget that was forecast by virtually 
        all senior officials in both the Executive Branch and the 
        Congress at the time our commission commenced its work. In 
        fact, NASA's budget, although still significant, has diminished 
        in real terms.

        <bullet>  The commercial space business, (constructing and 
        launching spacecraft) which seemed to hold such great promise a 
        decade ago has largely been reduced to a commodity market and 
        as such has, from an economic standpoint at least, been a 
        disappointment.

        <bullet>  America's space industrial base has shrunk from a 
        number of relatively healthy aerospace companies to a very few 
        firms still maintaining strong space credentials. . .this being 
        largely a consequence of the restructuring of the aerospace 
        industry which occurred when defense spending dropped 
        precipitously following the end of the Cold War.

        <bullet>  And there still seems to be no broad consensus as to 
        what America's long-term space program should comprise.

    On the other hand, a great deal has not changed. For example,

        <bullet>  Today we meet, as did our committee, in the wake of a 
        failure of the Space Shuttle. . .in our case, the Challenger.

        <bullet>  There continues to be strong grassroots support for a 
        space program, however, the transformation of that interest 
        into budgetary measures has not been evident.

        <bullet>  There remain severe competing and legitimate 
        pressures for federal funds. . .with the need to counter 
        terrorism supplanting certain of the demands of the Cold War.

        <bullet>  The number of U.S. citizens studying engineering has 
        continued to decline, even in the midst of the greatest 
        technological explosion in history--an explosion which is 
        growing our economy and modifying our lifestyle at a pace never 
        before witnessed. Meanwhile, the scientific and technological 
        capacities of many other nations are increasing markedly.

        <bullet>  America's K-12 educational system remains in 
        extremis, especially in the areas of science and technology--
        disciplines where space activity seems to be one of the few 
        pursuits that truly inspires many of our young people.

        <bullet>  There remains continuing concern over the apparent 
        loss of some of NASA's innovativeness, management acumen and 
        systems engineering skill. At the same time, NASA, without 
        question, remains the finest space organization in the world, 
        producing remarkable accomplishments on a continuing basis and 
        doing so openly and publicly for all to observe. . .for better 
        or for worse. Nonetheless, few would confuse the NASA of today 
        with the NASA of the Apollo era.

             Unfortunately, much of the public, and, of even greater 
        concern, some at NASA, seem to take for granted these 
        incredible achievements. Dan Goldin, when he was serving as 
        Administrator of NASA, shared with me an incident concerning a 
        citizen who had complained to him about NASA spending 
        substantial sums of money on meteorological satellites, asking, 
        ``Why do we need meteorological satellites? We have the weather 
        channel.''

    I would like now to turn to some of our commission's findings and 
recommendations. They are, I believe, surprisingly relevant today, even 
though well over a decade has passed since they were first stated. I 
will cite thirteen of the more significant of these findings and will 
address each only very briefly in deference to the time available.

        <bullet>  First, we found a NASA which was badly over-committed 
        in terms of the funding demands of the programs it was 
        undertaking as compared with the funding which was available. 
        The Space Shuttle and the Space Station were major consumers of 
        that budget, leaving little room for other initiatives while 
        making smaller projects highly vulnerable to the consequences 
        of cost-growth in these two major programs. A primary concern 
        was the lack of adequate reserves in terms of time, schedule 
        and technological approaches--a condition which exacerbated the 
        potential impact of risks already inherent in NASA's 
        challenging endeavors.

        <bullet>  Second, in the post-Apollo period there seemed to be 
        a lack of a broadly embraced national goal for our space 
        program. . .some would even say that America was lost in space. 
        At the same time, our commission believed that it was 
        inappropriate to set a firm date to achieve a specific major 
        space goal given the then-prevailing budgetary circumstances. 
        Rather, we felt it was important to invest first in building a 
        solid technological foundation for whatever was to be America's 
        long-term program and thereafter to conduct that program on 
        what we called a ``go-as-you-pay'' basis. . .an approach that 
        was recognized as differing markedly from the highly successful 
        strategy adopted by President Kennedy for the Apollo program. 
        Our recommendation was merely a reflection of the fact that 
        times had changed and that large sums of additional near-term 
        money to underpin a major space venture, such as a human Mars 
        program, were unlikely to be forthcoming.

        <bullet>  Third, we concluded that America's space program 
        should be a balanced program, involving both humans in space 
        and the use of robotic spacecraft. Although there were those 
        who exclusively advocated robotic systems, it was our belief 
        that public support for the overall space program would 
        diminish rapidly were the Nation to adopt a purely unmanned 
        approach to space exploration. As we pointed out in our report, 
        the difference between Hillary reaching the summit of Mt. 
        Everest and simply lobbing a rocket carrying an electronic 
        package to the mountain's crest is immense in terms of the 
        inspiration humankind derives from the feat.

        <bullet>  Fourth, we concluded that science should be the first 
        priority of our space program. . .since science is the basis of 
        new knowledge and thereby forms the underpinning of 
        technological progress.

        <bullet>  Fifth, there should be a mission to the planet Earth 
        as well as a mission from the planet Earth, the former focusing 
        on the Earth's biosphere and the need to protect our planet 
        from harmful activities which take place here on Earth.

        <bullet>  Sixth, space transportation was, and I might note is, 
        the primary impediment to a continuing healthy space program. 
        It was concluded that we should not use humans in space merely 
        as ``truck drivers''. . .rather, we should limit their role to 
        instances where humans insitu can in fact make a difference. In 
        short, we urgently needed to mitigate our dependence on the 
        Space Shuttle for logistical missions.

        <bullet>  Seventh, very high priority was placed on developing 
        a new unmanned (but potentially man-ratable) launch vehicle 
        with a relatively heavy lift capability. In this regard, we 
        recommended, as an economic move, that no additional Shuttles 
        be built.

        <bullet>  Eighth, the operation of the Space Shuttle should not 
        be viewed, as had increasingly been the case in the late 1980s, 
        as being somewhat analogous to running an airline. The Shuttle 
        was, and is, best characterized as an advanced development 
        program operating in a very unforgiving environment.

        <bullet>  Ninth, we noted quite explicitly that it was not a 
        matter of if we would lose another Space Shuttle but only a 
        matter of when. This unfortunate conclusion was based on our 
        belief that the reliability estimates which were then being 
        attributed to the Shuttle were grossly optimistic. In fact, we 
        predicted that such a loss would probably occur ``in the next 
        several years'' and we went on to note that if America does not 
        have the will to endure occasional losses--having taken all 
        reasonable steps to try to avoid them--we should then 
        reconsider whether our nation belongs in space at all. Space is 
        inherently a dangerous and risky place. . .one which is 
        altogether unforgiving of human failings. No one realizes this 
        more than the astronauts who fly our machines into space.

        <bullet>  Tenth, the Space Station program needed to be 
        restructured to place it on a more conservative schedule and 
        more realistic financial basis, importantly including the 
        provision of adequate reserves.

        <bullet>  Eleventh, there was a need to proceed with dispatch 
        in the development of some form of a space rescue vehicle. . .a 
        vehicle which could perhaps perform other important missions as 
        well.

        <bullet>  Twelfth, we concluded that a human trip to Mars is 
        the correct long-term goal for America's space program, using 
        the Moon as a stepping-stone along the way. Other possible 
        missions were considered, including establishing a permanent 
        station at the neutral gravity point in the Earth-Moon system. 
        This would in fact produce a useful way-station for exploration 
        of deeper space, however it provides an altogether 
        uninteresting locale for most other forms of scientific 
        enterprise. Alternatively, one could increase the effort 
        focused on Earth-orbiting spacecraft, however, the Space 
        Station seemed to be handling that goal very adequately and was 
        itself likely to suffer from the law of diminishing returns in 
        the longer-term. Missions to Phobos and Deimos appeared 
        exciting, but could be accomplished as a part of a Mars 
        project. Missions to other space objects would seem to be 
        candidates for the more distant future. Thus, a return to the 
        Moon followed by a Mars mission seemed to us to be the correct 
        long-term goal for America's space program.

        <bullet>  Thirteenth, and lastly, NASA's management structure, 
        engineering approach and overhead costs needed to be 
        streamlined. As with many mature organizations, the drive 
        toward self-perpetuation seemed to be overtaking enthusiasm for 
        innovation. The various Centers were often engaged in non-
        constructive competition with one another, seemingly united 
        only in their not-infrequent skirmishes with NASA headquarters.

    That, then, summarizes the principal findings of our commission of 
fourteen years ago. As I have noted, most of these observations seem 
quite relevant even today.
    Now, with your permission, I would like to conclude my remarks with 
four very brief observations not on behalf of our commission but on my 
own stead.
    First, if America is to have a robust space program it is critical 
that we build a national consensus as to what that program should 
comprise. If, for example, we are to pursue an objective that requires 
twenty years to achieve, that then implies we must have the sustained 
support of five consecutive presidential administrations, ten 
consecutive Congresses and twenty consecutive federal budgets--a feat 
the difficulty of which seems to eclipse any technological challenge 
space exploration may engender. This consideration argues for a major 
space undertaking that could be accomplished in step-wise milestones, 
each contributing to a uniting long-term goal. Such an approach has the 
added advantage that it reduces the risk associated with individual 
steps. It is this consideration which justifies a mission to Mars with 
an initial step to the Moon--as philosophically opposed to a return to 
the Moon with a potential visit to Mars.
    Second, I believe that the exploration of space with humans offers 
many scientific, technological and economic benefits. But these 
tangible benefits are, in my opinion, not sufficient in themselves to 
justify the cost of the undertaking. To do the latter one must assign 
value to intangibles, intangibles such as the excitement of exploring 
the unknown; of creating new knowledge; of stimulating science and 
engineering education; of undertaking challenging and inspiring goals; 
and of demonstrating to the world what America can do when it puts its 
mind to a task. Critics will of course suggest that we cannot afford 
such ``luxuries'' in a time of great and legitimate demands to address 
compelling earthly problems--but if they are correct, one must also ask 
whether we can then afford football stadiums, Hollywood entertainment, 
golf courses and a thousand other well accepted pursuits.
    Third, and this is extremely important, it would be a grave mistake 
to try to pursue a space program ``on the cheap.'' To do so is in my 
opinion an invitation to disaster. There is a tendency in any ``can-
do'' organization to believe that it can operate with almost any budget 
that is made available. The fact is that trying to do so is a mistake--
particularly when safety is a major consideration. I am not arguing for 
profligacy; rather, I am simply pointing out that space activity is 
expensive and that it is difficult. One might even say that it is 
rocket science!
    Significant funding will still be required for many years to 
support the operation of the Space Station and Space Shuttle. The NASA 
infrastructure itself absorbs substantial funds, as does the very 
important NASA research program. And there is always the problem that 
technology advances so rapidly that any project proceeding at too 
leisurely a pace will find itself constantly undertaking redesigns due 
to the obsolescence of the components it incorporates. . .sort of a 
never-ending ``do-loop.''
    And finally, as a general observation, I would like to strongly 
affiliate myself with the President's recently announced plan to send 
humans to Mars and to do so via a lunar way-station. One-day humans 
will stand on Mars. The only question is when. . .and who. The first 
Martian may well be in the fourth grade right now. Hopefully, somewhere 
in the United States.
    Thank you.

                   Biography for Norman R. Augustine
    NORMAN R. AUGUSTINE was raised in Colorado and attended Princeton 
University where he graduated with a BSE in Aeronautical Engineering, 
magna cum laude, an MSE and was elected to Phi Beta Kappa, Tau Beta Pi 
and Sigma Xi.
    In 1958 he joined the Douglas Aircraft Company in California where 
he held titles of Program Manager and Chief Engineer. Beginning in 
1965, he served in the Pentagon in the Office of the Secretary of 
Defense as an Assistant Director of Defense Research and Engineering. 
Joining the LTV Missiles and Space Company in 1970, he served as Vice 
President, Advanced Programs and Marketing. In 1973 he returned to 
government as Assistant Secretary of the Army and in 1975 as Under 
Secretary of the Army and later as Acting Secretary of the Army. 
Joining Martin Marietta Corporation in 1977, he served as Chairman and 
CEO from 1988 and 1987, respectively, until 1995, having previously 
been President and Chief Operating Officer. He served as President of 
Lockheed Martin Corporation upon the formation of that company in 1995, 
and became its Chief Executive Officer on January 1, 1996, and later 
Chairman. Retiring as an employee of Lockheed Martin in August, 1997, 
he joined the faculty of the Princeton University School of Engineering 
and Applied Science where he served as Lecturer with the Rank of 
Professor until July, 1999.
    Mr. Augustine served as Chairman and Principal Officer of the 
American Red Cross for nine years and as Chairman of the National 
Academy of Engineering, the Association of the United States Army, the 
Aerospace Industry Association, and the Defense Science Board. He is a 
former President of the American Institute of Aeronautics and 
Astronautics and the Boy Scouts of America. He is currently a member of 
the Board of Directors of ConocoPhillips, Black & Decker, Procter & 
Gamble and Lockheed Martin and was founding chairman of In-Q-Tel. He is 
a member of the Board of Trustees of Colonial Williamsburg and Johns 
Hopkins and a former member of the Board of Trustees of Princeton and 
MIT. He is a member of the President's Council of Advisors on Science 
and Technology and the Department of Homeland Security Advisory Board 
and was a member of the Hart/Rudman Commission on National Security.
    Mr. Augustine has been presented the National Medal of Technology 
by the President of the United States and has five times been awarded 
the Department of Defense's highest civilian decoration, the 
Distinguished Service Medal. He is co-author of The Defense Revolution 
and Shakespeare In Charge and author of Augustine's Laws and 
Augustine's Travels. He holds eighteen honorary degrees and was 
selected by Who's Who in America and the Library of Congress as one of 
the Fifty Great Americans on the occasion of Who's Who's fiftieth 
anniversary. He has traveled in nearly 100 countries and stood on both 
the North and South Poles.

    Chairman Boehlert. Thank you very much.
    Dr. Griffin.

   STATEMENT OF DR. MICHAEL D. GRIFFIN, PRESIDENT, IN-Q-TEL; 
 FORMER CHIEF ENGINEER, NASA; FORMER ASSOCIATE ADMINISTRATOR, 
                   EXPLORATION SYSTEMS, NASA

    Dr. Griffin. Thank you for inviting me to appear before the 
Committee to discuss our nation's future in human space flight. 
We are at a seminal moment in discussing that future, a moment 
which has followed inevitably from the tragic loss of Space 
Shuttle Columbia. If there is a single fundamental point to be 
found in the report of the Columbia Accident Investigation 
Board beyond identifying the technical and cultural causes of 
the mishap, it is that the Nation's human space flight program 
has, for decades, lacked a unifying theme or purpose worthy of 
its cost and risk. I believe it is now widely accepted that 
circling endlessly in low-Earth orbit does not qualify as such 
a purpose.
    The United States will not abandon manned space flight. Not 
to have the capability to fly humans in space when other 
nations do, and more will follow, is simply unacceptable for a 
great nation. But if we are not to abandon human space flight, 
and if our goals must reach beyond the Space Station, the 
geography of the solar system dictates the path. Only the Moon, 
Mars, and the nearer asteroids are within reach of the next few 
generations, and that is where the President's vision has 
directed us. It is the right path.
    But there are many potential roadblocks along the path. One 
of these is the cost of the vision and the allied question of 
whether there will or can be sufficient funding to support it. 
In my opinion, the issue is not whether enough money has been 
allocated to the President's initiative, but is, rather, why 
are we expecting so little for the money which has been 
allocated? Even worse, our expectations seem to decrease as 
time goes on. Budget estimates for the 2005 to 2020 period show 
an aggregate allocation of some $50 billion to $55 billion to 
rebuild a basic Apollo-like capability, NASA's words, by 2020. 
This estimate is considerably higher than that derived from the 
most thorough prior study of an Apollo-like return to the Moon, 
the First Lunar Outpost, which occupied many of us from 1991 
through 1993. Top level cost estimates were about $30 billion 
in 2003 dollars, 60 percent of today's allocation. This is 
difficult to understand.
    For advocates of space flight, including myself, more money 
is always better, but I would submit that our first order of 
business is to examine our culture, the aerospace culture, to 
understand why we believe it costs so very much more to operate 
in space than to perform other human activities of similar 
complexity. It is commonly supposed that there are great 
technical or physiological hurdles standing between us and 
fulfillment of the President's vision. Indeed, some of the 
architectures presented seem intended to stun the observer with 
sheer complexity. I don't recommend that we pursue those.
    In the early years, it will be best to proceed directly to 
the Moon and directly to Mars. If this is done, there is no 
fundamentally new technology required to enable a human return 
to the Moon, the establishment of a lunar base, or the first 
voyages to Mars. It is true that technical and physiological 
challenges do exist. Exploration missions will not be 
accomplished without risk, but while worthy of our attention, 
none of these is so daunting that we should stay home.
    If the International Space Station is to be completed, 
there are specific tasks associated with going to Mars for 
which it can be useful, including biomedical experiments, crew 
training, or as a test bed for the space qualification of 
systems and vehicles. In a word, ISS will help--is helping us 
to learn to live and work in space.
    But the more important question is whether the value to be 
obtained from ISS is worth the money yet to be invested in its 
completion. The Nation plans to allocate $32 billion to ISS 
through 2016 and another $28 billion to Shuttle operations, 
which support it, through 2011. This total of $60 billion is 
significantly higher than NASA's current allocation for human 
lunar return. It is beyond reason to believe that ISS can 
fulfill any set of objectives for space exploration that would 
be worth the $60 billion remaining to be invested in the 
program. Moreover, given recent--given present budget 
constraints, we return to the Moon in 2020, thus accomplishing 
in 16 years what it required eight years to achieve the first 
time. This is not because the task is more difficult or because 
we are so much less capable than our predecessors, but because 
we do not actually begin work on it until 2011. I do not need 
to point out to this body the political pitfalls endemic to 
such a plan.
    I, and others, have elsewhere advocated that the Shuttle be 
returned to flight and the ISS brought to completion if only 
because the program's two decade advocacy by the United States 
and our commitment to our international partners should not be 
abandoned. But if there is no additional money to be allocated, 
this position must be questioned. It is worth asking whether 
our international partners might judge it similarly.
    With that, Mr. Chairman, I stand ready to answer your 
questions and your Committee's. Thank you.
    [The prepared statement of Dr. Griffin follows:]
                Prepared Statement of Michael D. Griffin

Abstract

    President Bush's recently announced vision for a renew program of 
human space exploration is examined. Budgetary requirements are 
considered, and specific technology development recommendations are 
made. Relevant policy questions are posed.

Mr. Chairman:

    Thank you for inviting me to appear before the Committee to discuss 
our nation's future in human space flight. We are a seminal moment in 
discussing that future, a moment which has followed inevitably from the 
tragic loss of Space Shuttle Columbia, little more than a year ago. If 
there is a single fundamental point to be found in the report of the 
Columbia Accident Investigation Board--beyond identifying the technical 
and cultural causes of the mishap--it is that the Nation's human space 
flight program has for decades lacked a unifying theme or purpose 
worthy of the cost and risk endemic to the enterprise. I believe it is 
now widely accepted that circling endlessly in low Earth orbit does not 
qualify as such a theme. The United States will not abandon manned 
space flight. Not to have the capability to fly humans in space, when 
other nations do and more will follow, is simply unacceptable for a 
great nation. But if we are not to abandon human space flight, and if 
our goals much reach beyond the Space Station, the geography of the 
solar system dictates the path. Of the possible venues of human 
activity beyond LEO, only the Moon, Mars, and the nearer asteroids are 
within reach of the next few generations. And that is where the 
President's vision has directed us. It is the right path. With the 
remainder of this statement, I will direct my efforts to responding to 
the questions contained in the Committee's invitation to appear at this 
hearing.

Does the estimated spending through 2020 seem adequate to carry out the 
President's initiative? Which elements of the President's initiative 
seem most likely to cost more money or take more time than is currently 
allotted to them?

    In my opinion, the issue is not whether enough money has been 
allocated to the President's proposed initiative, but is rather this: 
Why we are expecting so little for the money which has been allocated?
    NASA budget estimates for the 2005-2020 period, culminating in the 
first manned lunar return mission by the latter year, show an aggregate 
allocation of some $50-55B (including the Crew Exploration Vehicle) to 
rebuild a basic ``Apollo-like'' capability. A top-level cost breakdown 
shows the following line items:


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    This amount should be sufficient for the task as presently 
understood. In fact, it is possible to argue credibly that the estimate 
is somewhat high.
    To address only one item, numerous careful studies have been 
performed to estimate the cost of developing a 100 metric-ton-class 
launch vehicle based on the use of Shuttle-derived components. Such 
estimates consistently show non-recurring engineering development to be 
in the $3-5B range, depending on the option considered. If other 
estimates show the likely development cost of a clean-sheet-of-paper 
design having the same payload capability to be in the $13-16B range, 
then we should seriously question whether it makes sense to pursue such 
an option.
    The most thorough study of an ``Apollo-like'' return to the Moon 
previously conducted by NASA was the ``First Lunar Outpost'' (FLO) 
effort, which occupied many of us from 1991-93. FLO was intended not as 
a definitive or final architecture for lunar return, but rather as a 
working baseline, to establish a credible point of departure for 
further efforts, which were unfortunately terminated at the outset of 
the Clinton Administration. The FLO architecture offered some 
improvement as compared to Apollo capability, but not so much as to be 
beyond our credible experience base at that time. Top level FLO cost 
estimates were:


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The FLO costs must be inflated by about 30 percent to account for 
the difference between 1992 and 2003 dollars, resulting in an estimate 
of about $33B for an initial lunar return. Also, the FLO studies 
assumed that the then-planned International Space Station habitat 
module would be available (with some modifications) for use on the 
lunar surface. Substantial development resources would be required to 
restore such a capability at this point, were it to be included in a 
lunar return mission. However, because a surface habitat is not 
included in the current planning estimate, it should be deleted from 
the comparison, yielding a 2003 FLO cost estimate of about $30B, no 
more than 60 percent of NASA's current assessment.
    Considerable study was devoted to FLO cost and feasibility 
analysis, in some cases by the same NASA personnel as are engaged in 
the present effort. It is difficult to understand why there should 
exist such a discrepancy between today's estimates and those of a 
decade ago. One can certainly understand that any estimate derived from 
a design study will lack the credibility of a completed development 
program. But it is difficult to understand why two estimates for very 
similar development programs would differ so greatly.
    Additional perspective can be gained by noting that the cost of the 
entire Apollo program was about $130B in today's dollars. This included 
massive technology and infrastructure development, as well as the 
operational cost of eleven manned missions, including six lunar 
landings. It does not seem reasonable that 40 percent or more of this 
figure should be required to execute a single mission of a similar 
class today.
    For advocates of space flight, including myself, more money is 
always better, and is certainly preferable to less money! But I would 
submit that our first order of business is to examine our culture, the 
aerospace culture, and ourselves, to understand why we believe it costs 
so very much more to operate in space than to perform almost any other 
human activity.
    NASA's spending plan through 2020 does not explicitly include any 
activity in support of manned missions to Mars, or indeed any 
exploration activity beyond early lunar return. I therefore cannot 
comment on the reasonableness of such plans at this time. This is 
regrettable, because the goal of pushing on to Mars should, in part, 
drive program requirements even while planning to return to the Moon.

What are the greatest technological hurdles the President's initiative 
must clear to be successful? To what extent must resolving some 
technological issues await further fundamental research? For example, 
how much work on a spacecraft for a Mars mission can be done before 
more is known about the effect on humans of spending long periods of 
time in space? How much work can be done before new propulsion 
technologies are developed?

    The question of what technological hurdles stand between us and the 
fulfillment of the President's vision depends, to a very great extent, 
on the mission architecture(s) which are selected to achieve that 
vision. In a very real sense, there is essentially no fundamental new 
technology required to enable human return to the Moon, the 
establishment of a lunar base, or the first voyages to Mars.
    It is true that technical challenges exist, and that there are 
numerous systems needed to implement the vision that are not currently 
in production. Among the specific engineering development tasks needing 
to be performed are:

        <bullet>  NASA should initiate development of a heavy lift 
        launch vehicle having a payload capacity of at least 100 metric 
        tons to low Earth orbit (LEO). Such a vehicle is the single 
        most important physical asset enabling human exploration of the 
        solar system. The use of shuttle-derived systems offers what is 
        quite likely to be the most cost-effective near-term approach.

        <bullet>  Much cargo (including humans) does not need to be 
        launched in very large packages. We desperately need much more 
        cost effective Earth-to-LEO transportation for payloads in the 
        size range from a few thousand to a few tens of thousands of 
        pounds. In my judgment, this is our most pressing need, for it 
        controls a major portion of the cost of everything else that we 
        do in space. Yet, no active U.S. government program of which I 
        am aware has this as its goal. Again, shuttle-derived systems, 
        particularly emphasizing use of the RSRB, may offer a useful 
        approach.

        <bullet>  New propulsion systems are unnecessary. We can 
        certainly return to the Moon or go to Mars using existing 
        chemical propulsion systems. Looking ahead, development of 
        nuclear propulsion should be re-initiated to allow more 
        efficient travel beyond cislunar space, but such systems are 
        not altogether new. The NERVA (nuclear engine for rocket 
        vehicle applications) program produced a working nuclear upper-
        stage engine and demonstrated excellent performance in 
        extensive ground tests, before regrettably being canceled in 
        1973.

        <bullet>  Compact space qualified nuclear power systems are 
        required for extended human presence on the Moon and Mars.

        <bullet>  The efficient establishment of permanent human bases 
        on the Moon, Mars, and certain asteroids requires the use of in 
        situ resources to minimize the amount of material and equipment 
        which must be brought from Earth. The technology for such 
        exploitation has yet to be fully developed, though promising 
        experiments have been conducted.

        <bullet>  Space and planetary surface habitat and suit 
        technology is at present insufficient for the needs of an 
        extended program of human space exploration. Improvements in 
        suit technology are of the highest priority.

    Physiological challenges also exist. We have considerable 
experience in the microgravity environment, and some practical and 
effective countermeasures have shown promise in minimizing bone loss, 
though more work is clearly needed. However, in the near-term it is 
very clear from the existing base of human space flight experience that 
microgravity effects are not an impediment to lunar return or to 
expeditions to Mars. And, as a practical matter, it is always possible 
to design our spaceships to supply artificial gravity by spinning them 
to generate the necessary centrifugal force.
    The long-term human adaptation to life on other planetary surfaces 
is another matter. We have at present no clear understanding of how the 
human organism will respond to fractional gravitational environments 
such as will be experienced on the Moon and Mars.
    Overall, however, the most difficult physiological issue is likely 
to be that of cosmic heavy ion radiation. The human effects of and 
countermeasures for heavy ion radiation, encountered in deep space but 
not in the LEO environment of the ISS, have received little attention 
thus far.
    These are the essential technical and physiological challenges as I 
see them. Exploration missions will not be accomplished without human 
risk. While certainly worthy of our attention, however, none of these 
is so daunting that we should stay home.
    However, it is always possible to make the problem more difficult. 
,Some of the space flight architectures that have been advocated seem 
intended to stun the observer with sheer complexity. If we are planning 
to defer return to the Moon until we have established L1 Gateways, 
solar electric propulsion systems to ferry liquid oxygen up from low-
Earth orbit, and so on, then it may indeed be possible to spend a very 
large amount of time and money on technology development. I do not 
recommend that we pursue such paths.

Are the International Space Station and the Moon the most appropriate 
stepping stones for human space exploration if the ultimate objective 
is a human landing on Mars? What would be the advantages and 
disadvantages of a program that was targeted instead directly on 
sending a human to Mars?

    Given that ISS is to be completed, there are specific tasks 
associated with going to Mars for which it can be useful. Certainly, it 
can be useful in carrying out controlled experiments to study the 
effects of microgravity, and proposed countermeasures, on humans, 
provided of course that it is equipped with a habitat module or 
modules. It can serve as an aid to crew training, acclimating a 
proposed Mars crew, or extended-duration lunar crew, to the regimen of 
space flight in company with each other. It can serve as a testbed for 
the space qualification of specific systems, or even vehicles, prior to 
their use on extended voyages far from home. In a word, ISS can help us 
learn to live and work in space.
    But the more important question is whether the return to be 
obtained from the use of ISS to support exploration objectives is worth 
the money yet to be invested in its completion. The Nation, through the 
NASA budget, plans to allocate $32B to ISS (including ISS transport) 
through 2016, and another $28B to Shuttle operations through 2011. This 
total of $60B is significantly higher than NASA's current allocation 
for human lunar return. It is beyond reason to believe that ISS can 
help to fulfill any objective, or set of objectives, for space 
exploration that would be worth the $60B remaining to be invested in 
the program.
    Equally important is the delay in pursuing the President's vision. 
Respecting present budget constraints, we return to the Moon in 2020, 
thus accomplishing in 16 years what it required eight years to achieve 
in the 1960s. This is not because the task is so much more difficult, 
or because we are today so much less capable than our predecessors, but 
because we do not actually begin work on the task until 2011. I do not 
need to point out to this body the political pitfalls endemic to such a 
plan.
    I, and others, have elsewhere advocated that the Shuttle should be 
returned to flight and the ISS brought to completion, if only because 
the program's two-decade advocacy by the United States and commitment 
to its international partners should not be cavalierly abandoned. But, 
if there is no additional money to be allocated to space exploration, 
this position becomes increasingly difficult to justify. It is worth 
asking whether our international partners might judge the issue 
similarly.
    With regard to the Moon, I believe the experience to be gained by 
living on and exploring another planetary surface only a few days away 
from home will be invaluable to the successful conduct of a future Mars 
expedition. Certainly such experience is not essential; one can readily 
envision a Mars expedition architecture which does not employ any 
further lunar experience as a stepping stone. But because it can be 
envisioned does not make it wise. I personally consider it an act of 
technological hubris to proceed directly to Mars, with no human 
experience beyond Earth orbit having been incurred since 1972. It can 
be done, and it will be cheaper, but the risk to both the mission goals 
and to human life will be significantly higher.
    If the goal of the United States is solely to mount an expedition 
to Mars, then I can at least understand, if not credit, the concern 
that returning to the Moon is a distraction. But if the goal of the 
United States is to be truly a space-faring nation, then bypassing the 
Moon is silly.

What questions is it most important for Congress to ask as it evaluates 
the proposed initiative?

    In discussing the President's initiative as it has been put before 
us, we in the space policy community have spent most of our time 
debating the cost and technical merit of one approach or the other; 
whether it makes sense to go to the Moon or not; if so, what to do and 
how much time to spend there; what new technology is or is not needed, 
and why, and so on. These are of course interesting questions--but they 
are not in my opinion the questions which are most relevant for the 
Congress to ask. Among these more relevant questions might be the 
following:

        <bullet>  Why does space flight--human or robotic--cost so much 
        more than other comparably complex human activities, and what 
        can be done to remedy the situation?

        <bullet>  Is a serious program of human space exploration 
        sustainable, given the ``cost of doing business'' presently 
        associated with the enterprise?

        <bullet>  What incentives can be offered to proven and well-
        established aerospace contractors to devise innovative and 
        cost-effective, yet safe and reliable, approaches to building a 
        new human space flight infrastructure?

        <bullet>  Where and how does NASA intend to engage the 
        entrepreneurial high-tech culture which has made our nation the 
        envy of so many others, in so many areas other than aerospace? 
        What can we do to bring the engine of capitalism to space 
        flight?

        <bullet>  What is the proper role of prizes, or of pay-for-
        performance contracts, in stimulating and encouraging the high-
        tech community to devote its attention to aerospace?

        <bullet>  Can or should the Congress establish prizes for 
        specific accomplishments in space flight, independently of 
        NASA?

        <bullet>  What is NASA's proper role in the development of new 
        space systems, beyond setting requirements to be met through 
        competition in industry?

        <bullet>  What is NASA's proper role, as an agency of the U.S. 
        government, in the conduct of future space flight operations?

        <bullet>  If the exploration of new worlds requires 
        technologies and skills beyond those presently available within 
        NASA--and it clearly does--how are the skills of other agencies 
        and laboratories to be used effectively in the service of the 
        larger mission? How will the overall effort be directed?

        <bullet>  Given that we as a nation will spend a certain amount 
        each year on civil space activities, what would Americans 
        prefer to see this money used for? What vision for space 
        exploration excites people enough to cause them to believe that 
        the money they spend on it is well spent? Can a reasonable 
        consensus even be found? How do we know?

        <bullet>  Is the United States interested in leading an 
        international program of space exploration? Which nations might 
        be competitors, and which might be partners? How and in what 
        role do we view our potential partners in the enterprise? What 
        do our potential partners think about this? How do we know?

                    Biography for Michael D. Griffin
    Michael D. Griffin is currently President and Chief Operating 
Officer of In-Q-Tel. On March 29th, he will succeed to his new position 
as Space Department Head at the Johns Hopkins University Applied 
Physics Laboratory.
    Prior to joining In-Q-Tel, Mike was CEO of the Magellan Systems 
Division of Orbital Sciences Corporation. He also served as General 
Manager of Orbital's Space Systems Group and as the company's Executive 
Vice President/Chief Technical Officer. He has previously served as 
both the Chief Engineer and the Associate Administrator for Exploration 
at NASA, and as the Deputy for Technology of the Strategic Defense 
Initiative Organization.
    Before joining SDIO in an executive capacity, Mike played a key 
role in conceiving and directing several ``first of a kind'' space 
tests in support of strategic defense research, development, and flight 
testing. These included the first space-to-space intercept of a 
ballistic missile in powered flight, the first broad-spectrum space-
borne reconnaissance of targets and decoys in midcourse flight, and the 
first space-to-ground reconnaissance of ballistic missiles during the 
boost phase.
    Mike holds seven degrees in the fields of Physics, Electrical 
Engineering, Aerospace Engineering, Civil Engineering, and Business 
Administration, has been an Adjunct Professor at the George Washington 
University, the Johns Hopkins University, and the University of 
Maryland, and is the author of over two dozen technical papers and the 
textbook Space Vehicle Design. He is a recipient of the NASA 
Exceptional Achievement Medal, the AIAA Space Systems Medal, the DOD 
Distinguished Public Service Medal, and is a Fellow of the AIAA and the 
AAS. Mike is a Registered Professional Engineer in Maryland and 
California, and a Certified Flight Instructor with instrument and 
multi-engine ratings.

    Chairman Boehlert. Thank you very much. And I'm sorry for 
the interruption.
    Here is the deal. We will ask Dr. Shirley to present her 
testimony, and then we will have to pause for approximately 20 
minutes while we answer the call of the House. There are a 
series of three votes, so we will let the clock run out almost 
on the first vote, dash over there, get two more five-minute 
votes, which always end up being eight minutes, and then we 
will come back.
    Dr. Shirley.

 STATEMENT OF DR. DONNA L. SHIRLEY, DIRECTOR, SCIENCE FICTION 
   MUSEUM; FORMER MANAGER, JET PROPULSION LABORATORY'S MARS 
    PROGRAM; FORMER ASSISTANT DEAN, UNIVERSITY OF OKLAHOMA 
          AEROSPACE MECHANICAL ENGINEERING DEPARTMENT

    Dr. Shirley. Good morning. I am Donna Shirley, Director of 
the Science Fiction Museum and Hall of Fame in Seattle, 
Washington and formerly Manager of the Mars Exploration Program 
at JPL. And I worked on the Space Station in the early '80s and 
a number of studies of human missions to the Moon and Mars. My 
remarks are my own opinions and do not reflect the views of the 
Science Fiction Museum.
    This morning, I will briefly summarize my answers to the 
questions.
    In my opinion, human space exploration is justified by the 
natural need of humans to explore. It is wired into our DNA. 
Judging by the relative number of recent science fiction novels 
about the Moon, almost none, at least a dozen, Mars is the 
public's preferred place to go. Humans and robots will be 
partners in exploration, not competitors. Humans can conduct 
science at the Moon or Mars but are generally not as effective 
as robots for this purpose. Robots are extensions of our 
senses.
    The International Space Station can be useful as a facility 
for evaluating human physiology and psychology to prepare for 
exploration, but if the goal of exploration is to send humans 
to Mars, the Moon is a diversion of time and money. There are 
no lunar resources that are useful for Mars and worth the cost 
of boosting the equipment from Earth to exploit. The 
environments of the Moon and Mars are so different that there 
is little crossover in surface technology.
    The costs of the program are difficult to evaluate, but 
even the upper-bound projections for 15 or 20 years are less 
than the Defense budget for a single year. I can't really judge 
the impact of the program on other NASA missions, because the 
details are only clear for 2005. However, there are several 
strategic flaws with the program, including a possibly 
premature phase-out of the Shuttle and certainly premature 
focus on a specific exploration approach, which is at least 50 
years old and needs to be completely rethought.
    NASA continues, as it has for its entire existence, to 
pursue the approach that Wernher von Braun proposed in 
Collier's magazine in 1952. This approach can be visualized by 
watching the movie ``2001: A Space Odyssey''. The times have 
changed, and we need to look at new approaches. We need new 
ideas. NASA's current designs are a rehash of the same concepts 
we were studying in the 1980s. We need new technologies. For 
example, the space elevator, which was the subject of Arthur C. 
Clarke's ``Fountains of Paradise'' in 1956, appears to be close 
to being enabled by structures built with carbon nanotubes, and 
commercial ventures are being undertaken to build one. None of 
NASA's human exploration studies that I have seen are looking 
at anything so creative.
    There are new economics. Dennis Tito is the vanguard of 
space tourism, and many companies are vying to put people in 
orbit, and there is an article on the--in the latest Scientific 
American, just out, about some of those companies. New launch 
companies, with their backers, include Scaled Composites, 
supported by Paul Allen, and John Carmack's Armadillo 
Aerospace. A new bill to provide regulatory standards has just 
passed the House of Representatives.
    There are new ways of doing business. For instance, NASA 
has come up with these ``challenge'' prizes, but what is the 
process for infusing the results into the program? It is not 
stated.
    There are new international players. China's Shenzhou 
program has orbited its first taikonaut. The U.S. needs either 
to compete or cooperate with the Chinese, but the current 
vision is silent on this.
    There is a new culture. As pointed out in the CAIB report, 
NASA is a bureaucracy shaped by politics. The fundamental 
nature of the civil service staff centers will make it very 
difficult to create real change. Converting the center to 
contract organizations, such as JPL, should be explored.
    Unfortunately, the President's vision skips over the need 
for a process to provide goals for the program. Like most other 
human programs, it merely states the goals of the 
Administration and plunges directly into an implementation. 
This has been shown over and over to be a flawed strategy.
    The Committee should urge the Administration to create a 
process for developing a truly fresh approach to space 
exploration. Non-NASA, non-government ideas should be involved 
in the selection of a vision. The process should generate new 
concepts, bring in new players, consider new approaches and 
technologies, and fully engage the public to develop a set of 
goals. This process should drive the definition of a new vision 
and approaches for human space exploration and a program to 
carry them out. This will not be an easy task, because 
government institutions are not accustomed to such an open 
process, but the Science Fiction Museum and Hall of Fame would 
be delighted to participate.
    Thank you.
    [The prepared statement of Dr. Shirley follows:]
                 Prepared Statement of Donna L. Shirley

Abstract

    In my opinion human space exploration is justified by the natural 
predilection of humans to explore. Humans could conduct science at the 
Moon or Mars but are generally not as effective as robots for this 
purpose. Humans and robots will be partners in exploration. The 
International Space Station can be useful as a facility for evaluating 
human physiology and psychology to prepare for exploration. But if the 
goal of exploration is to send humans to Mars the Moon is of little 
value in such preparation and, in fact, is a diversion of time and 
money from the goal. The costs of the program are difficult to evaluate 
but there appear to be several strategic flaws, including a possibly 
premature phase-out of the Shuttle and premature focus on a specific 
approach. There is no real information on which to judge the impact of 
exploration on other NASA missions. I will make several recommendations 
for revisiting and improving the vision, specifically to include a wide 
range of ``stakeholders'' including private space enterprise and non-
traditional technologies.

Testimony

    I am Donna Shirley, Director of the Science Fiction Museum and Hall 
of Fame in Seattle, Washington. I was recently Assistant Dean of 
Engineering at the University of Oklahoma and before that I retired in 
1998 as Manager of the Mars Exploration Program at the Jet Propulsion 
Laboratory. During my 32-year career at JPL I worked on a number of 
human exploration missions including participating in the initial 
design of the Space Station in the early 1980's and in studies of human 
missions to the Moon and Mars in the 1980's and 1990's. I led two NASA-
wide studies in the 1990's, one of which developed a standard process 
for systems engineering for the Agency\1\ and another of which analyzed 
and recommended improvements to NASA's program and project management 
processes.
---------------------------------------------------------------------------
    \1\ SP 6105, NASA Systems Engineering Handbook, June 1995
---------------------------------------------------------------------------
    My remarks are my own opinions and do not reflect the views of the 
Science Fiction Museum. However I would like to speak from the 
perspective of a person who was inspired by science fiction to pursue 
an engineering career, and who continues to be inspired by the 
inventiveness of science fiction writers. I will take a cue from Neil 
Armstrong, who recently used a science fiction theme to talk about the 
relative roles of humans and robots in space exploration. The 
popularity of science fiction teaches us that people are fascinated 
with the idea of exploration. Studies of history, anthropology and 
primate behavior teach us that humans have a built-in imperative to 
seek new terrain, just as the crew of the Starship enterprise 
``explores strange new worlds''. Mr. Armstrong pointed out that an 
early science fiction play, Rossum's Universal Robots, stressed the 
utility of having robotic laborers to do dangerous, dull or dirty 
tasks. But science fiction from Buck Rogers to the modern Mars novels 
like Red Mars shows that people also want to explore the cosmos.
    In this context I will address the several questions I was asked by 
the Committee in the context of the President's Vision as summarized in 
a White House press release.\2\
---------------------------------------------------------------------------
    \2\ http://www.spaceref.com/news/viewpr.html?pid=13412, from PRESS 
RELEASE, Date Released: Wednesday, January 14, 2004, Source: White 
House, President Bush's Vision for U.S. Space Exploration

What are compelling justifications for sending humans into space? Does 
the President's initiative provide adequate justification for sending 
---------------------------------------------------------------------------
humans to the Moon and Mars?

    The quick answer is to the second question is ``yes.'' The 
justification is that the need to explore is ``wired into our DNA.'' 
Neuroscience has discovered changes in the brains of adolescents 
related to their propensity for risky adventures.\3\ And many people 
routinely engage in risky behaviors for the thrill of it. Many adults 
have a desire to go into space and two, Dennis Tito and Mark 
Shuttleworth, have paid millions to the Russians for the opportunity to 
visit the ISS. Studies show that thousands of people may be willing to 
pay six figures for even a sub-orbital ride.\4\
---------------------------------------------------------------------------
    \3\ ``Adolescent Brain Development and Legal Culpability,'' 
American Bar Association, Criminal Justice Section, Spring 2003.
    \4\ Crouch, Geoffrey, ``Researching the Space Tourism Market,'' 
Presented at the annual Conference of the Travel and Tourism Research 
Association, June 2001.
---------------------------------------------------------------------------
    However, while the justification for human exploration is clear, 
the justification for the Moon as a destination before Mars is not. If 
the goal is humans on Mars the Moon is an expensive and time-consuming 
delay. So the general vision is good, but the feasibility of the 
proposed implementation is not clear.
    The ``Moon first'' part of the vision is overly specific. There 
needs to be a process for deciding what should be targets and how to 
reach them. One of NASA's mistakes is to keep trying to repeat Apollo 
with Wernher von Braun's 70-year-old vision for human space 
exploration.

To what extent would scientific research concerning Mars be aided by a 
human presence on, or in orbit around that planet?

    Humans would do science if they went, but should not go just to do 
science. For example, studies have shown that semi-autonomous rovers on 
Mars given direction by humans on Earth are far more effective in 
exploration (in distance and especially dollar for dollar) than rovers 
``tele-operated'' by humans from Mars orbit.\5\
---------------------------------------------------------------------------
    \5\ AIAA-90-3785, ``Site Characterization Rover Missions,'' D.S. 
Pivirotto, Sept. 25-28, 1990, Huntsville, AL.
---------------------------------------------------------------------------
    The argument that only humans can do science ``in situ'' is flawed. 
The lunar ``orange dirt'' noticed by Harrison Schmitt\6\, first (and 
last) scientist on the Moon, is used as evidence that robots could 
never have noticed such a scientifically important find. But the truth 
is that robots such as Spirit and Opportunity, who are currently on 
Mars, have a far wider range of senses than a human.\7\ Robots merely 
extend human senses both in distance and wave length. The Mars rovers' 
instruments can ``see'' in wavelengths far beyond human sight. Their 
instruments return data so that scientists on Earth can perceive the 
Martian surface in ways that humans on Mars (unless they were carrying 
such instruments) could not.
---------------------------------------------------------------------------
    \6\ http://www.spacetoday.org/History/SpaceFactoids/
SpaceFactoids3.html, ``Apollo 17 astronaut Harrison Schmitt, the first 
geologist in space, found the most colorful stuff on the Moon--orange 
glass--near Shorty Crater. That suggested the possibility of ice within 
the Moon.''
    \7\ ``Opportunity Rover Finds Strong Evidence Meridiani Planum Was 
Wet,'' March 2, 2004 Press Release, http://marsrovers.jpl.nasa.gov/
newsroom/pressreleases/20040302a.html

Are the International Space Station and the Moon the most appropriate 
stepping-stones for human space exploration if the ultimate objective 
is a human landing on Mars? What would be the advantages and 
disadvantages of a program that was targeted instead on sending a human 
directly to Mars? To what extent is research on the International Space 
Station likely to help remove the hurdles to long-duration space 
---------------------------------------------------------------------------
flight?

    The appropriateness of the ISS and the Moon depend on the program 
objectives, which should be policy decisions based partially on 
technical feasibility and cost. An informed and open national and 
international discussion is needed to support these policy decisions.
    The lack of widely supported objectives for NASA has led, for 
example, to its budget being increasingly eroded by Congressional 
earmarks largely, in my opinion, because there is not a perception of 
NASA's intrinsic value or purpose.
    I worked on a precursor to the current ISS in the early 1980's and 
it was clearly deliberately designed as a jobs program rather than as 
the most cost-effective solution to human exploration. (And 
realistically this will always be true of a large federally funded 
undertaking). Because of the use of Russian launchers to supply the 
Station it is not in a good orbit for staging of assets for on-orbit 
assembly of missions to the Moon or planets. However, the ISS could be 
useful for studying physiology to prepare for human missions to Mars, 
and it is important to keep our commitments to our international 
partners who have invested a large amount of resources and who are 
waiting to have their hardware installed on the Station.
    The ISS will help human space exploration if its mission is focused 
on research on the impacts of living in space on the human physiology 
and psychology. The President's vision takes this step, however several 
things are needed to make this work that are not currently in the 
Station design, for example:

        <bullet>  A centrifuge to explore impacts of partial gravity on 
        recovery from bone loss and muscle weakness. Will astronauts be 
        able to function in the 3/8 gravity of Mars after a several 
        month zero-g passage?

        <bullet>  Radiation research. The ISS is protected by Earth's 
        magnetic field but the radiation environment on Mars is very 
        severe because Mars lacks a magnetic field and a thick 
        atmosphere.

    Phase-out of the Shuttle in 2010 will make it very difficult to 
operate the ISS even if construction can be completed by then. Even if 
there is not another failure before the end of the ISS there is 
predicted to be a four-year gap between the end of the Shuttle and the 
availability of the crew exploration vehicle. Human transport can 
continue to rely on the reliable Russian launchers and landers. 
However, while European, Russian and Japanese vehicles can supply the 
Station, none of these is designed to bring cargo down, so any large 
science instruments must either be thrown away or not used if the 
Shuttle is not available. The current plan scraps alternate U.S. cargo 
carriers.
    The Moon is a complete diversion from human missions to Mars. The 
suggestion that there are materials on the Moon that can be used to 
build systems to go to Mars is totally unfounded. The Moon has no 
useful resources for Mars exploration. (Water at the poles is 
problematic, and even if it exists is probably infeasible to ``mine'' 
in large quantities.) Everything taken to the Moon must be lifted out 
of the gravity well of the Earth. Even if resources did exist on the 
Moon, which would be useful, the mass of equipment to mine them in 
quantities required for a Mars mission would far exceed the benefit of 
launching to Mars from the lower lunar gravity.
    The high cost of building a lunar infrastructure will divert 
resources from Mars with no added value for Mars missions because the 
cost of lifting equipment to Moon will far exceed the benefits.
    There is little technology commonality between the Moon and Mars 
because of the different environments. For example, space suits 
designed for vacuum will not work in the Martian atmosphere. Landing 
systems on Mars can make use of the atmosphere unlike those for the 
Moon. Thermal environments between Moon and Mars are radically 
different. And so on.
    The Moon is a scientifically interesting place in its own right but 
missions of exploration including the installation of large 
astronomical telescopes on the far side can be done robotically. Even 
modern science fiction does not revolve around an economically viable 
Moon, and previous assumptions of plentiful water on the Moon have been 
shown not to be true. For example, Heinlein's The Moon is a Harsh 
Mistress\8\ was based on an economy, which grew grain using vast stores 
of underground water.
---------------------------------------------------------------------------
    \8\ Berkley Publishing, 1966
---------------------------------------------------------------------------
    Helium 3 mined on the Moon and ``burned'' in a fusion reactor is 
often touted as a boon for energy production.\9\ However, both Helium 3 
mining and fusion technology are completely unproven, and a positive 
benefit/cost ratio has not been demonstrated. Furthermore, even if 
fusion and mining technologies were feasible, they will not be relevant 
to space exploration in any meaningful time frame.
---------------------------------------------------------------------------
    \9\ http://www.space.com/scienceastronomy/helium3--000630.html, 
``Moon's Helium-3 Could Power Earth'' By Julie Wakefield, Special to 
SPACE.com, 30 June 2000.
---------------------------------------------------------------------------
    The President's initiative also mentions Libration Points, 
Asteroids, etc. as destinations, but there appear to be no benefits of 
these objectives to Mars exploration (or to human exploration) and more 
justification is needed if they are selected.
    Mars is probably the only human-accessible place in the Solar 
System for sustained human presence.

        <bullet>  The Opportunity rover and the Odyssey orbiter have 
        found past and present water. Future missions will determine 
        locations and quantity of extant water, which may be inadequate 
        to support humans.

        <bullet>  The moons of the Outer planets have ample water 
        supplies but are too distant and dangerous for humans to 
        explore for generations.

        <bullet>  Modern science fiction provides reasons and scenarios 
        for a human presence on Mars, for example:

                --  Red Mars, Green Mars, and Blue Mars (Kim Stanley 
                Robinson)\10\
---------------------------------------------------------------------------
    \10\ Bantam Books 1993, 1994 and 1996

                --  Mars and Return to Mars (Ben Bova)\11\
---------------------------------------------------------------------------
    \11\ Bantam Books 1992 and 1999

                --  Moving Mars (Greg Bear)\12\
---------------------------------------------------------------------------
    \12\ Tor Science Fiction, 1994

                --  Voyage (Stephen Baxter)\13\
---------------------------------------------------------------------------
    \13\ Harper Collins, 1996

Does the proposed initiative achieve the proper balance among NASA's 
activities? Particularly, is the balance between exploration, space 
science and Earth science, and between human and robotic missions 
---------------------------------------------------------------------------
appropriate?

    This question is very difficult to answer because a much more 
detailed architecture is needed to see what balance is actually being 
achieved.
    The cost of the program needs to be analyzed. The only mission that 
has been identified for sacrifice is the Hubble servicing. And in fact 
I believe a robotic servicing mission could be designed and implemented 
for the price of a single Shuttle launch. Technology to grapple with a 
spinning satellite has been available since the late 1980's\14\ and it 
should be relatively simple to keep Hubble running using a robotic 
Orbital Maneuvering Vehicle.\15\ The OMV would then be useful for on-
orbit construction and servicing and is usually included in human 
exploration mission designs. This approach would not risk humans to 
service Hubble but also would probably not save any money.
---------------------------------------------------------------------------
    \14\ IAF-87-24, ``NASA's Telerobotics R&D Program: Status and 
Future Directions,'' D.S. Pivirotto and G. Varsi, Brighton, United 
Kingdom, 10-17 October 1987.
    \15\ http://www.abo.fi/?mlindroo/Station/Slides/sld011.htm
---------------------------------------------------------------------------
    History shows that the real costs of a large program cannot be 
reliably estimated until five to ten percent of the funds have been 
expended. However many, many studies of human exploration have been 
done over the years and if the best were ``mined'' at least rough 
estimates should be feasible 
now.\16\<SUP>,</SUP>\17\<SUP>,</SUP>\18\<SUP>,</SUP>\19\
---------------------------------------------------------------------------
    \16\ NASA Leadership and America's Future in Space, A Report to the 
Administrator by Dr. Sally K. Ride, August 1987.
    \17\ Report of the 90-Day Study on Human Exploration of the Moon 
and Mars, NASA, Washington DC, 1989.
    \18\ Pioneering the Space Frontier, the Report of the National 
Commission on Space, Bantam Books, 1986.
    \19\ America at the Threshold: America's Space Exploration 
Initiative, Report of the Synthesis Group, 1991.

What criteria should be used to determine whether robots or humans 
should conduct particular science and exploration missions on the Moon 
and Mars? What missions should only humans conduct on the Moon and 
---------------------------------------------------------------------------
Mars?

    Humans and robots should be part of an integrated program. It is 
not humans vs. robots but how a partnership of ``metal and mortal'' can 
be most effectively used. Criteria should be extracted from program 
objectives (why, where, when?) which should be the subject of national 
and international discussions and debates. A number of studies and 
publications have addressed this.\20\<SUP>,</SUP>\21\
---------------------------------------------------------------------------
    \20\ Pivirotto, D.S., ``A Goal and Strategy for Human Exploration 
of the Moon and Mars,'' published in the Journal of Space Policy, 0265-
9646/90/030195-14, 1990 Butterworth-Heinemann Ltd.
    \21\ Pivirotto, D.S., ``A Goal and Strategy for Human Settlement of 
the Moon and Mars: Part Two,'' Case for Mars IV, Boulder, CO, 4-8 June 
1990.
---------------------------------------------------------------------------
    Humans will never ``only'' conduct missions by themselves. Robots 
will always be necessary as precursors, preparers and partners for 
humans. As mentioned earlier, robots are extensions of human 
perception. They currently act as scouts to determine safe and 
interesting places for people to operate. They will be used to prepare 
those places for humans by making fuel from in situ resources and 
building infrastructure. They will support humans by fetching and 
carrying, exploring beyond the reach of human habitats and transports, 
and carrying cargo to and from Earth.

If the costs of carrying out the President's proposal increase above 
what NASA currently projects them to be, would you recommend that NASA 
adjust the schedule for achieving specific milestones of the 
President's vision or use the budget authority from other NASA programs 
not related to the President's vision (e.g., Earth science or 
aeronautics research and development)?

    NASA has not specifically projected the costs of the President's 
proposal and to some extent this is appropriate since a detailed 
analysis and design has not been done. However, costs can be inferred.

        <bullet>  A program cost of about $170B through 2020 can be 
        inferred from the NASA 2005 budget projections.\22\ This is 
        less than half of the DOD budget for 2005 alone.\23\
---------------------------------------------------------------------------
    \22\ http://www.nasa.gov/about/budget/ Administrator O'Keefe's 
Budget Presentation, Chart 14, 2.24.04
    \23\ http://www.defenselink.mil/releases/2004/nr20040123-0263.html, 
Defense Department Announces 2005 Budget Request, No. 046-04, January 
23, 2004.

        <bullet>  A lower bound estimate of about $50B for a single 
        human Mars mission was projected by Robert Zubrin in A Case for 
        Mars.\24\
---------------------------------------------------------------------------
    \24\ Touchstone Books, 1996

        <bullet>  Costs of up to $450B (in 1990 dollars)\25\ have been 
        projected by NASA studies.
---------------------------------------------------------------------------
    \25\ Costs estimated during the NASA ``90 Day Study'' have been 
widely quoted but never officially published: NASA, Report of the 90-
Day Study on Human Exploration of the Moon and Mars, NASA, Washington, 
D.C., 1989.

        <bullet>  Certainly the $11 or $12B called out for the Crew 
        Exploration Vehicle will only produce a human carrier with no 
        place to go except the ISS. There is no mention of the much 
        larger costs of launch, on-orbit assembly, infrastructure at 
---------------------------------------------------------------------------
        the Moon and/or Mars, etc.

        <bullet>  Robotic Mars missions are costing around $400M apiece 
        which is the equivalent of about one STS launch.

    The proposed phase-out of the STS in 2010 is extremely risky for 
the ISS and for exploration. Such a risk led to the dependence on the 
development of the Shuttle to re-boost Skylab, the first space station. 
When the Shuttle development did not meet the projected schedule Skylab 
re-entered the atmosphere and was lost. It is also not clear that any 
new systems will be substantially safer than an upgraded Shuttle.
    The question of which missions should be sacrificed to the human 
exploration initiative is one of public policy. So far the budget 
appears to continue to support science missions, but the real costs and 
sacrifices have not been identified past 2005.
    The schedule must reflect budget realities and the entire NASA 
budget would have to be greatly increased to carry out the program. 
Even the sacrifice of science or technology would probably not provide 
the resources needed with the current plan.

Observations and Recommendations:

    Fundamentally the whole approach needs to be re-thought. NASA 
continues, as it has for its entire existence, to pursue the approach 
that Wernher von Braun proposed in Collier's Magazine in 1952--rocket 
launches, a space station, lunar and Mars bases.\26\ This approach can 
be visualized by watching the movie 2001: A Space Odyssey. But times 
have changed and we need to look at new approaches:
---------------------------------------------------------------------------
    \26\ http://www.astronautix.com/lvs/vonbraun.htm, 1952 Feb. 11--
Collier's Man Will Conquer Space Soon, Collier's Magazine, published 
papers from First Symposium on Space Flight, under the title ``Man Will 
Conquer Space Soon.'' This was an important step in the popularization 
of the idea of manned space flight.

        <bullet>  New Ideas and Analysis Tools: Since Apollo NASA has 
        had few new ideas about how to explore space. A recent 
        presentation by a young NASA engineer showed exactly the same 
        visualization and study tools\27\ as my colleagues and I used 
        in the late 1980's and was a rehash of the same concepts we 
        were studying then.\28\
---------------------------------------------------------------------------
    \27\ Geffre, J., ``A Summary of Recent NASA Exploration 
Architecture Studies,'' National Academies Workshop, ``Stepping Stones 
to the Future of Space,'' 23 February 2004, chart 10 compare with page 
45 of next reference.
    \28\ JPL Document, ``A Robotic Exploration Program: In Response to 
the NASA 90-Day Study on Human Exploration of the Moon and Mars,'' 1 
December 1989.

        <bullet>  New technologies: For example, the space elevator, 
        the subject of Arthur C. Clarke's 1956 Fountains of 
        Paradise\29\ appears to be close to being enabled by structures 
        built with carbon nanotubes and commercial ventures are being 
        undertaken to build one. This is a system that puts a space 
        station in a geosynchronous orbit 23,000 miles above the Earth 
        and lowers a cable to a point on the equator. Once this 
        (admittedly expensive) infrastructure was in place it could be 
        used to launch payloads beyond Earth orbit. A preliminary 
        design and cost estimates for a commercial space elevator 
        system\30\ were funded by the NASA Institute for Advanced 
        Concepts which routinely provides seed funding for innovative 
        space exploration concepts. However, none of NASA's human 
        exploration studies are looking at anything creative like the 
        use of a space elevator.\31\ This is not to say that it is the 
        answer, just that new approaches enabled by new technology 
        should be considered.
---------------------------------------------------------------------------
    \29\ Downloadable Edition http://www.amazon.com/exec/obidos/tg/
detail/-/B000063JZ3/ref=lpr<INF>-</INF>g<INF>-</INF>4/103-0149313-
3021408?v=glance&s=ebooks
    \30\ The Space Elevator: A Revolutionary Earth-to-Space 
Transportation System, Publisher: Bradley C. Edwards & Eric A. 
Westling; ISBN: 0972604502; (January 14, 2003).
    \31\ Mankins, J.C., ``Advanced Systems, Technologies, Research and 
Analysis to Enable Future Space Flight Capabilities and Realize the 
U.S. Vision for Space Exploration,'' presented to Stepping Stones to 
Space National Academies Workshop, 23 February 2004.

        <bullet>  New Economics: Wealthy people are entering the game. 
        Dennis Tito and Mark Shuttleworth are the vanguard of space 
        tourism and many companies are vying to put people in orbit. A 
        new bill to provide regulatory standards has just passed the 
        House of Representatives.\32\ Some examples of new launch 
        companies, with their backers, are:\33\
---------------------------------------------------------------------------
    \32\ ``House Approves H.R. 3752, The Commercial Space Launch 
Amendments Act of 2004,'' http://www.spaceref.com/news/
viewpr.html?pid=13774
    \33\ Horvath, Joan, ``Blastoffs on a Budget,'' to appear in 
Scientific American, April 2004, Volume 290, Number 4.

---------------------------------------------------------------------------
                --  Scaled Composites--Paul Allen

                --  Armadillo Aerospace--John Carmack

                --  Space Exploration Technologies--Elon Musk

                --  Blue Origin--Jeff Bezos

        <bullet>  New ways of doing business: NASA is proposing a 
        series of ``challenge'' prizes to stimulate innovative 
        approaches to space exploration.\34\ However, this is not a 
        substitute for a well-planned program with specific, affordable 
        goals and it still leaves NASA firmly in control. What is the 
        process for infusing the successful approaches into the human 
        exploration program? Or, what is the process for substituting 
        successful approaches for the government-provided elements?
---------------------------------------------------------------------------
    \34\ ``NASA exploration office charts new procurement territory,'' 
March 3, 2004, http://www.govexec.com/dailyfed/0304/

        <bullet>  New international players: China's Shenzhou program 
        has orbited its first taikonaut. The U.S. needs either to 
        compete or cooperate with the Chinese but the current vision is 
---------------------------------------------------------------------------
        silent on this.

        <bullet>  New Culture: NASA has become, over the years, an 
        entrenched bureaucracy shaped by political considerations such 
        as keeping jobs in particular states and Congressional 
        districts. The Columbia Accident Investigation Board stressed 
        the need for culture change\35\ and NASA is bringing in new 
        personnel, mostly military,\36\ to help with that situation. 
        However, the plans for the initiative which are based on the 
        military model (such as ``spiral'' and ``block development'' 
        that are used successfully for aircraft production)\37\ may not 
        be applicable to the relatively small number of vehicles 
        involved in human space exploration. NASA is attempting to 
        revitalize its workforce\38\ and improve its management 
        practices.\39\ However, the fundamental nature of the civil 
        service-staffed centers will make it very difficult to create 
        real change. Approaches such as converting the centers from 
        civil services to contract organizations such as the Jet 
        Propulsion Laboratory should be explored. Attempts to 
        ``privatize'' fundamentally non-profit endeavors, such as the 
        United Space Alliance's contract to maintain the Shuttle, are 
        merely disguising ordinary government contracting as private 
        enterprise.
---------------------------------------------------------------------------
    \35\ http://anon.nasa-global.speedera.net/anon.nasa-global/CAIB/
CAIB<INF>-</INF>lowres<INF>-</INF>chapter9.pdf, Report of Columbia 
Accident Investigation Board, Volume I, Section 9.3. Long-Term: Future 
Directions for the U.S. in Space--``The Board Does believe that NASA 
and the Nation should give more attention to developing a new ``concept 
of operations'' for future activities.. . .'' Page 210.
    \36\ http://www.spaceref.com/news/viewsr.html?pid=12052
    \37\ http://www.spaceref.com/news/viewsr.html?pid=12052, Briefing 
Charts: NASA Associate Administrator Craig Steidle, Office of 
Exploration Systems Chart 14.
    \38\ http://nasapeople.nasa.gov/hclwp/index.htm
    \39\ http://www.spaceref.com/news/viewpr.html?pid=13739

    A very recent report of a workshop of the National Academy of 
Science gives guidance for formulating human space exploration 
objectives. One point that it makes is: ``Much of the success of the 
success of NASA's science programs was attributed to having clear long-
range goals and roadmaps that are framed by scientists and periodically 
reassessed by the science community in the light of new knowledge and 
capability.'' \40\ An example of this is the current Mars Exploration 
program which sends robotic missions every 26 months to ``follow the 
water'' to investigate whether life might have ever existed on 
Mars.\41\ The current successful Mars rovers are a result of this 
approach.
---------------------------------------------------------------------------
    \40\ Issues and Opportunities Regarding the U.S. Space Program: A 
Summary Report of a Workshop on National Space Policy (2004) Space 
Studies Board (SSB), Aeronautics and Space Engineering Board (ASEB).
    \41\ AIAA 96-0333, ``Mars Exploration Program Strategy: 1995-
2020,'' D.L. Shirley and D.J. McCleese, Jan 15-18, 1996, Reno, NV.
---------------------------------------------------------------------------
    Unfortunately the President's vision skips over the need for a 
process to provide goals for the program. Like most other human 
programs it merely states goals and plunges directly into an 
implementation strategy. This has been shown over and over to be a 
flawed strategy as I point out in a paper presented in 2000 at a 
workshop planning Human Exploration.\42\ In this paper I made 
recommendations that I still regard as important for achieving what the 
President's strategy lacks:
---------------------------------------------------------------------------
    \42\ Shirley, D.L., ``The Myths of Mars: Why We're Not There Yet 
and How to Get There,'' Workshop on Concepts and Approaches for Mars 
Exploration, Lunar and Planetary Institute, Houston, TX, 18-20 July 
2000.

        <bullet>  ``Customer'' Input--for example through 
        ``deliberative polling'' \43\ and surveys.\44\ This would be 
        from and by people outside NASA and the government, and outside 
        the standard NASA advisors such as the National Academies, and 
        even outside the aerospace engineering and science community. 
        The people are paying for it, shouldn't they have a real say?
---------------------------------------------------------------------------
    \43\ NASA Human Exploration and Development of Space Enterprise: A 
Concept Paper On ``An Over-Arching Enabling Process for the Development 
of an Engagement Plan,'' D. Powe, L.A. Ritchie, and D.L. Jackson.
    \44\ http://www.planetary.org/html/society/press/
survey<INF>-</INF>results.htm, 50,000 People Jam Planetary Society 
Website to Take Space Survey about NASA Priorities.

        <bullet>  A flexible, step-by-step approach with planning and 
        redesign in response to things learned, either from science, 
        engineering or economic/policy changes, in other words a 
        ``decision tree'' approach with options to be exercised based 
        on learning.\45\
---------------------------------------------------------------------------
    \45\ For instance see ``Pivirotto, D.S. ``Assessing Risks and Mars 
Benefits of Lunar oration,'' 1991.

        <bullet>  Honesty, openness, flexibility, patience and hard-
        nosed, non-political management.\46\<SUP>,</SUP>\47\
---------------------------------------------------------------------------
    \46\ Shirley, D.L., Written Testimony or the Root Causes of the 
Mars Surveyor 98 Mission Failures, 30 April 2000.
    \47\ ASEE 2002-406, Shirley, D.L., ``Managing Creativity: A 
Creative Engineering Education Approach,'' 2002 American Society for 
Engineering Education Annual Conference, 2002.

    I recommend that the Committee urge the Administration to create a 
process for developing a truly fresh approach to the exploration of 
space. There should be a workshop or series of workshops to infuse non-
NASA, non-government ideas into the selection of a vision. Then there 
should be a study effort over the next year or so to generate new 
concepts, bring in new players, fully engage the public and develop a 
set of goals.
    The process should include, for example:

        <bullet>  Creative individuals, for instance Science fiction 
        writers and movie producers

        <bullet>  Contestants in University robotics competitions

        <bullet>  Scientists and engineers

        <bullet>  Space Entrepreneurs

        <bullet>  Interested public

        <bullet>  Formal and informal educators

        <bullet>  Public Relations people

        <bullet>  Potential international participants.

    Finally, a process should be developed for driving the human space 
exploration with the results of this study. This will not be an easy 
task, as government institutions are not accustomed to such an open 
process.
    The Objective: Define a new vision and new architectures and 
approaches for human space exploration and a program to carry them out. 
The Science Fiction Museum and Hall of Fame would be delighted to 
participate in such a process.
    Thank you.

                     Biography for Donna L. Shirley

PRECIS

    Donna Shirley is Director of the Science Fiction Museum and Hall of 
Fame in Seattle, Washington. She recently retired as Assistant Dean of 
Engineering and Instructor of Aerospace Mechanical Engineering at the 
University of Oklahoma (OU) where she led strategic planning and the 
development of innovative engineering education programs, and was also 
President of Managing Creativity, a speaking, consulting and training 
firm. She is a well known educator, speaker, consultant and trainer on 
the management of creative teams. Ms. Shirley has an MS in Aerospace 
Engineering and three honorary doctorates, plus over forty years 
experience in engineering of aerospace and civil systems, including 
thirty years in management. She had a 32-year career at NASA's Jet 
Propulsion Laboratory, culminating in the position of Manager of the 
Mars Exploration Program.

SUMMARY OF EMPLOYMENT HISTORY

Science Fiction Museum and Hall of Fame

        <bullet>  January 2003-Present: Director of a unique, 
        interactive science fiction museum in Seattle, WA.

Managing Creativity

        <bullet>  1997-Present: President of Managing Creativity. 
        Providing speaking, consulting and training on the management 
        of creative teams.

        <bullet>  1998-2001: Co-creator and Official Spokesperson, 
        White House Mars Millennium Project, a nationwide educational 
        project for K-12 students.

University of Oklahoma

        <bullet>  September 2002-2003:Instructor of Aerospace 
        Mechanical Engineering (AME).

        <bullet>  September 1999-September 2002: Assistant Dean of 
        Engineering for Advanced Program Development. Led the creation 
        of a strategic plan for the College of Engineering. Led the 
        modernization of the Aerospace Engineering curriculum into an 
        ``intelligent aerospace systems'' program. Acted for one year 
        as the Interim Director of Engineering Education for the 
        College, focussing on project-based, multidisciplinary 
        engineering.

        <bullet>  2000-2004: Served on National Research Council Task 
        Forces on the Usefulness and Availability of NASA's Earth and 
        Space Science Data, and the National Aerospace Initiative.

        <bullet>  1998-2001: Co-creator and Official Spokesperson, 
        White House Mars Millennium Project, a nationwide educational 
        project for K-12 students.

Jet Propulsion Laboratory (JPL)

California Institute of Technology Pasadena, California (1966-1998)

        <bullet>  1994-1998: Manager of the $150 million/year Mars 
        Exploration Program, which included the highly successful 
        Pathfinder and Mars Global Surveyor missions plus two 
        additional missions to Mars every 26 months until at least 
        2005.

        <bullet>  1992-1994: Mars Pathfinder Microrover Flight 
        Experiment Manager. Leader of the team which developed 
        Sojourner Truth, the $25 million Microrover landed by Mars 
        Pathfinder on July 4, 1997.

        <bullet>  1991-1992: Cassini Project Engineer. Chief Engineer 
        of a $1.6B project to explore Saturn.

        <bullet>  1989-1993: (Additional Duty) Leader of two NASA-wide, 
        award-winning teams which developed systems engineering and 
        project management processes for the National Aeronautics and 
        Space Administration.

        <bullet>  1990-1991: Manager of Exploration Initiative Studies.

        <bullet>  Various management and technical positions from 1966.

EDUCATION

        <bullet>  Some work in a Ph.D. Program in Human and 
        Organizational Systems--The Fielding Institute, Santa Barbara, 
        CA, 1997-1998.

        <bullet>  MS Aerospace Engineering--University of Southern 
        California, 1968.

        <bullet>  BS Aerospace Mechanical Engineering--University of 
        Oklahoma, 1965.

        <bullet>  BA Professional Writing--University of Oklahoma, 
        1963.

SELECTED CURRENT AND RECENT AWARDS, HONORS, OFFICES

        <bullet>  Honorary Doctorates: University of Oklahoma, Mt. St. 
        Mary's College, Los Angeles, California, State University of 
        New York, Rome/Utica

        <bullet>  Oklahoma Women's Hall of Fame

        <bullet>  University of Oklahoma College of Engineering 
        Distinguished Graduate Society

        <bullet>  National Space Society Wernher von Braun Award

        <bullet>  Western Engineer's Society Washington Award for 
        Engineering Achievement

        <bullet>  American Society of Mechanical Engineers, Holley 
        Medal for Lifetime Achievement

        <bullet>  Glamour Magazine ``Women Who Do and Dare'' Award

        <bullet>  One of MS Magazine's ``Women of the Year''

        <bullet>  Women in Technology International Hall of Fame

        <bullet>  NASA Outstanding Leadership Medal for management and 
        systems engineering

        <bullet>  Society of Women Engineers Judith Resnick Award

        <bullet>  President of the Science Council for the NASA 
        Institute of Advanced Concepts

        <bullet>  Member of the Board of Omniplex Science Museum in 
        Oklahoma City, Oklahoma

        <bullet>  Member, American Society for Engineering Education

        <bullet>  Trustee of Scripps College for Women, Claremont, 
        California

SELECTED RECENT PUBLICATIONS

        <bullet>  Striz, A. and Shirley, D., ``Intelligent Aerospace 
        Systems: An Exercise in Curriculum Development,'' ASEE Midwest 
        Section Meeting, University of Missouri-Rolla, September 10-12, 
        2003.

        <bullet>  Miller, D.P., D. Hougen and D. Shirley, The Sooner 
        Lunar Schooner: Lunar Engineering Education, Journal of 
        Advances in Space Research, Vol. 31/11, pp. 2449-2454, 2003.

        <bullet>  Shirley, D., Baker, R., Deaton, L. and Reynolds, E., 
        ``Tinker Air Force Base Phase I Process Improvement Methodology 
        Report,'' 31 May 2003.

        <bullet>  ASEE 2002-406, ``Managing Creativity: A Creative 
        Engineering Education Approach,'' D.L. Shirley, ASEE National 
        Conference, June 2002.

        <bullet>  Shirley, D.L. ``The Myths of Mars: Why We're Not 
        There Yet, and How to Get There,'' Workshop on Concepts and 
        Approaches for Mars Exploration, Lunar and Planetary Institute, 
        Houston, TX, 18-20 July 2000.

        <bullet>  Shirley, D.L, Written Congressional testimony on 
        ``The Root Causes of the Mars Surveyor 98 Mission Failures,'' 
        requested by the staff for the House Subcommittee on Science 
        and Technology and used in hearings on 30 April 2000.

        <bullet>  Shirley, D.L. ``Women in Engineering: Focus on 
        Success,'' Bridge, National Academy of Engineering, Summer 
        1999.

        <bullet>  Shirley, Donna L., Managing Martians, Autobiography 
        published by Broadway Books, with Danelle Morton, 1998, 1999.

        <bullet>  Shirley, Donna L., ``Touching Mars,'' presented at 
        the IAA Low Cost Systems Conference, Pasadena, CA, August 1998.

        <bullet>  Shirley, Donna L. and Matijevic, Jacob, ``Mars 
        Rovers: Past, Present and Future,'' Princeton University Space 
        Studies Institute's 20th Anniversary Conference, Princeton, NJ, 
        10 May 1997.

        <bullet>  Shirley, D.L. and Haynes, N., ``The Mars Exploration 
        Program,'' Space Technology and Applications International 
        Forum (STAIF-97), Albuquerque, NM, 26-30 January 1997.

SELECTED MEDIA APPEARANCES

        <bullet>  Recent (1996-2004) Television Appearances include: 
        Masters of Technology Show #105, Donna Shirley SPACE TECHNOLOGY 
        (http://www.sciam.com/mastertech/), (2002), ABC's World News 
        Tonight, ABC's Good Morning America, NBC's Today, many CNN news 
        programs, the Discovery Channel's Life on Mars?, PBS's Jim 
        Lehrer News Hour, The Family Channel's To the Moon and Mars, LA 
        Life and Times on KCET public television, Charley Rose, Tom 
        Snyder, CSPAN, documentaries by PBS, the BBC, and Australian 
        television, and many other television news programs.

        <bullet>  Numerous national and international radio appearances 
        including local and national commercial and educational 
        networks and PBS.

        <bullet>  Print and Electronic Media: Widely quoted and 
        featured in major print media.

        <bullet>  Have given literally hundreds of speeches, nationally 
        and internationally, on management of creative systems, space 
        exploration, education, and diversity.


        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

    Chairman Boehlert. Thank you very much, Dr. Shirley.
    We just have five minutes, so Dr. Young, we are going to 
pause right now. And you know the drill. You are all veterans 
up here. We will do our best to get back in a timely fashion. 
If you would like a cup of coffee or anything or use the 
Chairman's lounge, you may do so. We will be back as soon as 
possible.
    [Recess.]
    Chairman Boehlert. Dr. Young.

 STATEMENT OF DR. LAURENCE R. YOUNG, APOLLO PROGRAM PROFESSOR, 
MASSACHUSETTS INSTITUTE OF TECHNOLOGY (MIT); FOUNDING DIRECTOR 
  OF THE NATIONAL SPACE BIOMEDICAL RESEARCH INSTITUTE (NSBRI)

    Dr. Young. Mr. Chairman, thank you for the privilege of 
addressing you on this question. Let me say, at the outset, 
that I am in favor of the human exploration of Mars. I was 
personally aware of the risk of human space flight during my 
role as an alternate payload specialist on STS-58. I am now 
back in the equally hazardous environment of Cambridge, 
Massachusetts from which station I have tried to answer the 
questions that were addressed to me by your Committee, and I 
will limit myself to comments on the four questions concerning 
the human physiological challenges of the proposed Mars 
mission.
    First, what are the most significant physiological 
challenges, and what is being done about them? They are, as you 
are well aware, bone loss, muscle loss, cardiovascular 
deconditioning, and neurovestibular, or balance organ, changes, 
which are all challenges. With insufficient countermeasures, 
the long duration mission to Mars will be very deleterious. 
Bone loss and the related risk of fracture remains the most 
serious unsolved threat. Progress in treating demineralization 
is being made with the use of drugs. Cardiovascular 
deconditioning, with the associated post-flight orthostatic 
hypotension, which just means fainting when you stand up, may 
also be combated with drugs, as well as fluid loading and 
aerobic exercises. The neurovestibular problems can affect 
balance and locomotion for a considerable time after return to 
Earth or going to work on the surface of another planet. The 
overall issue, at the current time, is that the current suite 
of exercise countermeasures, relying primarily on treadmills, 
resistance devices, is unreliable, time consuming, and 
inadequate by itself to assure the sufficient physical 
conditioning of astronauts going to Mars.
    Radiation, however, remains the most vexing and difficult 
issue. Both increases in the likelihood of cancer and possible 
acute radiation sickness are major concerns for any extended 
flights, particularly outside the Earth's magnetic field. 
During solar flare periods, astronauts could retreat to a small 
shelter to avoid the potentially high proton storms. The high-
energy charged particles in the constant cosmic radiation, 
however, are considerably more difficult to protect against. 
Conventional shielding against them only makes matters worse by 
secondary emission of further damaging radiation. Both the flux 
of these particles and their impact on organs are being 
measured by a variety of dosimeters aboard the Space Station. 
The relative biological effectiveness of these heavy charged 
particles is also under investigation, making use of a new NASA 
Space Radiation Facility at the Brookhaven National Laboratory.
    Some progress in drug protection against radiation threats 
is currently being made, but more effort is required. Magnetic 
shielding, long considered desirable, may also be inching 
toward a practical implementation using superconducting magnet 
technology. Much of this bioastronautic research has been 
conducted under the leadership and sponsorship of the National 
Space Biomedical Research Institute and the Johnson Space 
Center. They had a critical road--a ``Critical Path Roadmap'' 
developed to guide the selection of peer-reviewed research 
proposals. This roadmap, incidentally, is about to be reviewed 
by a panel led by the Institute of Medicine.
    Both the microgravity and the radiation threats, of course, 
are reduced by shortening the transit time to several months 
and using the local soil for adding shielding to the surface 
of--on the surface of the Moon or Mars. Advanced technology 
propulsion could shorten the voyage and mitigate the threats as 
well as ease the serious psychosocial challenge of the small 
groups working and living in isolation.
    The second question was the need for the Station to 
continue research to solve these problems. The Station, 
although potentially the ideal laboratory for research into all 
of microgravity science, has not yet been used effectively for 
several reasons. It is still under construction and has a 
limited crew. There is not enough time available for human 
research, but we can make sufficient progress to take advantage 
of its presence in the future. The keys to fulfilling the 
potential of the Station are peer-reviewed, mission-directed 
science, an expanded crew, installation of the key biomedical 
equipment on-board, timelier accelerated use--launching of the 
Centrifuge Accommodation Mission, and utilization of the 
Station as a testbed for technology for development of advanced 
life support systems.
    Finally, the most important piece of additional equipment 
to meet the research goals is a short radius human centrifuge 
for the study of intermittent artificial gravity inside the 
Station, possibly the ``universal antidote'' we have been 
shooting for.
    In closing, Mr. Chairman, I would like to say something 
about a question that was not posed to me, and that is the 
importance of the Mars mission, as well as the Station, for 
education and outreach. It has often been claimed that human 
space exploration serves to motivate students and teachers to 
emphasize science and mathematics in the educational process. I 
can state from personal experience, with some of the country's 
best young, minds that this is certainly true. The excitement 
of human space flight and the recognition of the daunting 
nature of some of the tasks invigorate the very students we 
most need to continue to drive the science and technology 
engine of our society. The National Space Grant Program, for 
example, regularly contributes to the education of many 
thousands of youngsters who have seen the stars and remain 
committed to the space program. The proposed Moon/Mars mission 
will only expand this level of interest in my opinion.
    Thank you.
    [The prepared statement of Dr. Young follows:]
                Prepared Statement of Laurence R. Young
    Outline of responses to key questions posed by the Committee:.

Q1.  What are the most significant human physiology challenges? How 
daunting? When will they be resolved? How much research has been done 
and where was it conducted?

    Bone loss, muscle loss, cardiovascular deconditioning and 
neurovestibular alterations are all known challenges. The longer the 
space flight the more serious the after-effects of weightlessness. With 
insufficient countermeasures the long duration flight using 
conventional propulsion (nine months to Mars, month to a year on the 
surface at 3/8 g, and 6-9 months back to Earth), the microgravity 
effects will be very deleterious. Current countermeasures (aerobic and 
resistive exercise as in ISS), although inefficient and onerous for 
some astronauts, are reasonably effective against some of the muscle 
and cardiovascular losses--but have only limited effectiveness in 
countering the full range of dangerous bone weakening. Bone loss and 
the related risk of fracture remains the most serious unsolved threat. 
Progress in treating demineralization is being made with use of drugs 
(bis-phosphonates). Cardiovascular deconditioning and the associated 
post-flight orthostatic hypotension may also be combated with drugs 
(mydodrine) as well as fluid loading and aerobic exercise. The 
effectiveness of these drugs for use in space and following return is 
only now being determined. A protective suit can also mitigate the 
problem of orthostatic hypotension to some extent. It remains to be 
determined if some such suit will be needed or provided for landing on 
the Moon or Mars. Neurovestibular problems can affect balance and 
locomotion for a considerable time after return to Earth. This too, 
along with motion sickness, can threaten astronaut safety and comfort 
on arrival at Mars unless effective countermeasures are employed. 
Overall, the current suite of exercise countermeasures, relying 
primarily on treadmill, resistance devices, is unreliable, time 
consuming, and inadequate by itself to assure the sufficient physical 
conditioning of astronauts going to Mars.
    Radiation remains the most vexing and difficult issue. Both 
increases in the likelihood of cancer and possible acute radiation 
sickness are major concerns for any extended flights outside the 
protection of Earth's magnetic field. During solar flare periods 
astronauts could retreat to a small shelter to avoid the potentially 
high level proton storms Galactic cosmic radiation, consists of 
omnidirectional fluxes of particles covering a wide range of energies. 
High energy charged particles in the constant cosmic radiation are 
considerably more difficult to protect against. Conventional shielding 
against them only makes matter worse by the secondary emission of 
further damaging radiation. Both the flux of these particles and their 
impact on organs are being measured by a variety of dosimeters 
currently aboard ISS. The very important issue of the relative 
biological effectiveness of these heavy charged particles is also under 
investigation, making use of the new NASA Space Radiation Facility at 
the Brookhaven National Laboratory. The Alpha Magnetic Spectrometer 
aboard ISS should add highly accurate determination of the flux of 
galactic radiation, by extrapolation from its measurements made on the 
Space Station. Some progress in drug protection against the radiation 
threat is currently being made but more effort in that direction is 
required. Magnetic shielding, long considered desirable, may also be 
moving toward a practical implementation using superconducting magnet 
technology .
    One promising approach to the weightlessness issue is the well 
known but never implemented artificial gravity approach, to be 
discussed later. Both the microgravity and radiation threats, of 
course, are reduced by shortening the transit time to several months 
and using the local soil for added shielding on the surface of the Moon 
or Mars. The transit time for propulsion using conventional bi-
propellant rockets is essentially determined by orbital mechanics as 
one coasts towards Mars. Advanced technology propulsion could shorten 
the voyage and mitigate the threats, as well as ease the serious 
psycho-social challenge of small groups working and living in isolation 
for long periods.
    Much of the recent bioastronautics research has been conducted at 
universities by countermeasure development teams of university and 
government laboratories under the leadership and sponsorship of the 
National Space Biomedical Research Institute and at JSC. A ``Critical 
Path Roadmap'' and associated high priority research questions has been 
developed and maintained by JSC and NSBRI--and should guide the 
selection of peer reviewed research proposals. This Roadmap is about to 
be reviewed by a panel under the direction of the three Academies: NAS, 
NAE and IOM.

Q2.  How can research aboard ISS contribute to solving these problems? 
What kinds of experiments and additional equipment are needed? How long 
will it take?

    The ISS is potentially the ideal laboratory for research into all 
of the microgravity related issues challenging long duration 
exploration. It has not yet been used effectively however, for several 
reasons. While under construction, and with a limited crew of three 
(now two), no time is available for intense human research. Only one of 
the two Human Research Facility racks is on-board, and sample return is 
currently nearly non-existent. The limited results to date should not 
be taken as predictive of the potential benefits of the fully equipped 
and staffed ISS, any more than the initial flawed HST could have been 
used to predict its current string of successes.
    The keys to fulfilling the potential of ISS in the bioastronautics 
areas are:

        1.  Support of peer reviewed, mission oriented flight 
        experiments directed at solution of the key bioastronautcs 
        challenges.

        2.  Provision of a full resident crew of six or seven, 
        including astronauts trained and capable of doing biomedical 
        studies and serving as test subjects.

        3.  Installation and resupply of the key biomedical equipment, 
        beginning with the Human Research Facility Rack 2, and enabling 
        the important additions in the JEM and Columbus to be added to 
        the ISS.

        4.  Timely, or even accelerated, launching of the Centrifuge 
        Accommodation Module (CAM) and performance of key experiments 
        on animals at various g-levels. (The scientifically important 
        research into the influence of partial gravity on animals and 
        cells is also fundamental to understanding the problem of human 
        deconditioning and survival in 0-g, on the Moon or on Mars.) 
        The utilization of the CAM will, of course, require the regular 
        upload and download of research specimens--even after 
        discontinuation of Shuttle flights.

        5.  Utilization of the ISS as a testbed for technology 
        development for advanced life support systems. Testing and 
        evaluation of full or partially closed life support systems, 
        essential to any long duration mission to the Moon or Mars, 
        will be best accomplished on the ISS. If successful these 
        advanced life support systems could then be incorporated into 
        the infrastructure of the ISS itself, reducing operational 
        costs and permitting larger and longer crew presence.

    Finally, the most important piece of additional equipment to meet 
the research goals is a short radius human centrifuge for the study of 
intermittent artificial gravity inside the ISS. Ground studies already 
underway will determine the potential of artificial gravity for 
preventing all of the microgravity related deconditioning issues. 
Although early positive results will guide missions planners regarding 
artificial gravity, only flight tests with numerous (tens) of 
astronauts for extended periods (several months) will allow this 
``universal antidote'' to be proven and applied to a Mars mission in 
conjunction with other countermeasures. Design studies of a moderate 
radius (56m) spacecraft structure, rotating at 4 rpm to provide 1-g of 
artificial gravity, are encouraging and the concept appears practical.

Q3.  How would the research budget and number of astronauts aboard 
station have to be changed to accomplish the research agenda?

    The proposed research budget for Biological/Physical Sciences 
Research ($492 Million for FY 2005) represents a substantial increase. 
However, to go along with an increase to six or seven crew members, the 
capability of conducting many more in-flight experiments, and the need 
for a human centrifuge on the ISS, this budget will need to increased 
even further. I am not prepared to speculate on the desirable level. 
Among the substantial number of ground research studies submitted to 
NSBRI and to NASA are numbers of potentially valuable and relevant 
flight experiments, each of which is costly. Since there have been very 
few flight biomedical experiments since Neurolab and STS-95, a 
substantial queue of accepted peer reviewed investigations already 
exists. Some worthwhile studies have already been ``deselected'' for 
lack of flight opportunities or relevance.

Q4.  How long will the ISS have to remain in operation to produce 
meaningful flight information?

    Because most of the human physiology experiments require long 
duration exposure to weightlessness and evaluation of potential 
countermeasures, the process of accumulating sufficient data and 
exploring the relevant variables is very time consuming. Initial 
results for countermeasure evaluation, for example, might only begin to 
be accumulated after four sessions of 4-6 months each. Early positive 
results would obviously influence both Mars mission designs and even 
continuing ISS crew health protection. To reach a valid scientific 
conclusion about particular protocols however, fuller exploration might 
take 8-10 test missions, or up to five years to finish. Finally, it 
seems prudent to complete a full-length on-orbit simulation of at least 
the mission to Mars, if not the entire round trip, before embarking on 
that voyage of exploration. Obviously a lunar base could form a key 
portion of this simulation, along with the ISS.
    Beyond the immediate use of the ISS to answer some of the more 
pressing issues in human physiology associated with the Vision for 
Space Exploration, is the larger question of the continued need for a 
microgravity laboratory for science and technology. The proposal to 
limit ISS research to the impact of space on human health and to end 
support for other important microgravity science and space technology 
seems short sighted. There will remain numerous important questions, in 
fundamental biology and physics, in the behavior of fluids and 
combustion, in materials and crystal growth that can only be answered 
in orbit. If the ISS were allowed to end its useful life prematurely we 
would only hear a strong cry for its replacement. I strongly believe in 
the scientific and technical value of a ``permanent presence in 
space.''

Additional Comments:

Education and Outreach:
    It has often been claimed that the human space serves to motivate 
students and teachers to emphasize science and mathematics in the 
educational process. I can state from personal experience with some of 
the country's best young minds that this is certainly true. The 
excitement of human space flight and the recognition of the daunting 
nature of some of the tasks invigorate the very students we most need 
to continue to drive the science and technology engine of our society. 
The national Space Grant program, for example, regularly contributes to 
the education of thousands of youngsters who have ``seem the stars'' 
and remain committed to the space program. The proposed Moon/Mars 
mission will only expand this level of interest.


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Boehlert. Thank you very much, Dr. Young.
    Dr. Fisk.

 STATEMENT OF DR. LENNARD A. FISK, CHAIR, SPACE STUDIES BOARD 
   (SSB), NATIONAL ACADEMY OF SCIENCES; CHAIR, DEPARTMENT OF 
    ATMOSPHERIC, OCEANIC, AND SPACE SCIENCES, UNIVERSITY OF 
  MICHIGAN; FORMER ASSOCIATE ADMINISTRATOR, SPACE SCIENCE AND 
                       APPLICATION, NASA

    Dr. Fisk. Mr. Chairman, Ranking Member Gordon, and Members 
of the Committee, I am pleased to have this opportunity to 
testify before you. As you noted, I have provided some written 
comments. These are based on the reports and studies, the many 
reports and studies of the National Research Council Space 
Studies Board of which I am the Chair.
    I would also like to refer you, in particular, to a 
workshop that we held last November on the Nation's space--what 
the Nation's space policy should be. And I believe a summary of 
that workshop has been provided to you.
    You asked a number of important questions, and in the time 
allotted to me for my remarks, let me just comment on a few of 
them. You asked the question whether the President's initiative 
is needed and justified. The answer, in my judgment, is an 
unqualified yes. As was noted earlier on the panel, the human 
space flight program of NASA has lacked direction now for 
decades, and it needs a clear, definitive goal, and the obvious 
goal is to explore. Exploration is the acquisition of new 
knowledge: knowledge of space as a place for human activity, 
knowledge of our solar system, the universe beyond, and perhaps 
exploration as a basic human desire innate in our genetic code. 
And the human space flight program can be a contributor to the 
modern realization of that basic trait.
    You asked if NASA was properly conducting this exploration 
initiative. On this point, I am very encouraged. Since it 
appears that it is being conducted as a true exploration 
initiative, not a human or a robotic program, but rather one in 
which humans and robots each play their essential and 
appropriate roles. Indeed, I think one of the appealing things 
to me is there is an opportunity here to diminish what has been 
a long-standing dichotomy between space science and human space 
flight. An exploration program properly conducted in which 
humans and robots each play their appropriate roles should 
result in synergy between robotic science and human space 
flight.
    It also appears to be recognized that this is a long-term 
endeavor. Indeed, one could argue the limited budgets that are 
being provided for it demand a long-term endeavor. This long-
term endeavor will, as a result, need to be accomplished 
through a series of incremental steps. But there is a positive 
feature to those incremental steps as well in that it should 
sustain public and political support for the decades to come. 
Robotic missions to the Moon and Mars, laying the foundation 
for human exploration, a regular series of test flights of 
launch capabilities, the use of the Space Station to qualify 
humans for space, all of these things should create the 
appearance and the reality of progress and sustain interest and 
support.
    You asked about the balance between other NASA activities, 
and on this point, there are some major concerns, particularly 
with the President's fiscal year 2005 budget for NASA, which 
begins the exploration initiative, because it has unfortunately 
resulted in some collateral damage for certain of NASA's 
science disciplines. Space science has basically been divided 
up into those which are considered to be essential for 
exploration and those which are not, and the latter has 
suffered some serious reductions, particularly in the out-
years. I question the wisdom of this demarcation. It is 
important to note that this is not, in any way, a rejection of 
the exploration initiative, it is rather simply a lament that 
certain disciplines have been left out. The Sun-Earth 
Connections program of NASA has a goal to understand the Sun 
and its influence on the space environment of the solar system, 
and yet it has seen some serious cuts in the programs on which 
it depends. If we are going to, in fact, consider sending 
humans forth into space, it is inconceivable to me that we 
would not try and develop the ability to understand and predict 
the space environment through which we will fly. That would be 
like embarking on an ocean voyage of exploration without an 
adequate marine weather forecast.
    And similarly, the exploration--definition of exploration 
in the President's initiative seems a bit narrow to me: the 
planets are in, the sun is not. The Origins of the Universe 
Program, which looks for life elsewhere, is in but the 
Structure and Evolution of the Universe Program is out. And it 
is as if we have divided exploration up by wavelength where we 
say infrared and visible light astronomy, which can reveal 
habitable sites, is in, but x-ray and gamma ray astronomy, 
which looks at the more violent parts of the universe, is out, 
and this does not make sense to me. And then, of course, there 
is Earth science, which has been badly cut.
    This is a special issue. NASA has a responsibility, under 
the Space Act and its amendments, to use its capabilities to 
understand our home planet and predict its future. There is a 
difference, I think between priorities and responsibilities. We 
have the priority now to explore, but we still have the 
responsibility to deliver to the policy makers, and the public, 
a sufficient understanding of how we can be good stewards of 
our planetary home.
    Throughout the history of NASA, the various science 
disciplines have each been recognized for their fundamental 
importance to explore, to understand, and to utilize space and 
have been supported equally. The proposed exploration 
initiative has resulted in a fundamental departure from that 
balanced approach.
    Thank you for your attention.
    [The prepared statement of Dr. Fisk follows:]
                 Prepared Statement of Lennard A. Fisk

   The President's Vision for Space Exploration: Perspectives from a 
              Recent NRC Workshop on National Space Policy

Introduction

    Chairman Boehlert, Ranking Member Gordon, and Members of the 
Committee, thank you for inviting me to testify today. My name is 
Lennard Fisk. I am the Thomas M. Donahue Collegiate Professor of Space 
Science at the University of Michigan, and I appear before you today in 
my capacity as the Chair of the National Research Council's Space 
Studies Board. In discussing the President's vision for space 
exploration this morning I will be telling you about a workshop that 
the National Research Council held last November under the sponsorship 
of the Space Studies Board and the Aeronautics and Space Engineering 
Board. The purpose of the workshop was to discuss the question: What 
should be the principal purposes, goals, and priorities of the U.S. 
civil space program? As I will tell you, there are many ideas from that 
workshop that are well embodied in the President's vision for space 
exploration. There are also some views on implementation, which you may 
wish to consider. There are, however, some notable differences from 
what participants at our workshop thought was an appropriate approach 
that I would like to call to your attention.
    I have brought with me and would submit for the record a list of 
the workshop participants and a copy of the report,\1\ titled Issues 
and Opportunities Regarding the U.S. Space Program: A Summary Report of 
a Workshop on National Space Policy, which summarizes our discussions. 
As you can see from the list, the participants represented a broad 
range of experiences in the space program, having participated in 
leadership positions in NASA, industry, and the military, as well as 
the science community. The discussions were informed and lively, and 
what impressed me most was the extent to which people agreed on the key 
issues.
---------------------------------------------------------------------------
    \1\ Issues and Opportunities Regarding the U.S. Space Program: A 
Summary Report of a Workshop on National Space Policy, NRC Space 
Studies Board and Aeronautics and Space Engineering Board (2004).
---------------------------------------------------------------------------

Is the President's Vision Needed?

    The participants in the NRC workshop stated several times over the 
course of the meeting that NASA needed a clear vision, direction, and 
goal for the human space flight program. Furthermore, these 
participants were inclined to agree that such a goal should be the 
human exploration of the solar system beyond low-Earth orbit. They 
viewed exploration as the acquisition of new knowledge: knowledge of 
space as a place for human activity, knowledge of our solar system, and 
knowledge of the universe beyond our solar system. They also saw 
exploration as a basic human desire, innate in our genetic code, and 
noted that human space flight can be the modern realization of that 
basic trait.

Is NASA Approaching the Vision Correctly?

    The important question, of course, is how does the Nation proceed 
in order to achieve a space exploration goal? How do we ensure success? 
Our workshop recognized that exploration of our solar system is a long-
term endeavor, which needs to be accomplished with a series of 
incremental steps. In this sense, the human exploration efforts can 
learn from the successes of NASA's science programs. Workshop 
participants observed that certain key factors have contributed to the 
success of the science program: there are clear goals in the science 
program established by the science community's interest in pursuing the 
most challenging scientific questions; there is strategic planning; and 
there has been a steady sequence of accomplishments. The science 
program is executed via a series of individual steps that can 
accumulate success, from which progress can be measured and momentum 
sustained.
    So what are these steps for human exploration? Our workshop 
participants envisioned a number of key efforts--the development of 
building block technology, the dedication of ISS research to solving 
questions posed by long-term space flight, eventual phasing out of the 
Space Shuttle, and the use of robotic precursor missions to both the 
Moon and Mars. These steps also are part of NASA's new roadmap for 
space exploration.
    In 1997 the Space Studies Board published a report which I think 
offers several complementary ideas for a roadmap for space exploration. 
Titled The Human Exploration of Space, the report reviews three 
important areas of consideration that the Board felt were necessary to 
address at the initial stages of a program in human exploration.\2\ 
First is the enabling science for human exploration. This defines the 
conditions necessary to maintain the health and safety of astronauts 
and to ensure their optimal performance. Research areas that are 
enabling science can be classified according to their degree of 
urgency. Critical research issues, or ``showstoppers,'' are those for 
which inadequate scientific data lead to unacceptably high risks to any 
program of extended space exploration. The second area of consideration 
is the science that is enabled by a human exploration program, 
specifically human missions to the Moon and Mars. The third area of 
consideration is one of management and organization--what should be the 
relationship between the scientific community and NASA, between 
scientists and engineers within NASA, as a program of human exploration 
moves forward?
---------------------------------------------------------------------------
    \2\ The Human Exploration of Space, NRC Space Studies Board, 1997.
---------------------------------------------------------------------------
    The 1997 SSB report identifies the following as those showstopper, 
critical research issues: the long- and short-term effects of ionizing 
radiation on human tissue; the radiation environment inside proposed 
space vehicles; the benefits and costs of different radiation shielding 
techniques; the detrimental effects of reduced gravity and transitions 
in gravitational forces on all of the body's systems and on bones, 
muscles, and mineral metabolism; and the psychological effects of long-
duration confinement in microgravity with no escape possible. These and 
several other issues related to the human biological response to space 
exploration are detailed and prioritized in two more recent National 
Academies reports: A Strategy for Research in Space Biology and 
Medicine in the New Century,\3\ published by the Space Studies Board; 
and Safe Passage: Astronaut Care for Exploration Missions,\4\ published 
by the Institute of Medicine.
---------------------------------------------------------------------------
    \3\ A Strategy for Research in Space Biology and Medicine in the 
New Century, NRC Space Studies Board, 1998.
    \4\ Safe Passage: Astronaut Care for Exploration Missions, Board on 
Health Sciences Policy, Institute of Medicine, 2001.
---------------------------------------------------------------------------
    As for the connection between scientists and engineers, I was 
struck at our workshop by how members of the scientific community 
appeared willing to embrace the idea that the human space flight 
program can be a contributor to real scientific progress. I think our 
participants would echo the conclusions of the 1997 report which called 
for an integrated science program to accompany human missions to the 
Moon and Mars, as well as the close coordination between human space 
flight and science program staff in the implementation of an 
exploration program. Participants at our workshop said many times that 
the reason the process of setting research priorities by the scientific 
community has had a positive impact on NASA's science programs is that 
it creates within the scientific community, a community that in the 
language of Congress can be considered the constituency of the science 
programs, a sense of ownership in the program. That feeling of 
ownership creates what we called a constructive tension between NASA 
and the science community, which ultimately empowers the program to 
excel. We observed this sense of ownership to be missing from the human 
space flight part of NASA, but that does not have to remain the case.
    Robotic precursor missions to the Moon and Mars can provide an 
opportunity to engage this issue of cooperation between science and 
exploration, develop new technologies for space exploration, and 
significantly enhance and optimize the scientific return of eventual 
human missions. A 2002 report by the Space Studies Board, New Frontiers 
in the Solar System: An Integrated Exploration Strategy,\5\ highlighted 
an extremely exciting opportunity for science from the Moon, by making 
a sample return mission to the Moon's South Pole-Aitken Basin one of 
its top priorities. By studying the internal structure of the Moon at 
this location, which is the oldest and deepest impact structure 
preserved on the Moon, we can investigate how major impacts on the 
Earth from early solar system space debris shaped the evolution of our 
planet. The solar system exploration strategy report also identifies 
important scientific opportunities for the exploration of Mars.
---------------------------------------------------------------------------
    \5\ New Frontiers in the Solar System: An Integrated Exploration 
Strategy, Space Studies Board, 2002.
---------------------------------------------------------------------------
    Participants at our workshop argued that precursor missions to the 
Moon and Mars should seek to move past a previously long-standing 
dichotomy that has existed between robotic and human space flight over 
most of NASA's existence. Part of the goal of these missions should be 
to develop the technology that will allow for the greatest possible 
human-robotic interaction. Workshop discussions emphasized the concept 
of synergy--not just complementarity--between robots and humans. We 
must learn how to best take advantage of the strengths of both, 
separately and in cooperation.

Further Comments on Science

    There are other critical research challenges which deserve equal 
attention and consideration in addition to the biological and 
physiological questions I mentioned. Specifically, I refer to two 
issues highlighted in our 1997 Human Exploration report: (a) the 
characteristics of cosmic-ray particles and the extent to which their 
levels are modulated by the solar cycle and (b) the frequency and 
severity of solar flares. These issues arise from questions about the 
nature of the role of the Sun in our solar system and how the Sun 
creates and controls the environment into which we intend to send 
astronauts. The recent NRC decadal science strategy for solar and space 
physics\6\ identified key missions within NASA's Sun-Earth Connections 
program that are critical to understanding these fundamental processes 
and consequently to understanding the volatile space environment. That 
report recommended that the Sun-Earth Connections program of NASA be 
charged with, and provided the resources needed for, developing a 
predictive understanding of the Sun and the space environment it 
controls. I would urge you to carefully consider the impact of any 
prioritization that would hinder or delay the development of our 
understanding of and our ability to predict the space environment.
---------------------------------------------------------------------------
    \6\ The Sun to the Earth--and Beyond: A Decadal Research Strategy 
for Solar and Space Physics, NRC Space Studies Board (2002).
---------------------------------------------------------------------------

A Lack of Balance in the Science Programs

    It was the opinion of many at our workshop that the science road 
maps, decadal strategy surveys, and mission plans in astronomy and 
astrophysics, solar and space physics, and solar system exploration, 
which have been so carefully developed by scientists and engineers in 
the external community and in NASA, and NASA's careful attention to 
these details in execution of its programs, have resulted in science 
being NASA's greatest current strength. In fact, since the Apollo era 
came to a close one might argue that NASA's science efforts have been 
responsible for a major fraction of the Agency's greatest successes. 
The pertinent question then is: Can NASA preserve the strengths of its 
science programs and at the same time energize a new human space flight 
program that seeks to include the science of exploration as part of an 
overall new thrust for the agency?
    This is, of course, a question of balance--balance between a new 
exploration priority and continuing successful science programs. I 
would encourage you to consider whether or not the science disciplines 
have been divided unnecessarily into those that are perceived as 
essential for exploration and those that are not. Our reports argue 
that the sun and the planets and moons of the solar system are all 
equally worthy of exploration. They also suggest that research to study 
both the origins of planetary systems and life and the structure and 
evolution of the universe are highly important.\7\ In Earth science, 
NASA has a responsibility under the Space Act and its amendments to use 
its capabilities to understand our home planet and predict its future. 
While NASA may now have a priority to explore, I would expect that it 
still also has the responsibility to deliver to the policy makers and 
the public a sufficient understanding of how we can be good stewards of 
our planetary home.\8\
---------------------------------------------------------------------------
    \7\ The relation of this research to exploration in its broadest 
context is addressed in Astronomy and Astrophysics in the New 
Millennium, National Research Council (2000) and Connecting Quarks with 
the Cosmos: Eleven Science Questions for the New Century, National 
Research Council (2000).
    \8\ The importance of NASA's Earth science program is addressed in 
Assessment of NASA's Draft 2003 Earth Science Enterprise Strategy, NRC 
Space Studies Board (2003).
---------------------------------------------------------------------------

How to Move Forward

    The matter of balance between new exploration priorities and 
science opportunities, between new priorities and responsibilities, is 
very difficult to tackle. I believe the best way to approach this 
matter, as is emphasized in our workshop report, is to move forward on 
the human exploration front at a deliberate pace. Our workshop 
discussions embraced the idea that NASA should pursue a long-term goal 
via a series of small steps, and they identified learning as the 
critical factor that should drive implementation decisions.
    There are several subjects about which we need to learn more. We 
must learn about the technology we will employ in this endeavor. We 
must learn more in several areas before we can be sure we have 
minimized the health risks to astronauts. And all of us, the scientific 
community, NASA, the Congress, and the Nation as whole, must learn how 
to organize our space program to engage this effort. The workshop 
report describes concerns that the infrastructure of our space program 
was formed and sized to support Apollo and it asks ``Is the current 
infrastructure properly configured for a bold initiative?'' The report 
notes that the space program workforce, in the broadest sense, is 
aging; the attitudes seem risk averse; process seems more important 
than ingenuity. Can this mind-set be changed? An aging workforce and 
infrastructure is also a feature of the space science community. Where 
are the bold new minds that will lead us into the future?
    Finally, there is the matter of cost. A sense at the workshop was 
that it is too premature to estimate how much an exploration initiative 
would cost--exactly because we have a great deal to learn and because 
our past experiences have told us that we should be careful in 
estimating costs too early. This is at the heart of why our 
participants emphasized a deliberate approach--we should identify 
critical research and technology development issues and devise, even at 
this early time, some kind of roadmap for progress in those areas. We 
must also examine the full breadth of NASA's science programs to 
determine what research already underway may contribute to that 
progress; what research is currently planned that may contribute to 
that progress; and what new research is necessary, and we must support 
them all with the resources necessary to achieve success. Only through 
this balanced approach, with roadmaps for technology development and 
scientific progress that are related to each other and flexible enough 
to adapt to change and to learning can we have a guidepost against 
which we measure our progress, articulate our successes, and identify 
our next steps.
    This approach to success through a series of individual steps 
implies a kind of ``go-as-you-pay'' approach to exploration to allow 
for affordable and flexible exploration that changes in response to 
learning. In this sense then, go-as-you-pay is complemented by the 
practice of pay-as-you-learn.

Conclusion

    In closing, Mr. Chairman, I would like to again thank you for 
inviting me to testify today. I would be happy to address any questions 
you and the committee may have about our report or the discussions that 
took place at our workshop. A renewed opportunity for human exploration 
in the solar system creates an exciting moment in our nation's history. 
I can tell you that there is indeed great excitement in the space 
community, which I believe is reflected in our report. I think further 
that the leaders of the scientific community may be ready to stand up 
and say ``we believe this country should invest in this activity, and 
we are ready to make the case to the world that this is a valid use of 
this nation's resources.'' I am hopeful that we as scientists are ready 
to engage this process actively to help guide its implementation and 
direct it toward success.

                 NRC Space Policy Workshop Participants

                          November 12-13, 2003

PANELISTS

Dan Fink, Consultant
Robert Frosch, Harvard University
Riccardo Giacconi, Johns Hopkins University and University Research 
        Associates
Noel Hinners, Lockheed-Martin (retired)
Wesley Huntress, Carnegie Institution of Washington
Thomas D. Jones, Consultant
Todd R. La Porte, University of California, Berkeley
John Logsdon, George Washington University
Richard Malow, AURA
Howard McCurdy, American University
Norman Neureiter, Texas Instruments (retired), Department of State 
        through September 2003
Mary Jane Osborn, University of Connecticut Medical School
Robert Richardson, Cornell University
Edward C. Stone, California Institute of Technology, U.S. 
        Representative to COSPAR
J.R. Thompson, Orbital Sciences Corporation
Albert Wheelon, Hughes Aircraft Company (retired)

SSB MEMBERS

Lennard A. Fisk, University of Michigan, Chair
George A. Paulikas, The Aerospace Corporation (retired), Vice Chair
J. Roger P. Angel, University of Arizona
Ana P. Barros, Harvard University
Reta F. Beebe, New Mexico State University
Roger D. Blandford, Stanford University
James L. Burch, Southwest Research Institute
Radford Byerly, Jr., University of Colorado
Howard M. Einspahr, Bristol-Myers Squibb Pharmaceutical Research 
        Institute (retired)
Steven H. Flajser, Loral Space and Communications, Ltd.
Michael H. Freilich, Oregon State University
Donald Ingber, Harvard Medical School
Ralph H. Jacobson, Charles Draper Laboratory (retired)
Tamara E. Jernigan, Lawrence Livermore National Laboratory
Margaret G. Kivelson, University of California, Los Angeles
Bruce D. Marcus, TRW, Inc. (retired)
Harry Y. McSween, Jr., University of Tennessee
Dennis W. Readey, Colorado School of Mines
Anna-Louise Reysenbach, Portland State University
Carolus J. Schrijver, Lockheed Martin Solar and Astrophysics Laboratory
Robert J. Serafin, National Center for Atmospheric Research
Mitchell Sogin, Marine Biological Laboratory
C. Megan Urry, Yale University
J. Craig Wheeler, University of Texas, Austin

ASEB MEMBERS

William W. Hoover, United States Air Force (retired), Chair
Donald L. Cromer, United States Air Force (retired) and Hughes Aircraft 
        Company (retired)
Dava J. Newman, Massachusetts Institute of Technology

INVITED GUESTS

Bill Adkins, House Committee on Science
Marc S. Allen, NASA Headquarters, Office of Space Science
Andrew Christensen, The Aerospace Corporation, Chair, Space Science 
        Advisory Committee
John Cullen, Senate Commerce Committee
Gerhard Haerendel, International University, Bremen, ESSC Chair
John Mimikakis, House Committee on Science
Richard Obermann, House Committee on Science
Jean-Claude Worms, European Space Science Committee

                     Biography for Lennard A. Fisk
    LENNARD A. FISK, Chair of the Space Studies Board of the National 
Research Council, is the Thomas M. Donahue Collegiate Professor of 
Space Science in the Department of Atmospheric, Oceanic, and Space 
Sciences at the University of Michigan. He is an active researcher in 
both theoretical and experimental studies of the solar atmosphere and 
its expansion into space to form the heliosphere. He heads the Solar 
and Heliospheric Research Group, which develops new theoretical 
concepts and models, analyzes data from the ongoing Ulysses, WIND and 
ACE missions, and which constructs new flight hardware for upcoming 
missions such as the MESSENGER mission to Mercury. From 1987 to 1993, 
Fisk was the Associate Administrator for Space Science and Applications 
and Chief Scientist of NASA. In that position he was responsible for 
all of NASA's science programs, including space science, Earth science, 
and microgravity life and physical sciences. From 1977 to 1987, Fisk 
served as Professor of Physics and Vice President for Research and 
Financial Affairs at the University of New Hampshire. Concurrent 
positions include Chairman of the Board of Trustees of the University 
Corporation for Atmospheric Research, member of the Board of Directors 
of the Orbital Sciences Corporation, and co-founder of the Michigan 
Aerospace Corporation. Fisk is a member of the National Academy of 
Sciences.

                               Discussion

    Chairman Boehlert. Thank you very much.
    And Mr. Augustine, I note that the hour has arrived; you 
must depart pre-arranged. We have got your number. We will be 
calling. Thank you very much, sir.
    Mr. Augustine. Mr. Chairman, I apologize. I would be happy 
to take questions for the record, if you would like.
    Chairman Boehlert. Thank you so much.
    Mr. Gordon. Mr. Chairman, if I could, let me just--I would 
like to publicly thank you, Mr. Augustine. Your 1990 report 
really is the benchmark for any kind of NASA oversight. All 
more recent studies and discussions about problems there, the 
bottom line, they go back and say, ``Well, the Augustine report 
predicted it and told us what to do.'' And it was just a very 
good piece of work, and thank you for what you have done for 
us.
    Mr. Augustine. Well, thank you. I had a very good group of 
people to work with.

        Role of Human Space Flight in National Scientific Goals

    Chairman Boehlert. Thank you very much. In his testimony, 
Mr. Augustine and also Dr. Griffin, pointed out that we were 
about establishing priorities. And we are not looking at an 
investment in science in comparison to what we might derive 
from an investment in cancer research or the necessity for 
investing in low-income housing for the poor or prescription 
drug benefits for the elderly. We are looking at this as part 
of our investment in science, the broad category. And just let 
me say my strong feeling, I think it is shared by others on 
this committee, that a society unwilling to invest in science 
and technology is a society willing to write its own economic 
obituary. So we are looking in the broad category of science, 
and then we are trying to determine the impact of this 
initiative on science. And then NASA is a subset of that, and a 
subset of our investment in NASA is human versus unmanned. And 
so we are trying to get answers to some very specific questions 
involving costs and risks, answers that are not easy to come up 
with. But I appreciate everything that you have presented so 
far. And we will go right to the questions.
    Let me start by seeing if I can point out some areas where 
there appears to be agreement within the panel. The main reason 
to have human space flight programs are the intangibles. Human 
space flight can obviously contribute to goals like advancing 
science, but the extra benefit for science is not so great to 
be a sufficient rationale in itself. Secondly, the most serious 
hurdles to having humans do more in space are the physiological 
impacts of spending a long time in space, particularly those 
caused by radiation. We have quite a bit of work to do before 
we fully understand those effects and what to do about them. 
And Dr. Young, you focused on that. And NASA can't undertake 
this mission by doing things the same old way; new ideas are 
needed, especially ways to engage more entrepreneurs in the 
process. Is there any disagreement with those basic statements?
    Dr. Fisk.

            Role of Robots in the Human Exploration of Space

    Dr. Fisk. If I may, there is a nuance on the first one that 
somehow science and humans--the human role is not so much to 
conduct science, if I am following you, but to, in fact--for 
the intangible benefit. I believe that there is an opportunity 
here when we--you know, if you ask yourself--we put these 
vehicles on Mars, for example. Well, they are controlled by 
humans, and they did the exploration, but the humans were in 
Los Angeles or Pasadena. Will there be any--well, it might have 
been better if they were closer together, you know. And so 
the--and yet--so you would have humans and robots both doing 
the exploration: the humans assisting the robots, the robots 
assisting the humans. But as we move forth with the real 
exploration initiative, I would argue that the humans--that it 
is a legitimate form of science and that the human presence 
there has a role in using the human mind, the ability to adjust 
to serendipity, the ability to solve problems----
    Chairman Boehlert. And is that, in and of itself, 
sufficient rationale to justify this program and the impact it 
will have on other programs and other areas of science? I guess 
that is the general point I am trying to get at.
    Dr. Fisk. Yeah, I think you need to do--I mean, the 
question is what is the--if you ask yourself what is the 
optimum means to explore a planet like Mars. I would put the--
eventually, I would put the humans closer to Mars.
    Chairman Boehlert. I understand that, but then we have to 
look at the cost and risk factor, and we have to factor that 
in.
    Dr. Fisk. Of course. Of course.

      Concerns With the Moon as an Interim Step to Exploring Mars

    Chairman Boehlert. And the impact on the other areas of 
science. That is the key thing.
    You know, the other day, I met with Dr. Steven Squyres of 
Cornell, and he has thrilled us all with his Mars rover 
missions. It was really exciting to talk to him, and I could 
have stayed for hours on end. He raised a concern about using 
the Moon as an interim step to Mars. And Dr. Shirley, I am 
interested in your observation on this, you referred to it in 
your testimony. He pointed out that landing on the Moon is 
different from landing on Mars because of the Martian 
atmosphere. His concern was that as money got tight, and 
inevitably it will, all of the elements of the lunar program 
that would actually contribute to preparing for Mars might get 
squeezed out, leaving a program that wouldn't get us much 
beyond where we were in 1969. He didn't oppose going to the 
Moon, by the way, but he did harbor that concern, and I think 
it is a legitimate concern. Would you comment on that? And what 
elements have to be in the lunar program to ensure that it gets 
us farther? Dr. Shirley.
    Dr. Shirley. I think Steve is absolutely correct. And my 
big concern is, having--excuse me, having worked in this 
process for years and years, when you start building 
infrastructure, the infrastructure takes on a life of its own. 
So we built the Shuttle, which was going to be, you know, the 
ultimate vehicle, but of course, it was starved for funds, so 
it was never fully reusable. It continued to be very expensive. 
It has never lived up to the hype, frankly, that was used to 
sell it. Similarly with the Space Station. Back--I was on the 
Space Station from '80 to '84, and the fact was that it was 
trying to be all things to all people. It was trying to be, and 
it turned out to be, a big jobs program and then an instrument 
of international policy and so on, and it is still absorbing 
money. My fear is the same as Steve's that: as we go to the 
Moon, we are going to want to put infrastructure up there. My 
contention is that there is almost no commonality between Mars 
and the Moon that is going to justify the vast expenditure that 
it would take to make the Moon a viable stepping stone. The 
President's vision calls for using resources, and there are no 
resources on the Moon, that I can see, that are going to be of 
any value for going to Mars. So I think----
    Chairman Boehlert. Thank you.
    Dr. Shirley.--it is a diversion.
    Chairman Boehlert. Dr. Griffin, would you care to comment?
    Dr. Griffin. Thank you. This is, unfortunately, one of 
those topics where Donna and I, who are long-time colleagues, 
disagree. I think there are direct and less tangible benefits 
to using the Moon on the way to Mars. The direct benefits are 
very simple. I am an engineer. I am not a scientist. I am not, 
at all, dissuaded by the fact that Mars has a small atmosphere 
and the Moon does not. I believe there is far more common about 
the engineering design of a lander for the Moon and Mars than 
there are differences. And the addition of an aeroshell as part 
of a lander system on Mars, I think, should not be allowed to 
sway the discussion away from the immense commonality, which 
could, and should, exist if the design were done properly.
    Secondly, I think the value of being on the Moon on the way 
to Mars, even if Mars is the more interesting planet, and I 
agree that it is, the value of being on the Moon is learning 
how to live on another planetary surface only a few days away 
from home when we have one man month of total experience of 
doing that. And it was, you know, 30 years ago plus at this 
point, and will be way in excess of that by the time we go to 
Mars. I think it is an act of technological hubris to assume 
that after five decades of not venturing beyond Earth orbit we 
are going to go direct to Mars. I just would be opposed to 
that.
    Dr. Young. I agree with Mike.
    Chairman Boehlert. Okay. Thank you. But----
    Dr. Griffin. And by the way, I agree completely with his 
earlier comments on parceling science out according to whether 
or not it is exploration science or other kinds of science. 
That is among the sillier things we have heard recently.
    Chairman Boehlert. My time has expired.
    Mr. Gordon.

     Lessons Learned From the Space Exploration Initiative of 1989

    Mr. Gordon. Dr. Griffin, you were directly involved in 
President George H. W. Bush's space exploration initiative in 
the early 1990s. And I hope you could give us some advice as to 
what was the major reason that the '89 space exploration 
initiative failed to win public and Congressional support and 
how different is the situation today?
    Dr. Griffin. Looking back on it from a perspective of 15 
years, I think the major reason was that completely 
inappropriate cost estimates were published and publicized 
before we really knew what the architectures were going to be 
or should be. They became nationally recognized as the $400 
billion space exploration initiative when there was never any 
actual specific content ascribed to that number. But that 
number, on the face of it, was unacceptable.
    The second thing that we failed to do, or that the people 
failed to do, was to recognize and solicit the--recognize the 
need for and solicit bipartisan support of the effort. No 
exploration program can be accomplished within one president's 
tenure, certainly not even within a senator's tenure. We will 
have many changes of administration. If we subscribe to 
exploration as a proper goal of the civil space program, it 
needs to be thought of the way we think of having a navy. We do 
not decide at every change of administration whether we will 
continue to have or not to have a navy. Minor course 
corrections are implemented, depending on the political 
necessities of the time and the strategic necessities of the 
time, but we don't debate whether we will have a navy. We need 
to adopt that same view with regard to NASA and space 
exploration.
    Mr. Gordon. Thank you. That makes a lot of sense.

                Shifting NASA Missions to Other Agencies

    Some have suggested that the way to make the space 
exploration affordable is to shift some of NASA's existing 
activities to other agencies. And presumably, the 
responsibility for paying for those activities would also be 
shifted to other agencies. For example, some have suggested 
that shifting NASA's aviation activities to the FAA. Others 
have said NASA should eliminate its Earth science program and 
shift them to NOAA. And I would like to get the general 
Committee's--or panel's suggestions as to whether you think 
that is a reasonable approach. Anybody just go ahead and start.
    Dr. Shirley. I think, for instance, before we do that, we 
need to look at what the missions of those agencies are, and 
those agencies would have to have their missions adjusted. For 
instance, the FAA's mission is not to develop technology. So if 
you are going to transfer it, you have to make sure that the 
FAA is prepared to take on that mission, and it is not clear at 
all that it--I mean, whether its infrastructure and its 
bureaucracy and all of that would be adequate for it. If you 
are going to shift Earth science to NOAA, same thing. NOAA is 
an operational agency, not a development agency. So it is 
possible to do it, but it is going to be a difficult process.
    Mr. Gordon. Anybody else care to comment?
    Dr. Young. Yes, speaking only about the human health 
issues, and the obvious question would be to what extent should 
the National Institutes of Health be responsible for them, I 
think it is worth pointing out that there has been a successful 
history of cooperative endeavors, including the very successful 
Neurolab mission, in which the NIH and NASA worked together on 
them. However, I think, in my opinion, it would be a mistake to 
get out of the life sciences business in NASA and shift it all 
to NIH, because I think the specialization that has been 
acquired, both in the outside university community and inside 
the agency, could not be replicated within the NIH.
    Mr. Gordon. Another quick couple of just--does anybody have 
a differing opinion?
    Dr. Fisk. The NOAA/NASA relationship is a very healthy one. 
I mean, they--but, as Dr. Shirley mentioned, I mean, there is a 
very different mindset in the agencies as to what their role 
is. I mean, NASA's role has been research, and NOAA's role has 
been on the operational side. The planet needs taken care of, 
and it needs to--we need observations. We need data systems. We 
need research on how it is, in fact, progressing and what we, 
as humans, are doing to it. And this is a role that NASA is 
uniquely capable of doing. I mean, it is the space agency. I 
mean, NASA builds many of NOAA's satellites to start with. I 
mean, this is not, you know, as if an agency like NOAA, you 
know, simply takes this whole responsibility on and can expect 
to be able to accomplish it.
    Mr. Gordon. Thank you. And this could wind up being a 
threshold question of going through, and your insight was 
helpful for me. Thank you.
    Chairman Boehlert. The Chair of the Subcommittee on Space 
and Aeronautics, Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much.

            Expectations for the International Space Station

    This is very perplexing, having been here 16 years now and 
following all of these debates about Space Station. I am 
certainly hopeful that what we are talking about now, which is, 
of course, a next step, doesn't turn out as disappointing as 
this step has been. The Space Station--Dr. Shirley, I guess you 
have described it as a jobs program. And it--to some degree, we 
have to admit that it was a transition out of the Cold War for 
the aerospace industry, at least a lot of us saw that. It was a 
means of keeping the aerospace industry's infrastructure in 
place. But do--I would just like to ask the panel that--were 
you all aware that there was going to be as limited, of say--as 
limited a product or output of the Space Station as we now are 
being told? I mean, apparently what you are telling us now, 
what we are exploring now, is Space Station is simply going to 
be a training ground for further exploration so we can find out 
about how the body works so that we can go on and--to further 
space exploration. For the last 10 years, we have been told 
Space Station's scientific experimentation was going to be so 
much greater. It was going to change all of humankind for 
various cancer research and all sorts of other things. Maybe 
you could comment. Is this--we now are--we are learning--are we 
now just saying Station is just going to fulfill that mission? 
And if that is so, how long have we known that that is how 
limited the mission would be?
    Dr. Young. Well, like Dr. Shirley, I was involved in almost 
all of the early external advisory committees on Station, and I 
shared the hopes that you reflected, Mr. Rohrabacher. I think 
it is much too early to write off the Space Station. This is a 
project that is still----
    Mr. Rohrabacher. Okay.
    Dr. Young.--under construction. It is unfair to expect the 
kinds of productivity that you would expect of a fully crewed, 
fully completed station, let alone the fact that we currently 
don't have ways of getting our supplies up and new equipment 
up. I mean, think back to the situation of the Hubble Space 
Telescope in those bad days when we found out the mirror was 
flawed. Who could have predicted the string of successes that 
HST has produced? I think that we----
    Mr. Rohrabacher. Well, I think that that was very 
predictable. No, I disagree with you. I think it is very 
predictable if we had corrected the Hubble Telescope that they 
would have done what we have done. And I am working with my 
fellow colleagues here to make sure that we continue to make 
sure the Hubble Telescope is at least giving us some pay back. 
That is one of the few things we have invested in that does 
have a great deal of scientific pay back. But I am happy to 
hear you suggesting that maybe some people are being a bit 
pessimistic as to what can come out of Station.
    Dr. Shirley. If I could comment on----
    Mr. Rohrabacher. Yes.
    Dr. Shirley. The initial vision of Station was to be all 
things to all people. And it was sold that way, and it was sold 
to the science community that way. And it was a very deliberate 
strategy. I saw maps that NASA had of how many Congressional 
districts would have jobs in them and that they were shown to 
try and sell them.
    Mr. Rohrabacher. I don't know of any of them in my 
district.
    Dr. Shirley. Absolutely. And the fact is that when you 
build such huge expectations and--by promising everything to 
everybody, it is a recipe for disappointment, and that is why I 
am afraid of the lunar thing being exactly that. And I think 
personally that the Station can be most valuable in exploration 
for exactly what Dr. Young was talking about.

                    Costs of Moon and Mars Missions

    Mr. Rohrabacher. Well, if I might mention that the reason 
why the President's stepped approach seems to me to be the most 
realistic is just for the reason you just stated, although you 
come to a different conclusion, and that is people will then 
realize the benefit of making these steps as we go along as 
compared to trying to sell the public on something that is as 
expensive and way out as going to Mars immediately would be. 
The public may lose some faith or some hope, and that comes to 
my question. How long will it take us before we can--if we went 
straight to Mars, how long are we talking about, at what price 
versus the stepped approach? If we go to the Moon and then to 
Mars, what are we talking about? What time sequence? Just right 
down the panel would be okay for predictions on that. Dr. 
Griffin, do you have any idea on that?
    Dr. Griffin. I think I need to pass on that. I am not sure 
I----
    Mr. Rohrabacher. Okay.
    Dr. Griffin.--understood the question.
    Mr. Rohrabacher. The question is how long will it take us 
just to go to Mars, what cost. And what, then, are we 
predicting in terms of what you would predict it would take us 
to go to the Moon and then to go to Mars and the difference 
between the two?
    Dr. Griffin. The--I think the problem is how much money do 
you want to make available, because there is a coupling between 
the money which is available and the time that it is going to 
take. I believe that the first expeditions to Mars should be 
accomplishable within an amount of funding approximately equal 
to what we spent on Apollo. And I have recently----
    Mr. Rohrabacher. Which is?
    Dr. Griffin. In today's dollars, about $130 billion.
    Mr. Rohrabacher. Okay.
    Dr. Griffin. Certainly, that would envelop it. I believe 
that it should be possible to return to the Moon for in the 
neighborhood of 30 billion in today's dollars, and those are 
both fairly comfortable amounts. I have recently participated 
in a NASA advisory panel where we have been examining the costs 
and benefits of human space flight, and the $130 billion figure 
for going to Mars is very compatible with what we have seen in 
that study.
    Mr. Rohrabacher. And can we be on the Moon in 10 years?
    Dr. Griffin. Easily. It is--it requires a decision to do so 
and to allocate the money.
    Mr. Rohrabacher. So $30 billion and we can go to the Moon 
in 10 years?
    Dr. Griffin. I believe that is exactly correct.
    Mr. Rohrabacher. And $130 billion to go to Mars would be in 
20 years?
    Dr. Griffin. I--if you decided to go to Mars, you could be 
there in 10 years. You would have to decide to do it----
    Mr. Rohrabacher. Okay.
    Dr. Griffin.--and to allocate the money, but I think that 
is the level of resource commitment----
    Mr. Rohrabacher. Mr. Chairman, if you would indulge me just 
to get the----
    Chairman Boehlert. Well, I am anxious to hear from all of 
the witnesses. That is a very good question on that.
    Dr. Shirley. I think Mike's numbers are pretty good, 
provided that we do the stepping stone to the Moon and we don't 
stop there and we don't start building infrastructure and we 
don't start doing what we did with Space Station.
    Mr. Rohrabacher. But you say----
    Dr. Shirley. If we go to the Moon and then right on to 
Mars, then I think----
    Mr. Rohrabacher. $30 billion and 10 years to go to the 
Moon----
    Dr. Shirley. Those are not bad numbers. I mean----
    Mr. Rohrabacher. Okay, Dr. Shirley.
    Dr. Shirley.--50 percent or whatever.
    Mr. Rohrabacher. Okay.
    Dr. Young. I do not have the figures to either agree or 
disagree with Dr. Griffin. I do, however, fear that once 
committing to go back to the Moon, we will never make it to 
Mars.
    Mr. Rohrabacher. Okay.
    Dr. Fisk. Norm Augustine had a sentence that said, you 
know, we should ``pay as you go.'' If you don't--I would like 
to have one that we should ``learn as we go.'' Decide on these 
answers, you know, how fast you go back to the Moon, how much 
does it cost you whether you go to Mars is going to depend on 
each incremental step that we go. We don't know how to send 
people to Mars at the moment. We may know technically how to 
send people to Mars, but the physiological issues that are 
identified do not have immediate solutions today that have to 
be identified, proven out, and solved. The Moon appeals to me 
for the simple reason that we have an opportunity to go there 
and try out some of our technical solutions on the way and 
decide whether they are going to be adequate. If you pull the 
plug and you go to Mars, you know, hitting the reverse is a 
little hard, so you have to go there, land, and come back, and 
that is your only option. And so the cost of this thing should 
not--and I don't think we should try to find a number. We 
should try and find a number of what are the steps that we 
should take on which we--that we learn something and we adjust 
our program to take the next logical step and incrementally 
walk through those steps.
    Mr. Rohrabacher. Well, you know, cost is very important to 
us, because we have to go to the taxpayers and get the money. 
But would you say we can do it in 10 years for $30 billion?
    Dr. Fisk. I have not a clue, and I don't think any of us 
should have that clue.

                 Costs and Risks of Human Space Flight

    Chairman Boehlert. Let me just ask you--your time is 
expired, but I wanted to amplify that. Dr. Griffin, that is 
just talking about getting from here to there, your cost 
estimates. It doesn't factor in all of the necessary research 
on physiology and everything else, does it?
    Dr. Griffin. You know, speaking--I am sorry----
    Chairman Boehlert. Those are cost estimates, yeah.
    Dr. Griffin. I differ from some of my panel members. I 
think the issues involve--physiologically, of course, going to 
the Moon, is not, at this point, an issue. The issue might 
arise in how long you can stay, and we don't know that until we 
see. In terms of going to Mars, the exposure to zero gravity is 
within the experience base, easily, that has already been 
undertaken by people, and they have survived the experience. No 
one argues that degradation doesn't occur.
    Chairman Boehlert. Um-hum.
    Dr. Griffin. No one argues that they will remain in perfect 
health, but so far, the ability of the body to heal itself 
after experiencing those exposures has been demonstrated.
    Chairman Boehlert. That is not the Russians' experience, is 
it?
    Dr. Griffin. Ken Bowersox flew six months on Space Station, 
endured a high gravity ballistic reentry, because the Soyuz 
malfunctioned and went to its backup mode, landed out in the 
wrong place in Russia in the middle of the steps. He and his 
crewmate crawled out of the Soyuz, pitched a tent by 
themselves, and waited 24 hours to be picked up.
    Chairman Boehlert. He didn't have exposure to radiation.
    Dr. Griffin. He did, actually, have substantial exposure to 
radiation. The radiation flux on--of high-energy protons is 
about 25 percent on the Space Station per unit time of what it 
would be in deep space.
    Chairman Boehlert. 25 percent?
    Dr. Griffin. About 25 percent of the radiation flux to 
Space Station is heavy ion particles as would be----
    Chairman Boehlert. But isn't that a big difference?
    Dr. Griffin. It is a difference. It is significant. I am 
not saying that it is not. I am saying that the crew crawled 
out by themselves in an emergency mode, pitched a tent and 
waited to be picked up. I think landing on Mars, after a six-
month journey, would not be more arduous. I believe that if--
this is a profound philosophical difference. It is not one of 
engineering. I certainly do not oppose, in fact, strongly 
support the biomedical research that Dr. Young and Dr. Fisk 
would do, but it is an adjunct to and can be done in parallel 
with human exploration. It is not a gate. If we expect to 
explore and not take risk, we are leading ourselves down the 
wrong path.
    Chairman Boehlert. I would agree with that. You can not 
eliminate the element of risk. No doubt about that. But six 
months to get there and six months to get back----
    Dr. Shirley. Actually, it is six months to get there and 
two years to get back. It is, roughly, a three-year round trip.
    Dr. Griffin. That does not have to be the case, and it 
depends strongly on the trajectory selected and the 
technologies used.
    Dr. Shirley. Well, if you go nuclear, yes.
    Dr. Griffin. And the architecture that is used.
    Dr. Shirley. That is not cheap, either.
    Chairman Boehlert. Yeah.
    Dr. Griffin. There are an enormous amount of--number of 
scenarios, which have been advanced, used, and----
    Dr. Shirley. And that is exactly why I think we need to 
have a dialogue about what the right thing to do is rather than 
just plunging into we are going to do this exactly the way we 
have done it before.
    Chairman Boehlert. And that is exactly why we have experts 
like you that we appreciate so much being facilitators for this 
committee, because these are the questions we are wrestling 
with every single day. And----
    Dr. Griffin. I, too, want to have that dialogue, but I 
don't want to start out assuming that it is three years round 
trip to Mars for any possible architecture we could advance. I 
think that would be wrong.
    Chairman Boehlert. But then you have to talk about the 
costs for advancing the architecture, and that is the point 
that Dr. Shirley makes, so that adds to the dilemma we face. 
And Dr. Fisk, I couldn't agree more that we need some 
benchmarks that if we get to this point and spend this much, we 
hope to achieve this much, and if we decide at that time to go 
further and it is too expensive to go further, we will stop and 
not have that money wasted, wisely invested, because we have 
gained something from it.
    Dr. Fisk. The incremental approach is--has got to be the 
way to do this. I mean, you--this is not--I mean, the President 
said something I--you know, I very much agree with this. This 
is a journey. This is not a--you know, a short task and----
    Chairman Boehlert. It is not a trip; it is a journey.
    Dr. Fisk. Yeah, whatever it was.
    Chairman Boehlert. Yeah.
    Dr. Fisk. And the--and because--I think we have to think of 
it in both of these time scales. You know, it is simply 
incrementally marching forth----
    Chairman Boehlert. I have got the exact words: ``It is a 
journey, not a race.''
    Dr. Fisk. Sorry.
    Chairman Boehlert. And with that, speaking about a journey, 
Mr. Lampson of Texas.
    Mr. Lampson. Thank you, Mr. Chairman.
    More reason why we could actually use the Space Exploration 
Act as a vehicle to achieve some of what we are talking because 
it does, indeed, set out a long-term journey.

               New Priorities for Space Station Research

    Dr. Young, former Senator and astronaut John Glenn recently 
testified before the Aldridge Commission, and at that time, he 
criticized the plan--additional--planned additional cutbacks in 
the International Space Station program, saying: ``We have 
projects that are planned or in the queue now, projects that 
people, academics, laboratories, and companies have spent 
millions of dollars to get ready that pulls the rug out from 
our scientists who have placed their faith in NASA and our 
scientists within NASA who devoted years and years to their 
work.'' I notice that in your written testimony, Dr. Young, you 
also questioned the wisdom of the planned cutbacks, stating, 
and this is your quote: ``The proposal to limit ISS research to 
the impact of space on human health and to end support for 
other important microgravity science and space technology seems 
short-sided, and I strongly believe in the scientific and 
technical value of a permanent presence in space.'' Would you 
please elaborate on why you feel the proposed approach would be 
short-sided?
    Dr. Young. First of all, I am in complete agreement with 
the quotation from former Senator Glenn, I only read the 
newspaper reports of it. We will need a place to do 
microgravity research, not only for trying to understand what 
the basic physiological problems are with long duration flight, 
but for the entire range of fascinating issues about the role 
of gravity in biology, in physics, and in technology. We know a 
lot about 1 g. We know a little about 2 g. We know an 
increasing amount about 0 zero. We know nothing--except for a 
few men on the Moon, we know almost nothing about the effects 
of levels between 0 and 1 g. There is no reason to think that 
it would be a linear curve that you go through one. The Space 
Station is the place to do this research to understand how to 
grow crystals, to get away from sedimentation and convection. 
It is the place to go and understand the physics of the basic 
fluid physics that goes on in microgravity. If we didn't have a 
Station operating, we would have to come back and build a new 
one, so to my mind, it is extremely short-sided to let go this 
very expensive, still developing project that we have, despite 
all of the shortcomings that have been referred to with it.
    Mr. Lampson. Dr. Fisk, you--the Space Studies Board, I 
reference the range of basic and applied microgravity research 
disciplines, do you want to make your comment?

                       Role of the Space Station

    Dr. Fisk. Let me make a couple, and I am a--in addition to 
being chair of Space Studies, where I am a veteran of the Space 
Station wars when I was on the NASA side of this thing. There 
are two things that I think are important here. I--this is--
maybe this is a personal opinion. The Station has lacked a 
purpose, in my judgment, up until now. The science community, 
as a whole, has taken an attitude to all of this, with this 
thing, that if it existed, we would try and do something with 
it. And there are communities that are very passionate about 
this, but the broad science community has been reluctant on 
what the proper role is of this thing.
    NASA conducted a REMAP exercise not so long ago in which it 
really asked what should be done on the Space Station. What is 
in the interest to really do this thing? And the plans, at the 
moment, are quite consistent with that REMAP activity. And the 
idea is to, as you say--this is--here is a real purpose to this 
thing: qualify humans for space. And there are lots of 
dimensions to that. It is not just, you know, the human 
physiology. It is how do you, you know, do fluids in space. You 
know. How do you deal with combustion in space? I mean, there 
are lots of things that a permanent presence in low-Earth 
orbit, in zero gravity, will be essential if we are, in fact, 
going to extend the human presence beyond low-Earth orbit. And 
I think that, you know, as a scientist in the general sense, it 
is not my field of research, but being able to say, ``This is 
why we have the Space Station. This is why this investment has 
been made, and this is how we are going to use it,'' is one of 
the few times that--in all of those veterans of--all of those 
years of being a veteran in this when I felt comfortable 
thinking that this investment was, in fact, worthwhile.
    Mr. Lampson. I am going to attempt to ask a question that 
is very--Dr. Young?
    Dr. Young. I just wanted to add, briefly, that NASA, in its 
wisdom, has--and I truly mean in its wisdom, has suggested that 
the Space Station purpose be implemented through the 
development of an International Space Station Research 
Institute. Now that--those plans have been put on hold with 
this new vision, but many of us feel that that is the way to go 
to get the entire scientific and technical community involved 
in directing it.
    Mr. Lampson. Dr. Griffin.
    Dr. Griffin. I will try to be brief, thank you.
    I think the quarrel with the Space Station is not over what 
it does, but what it costs and what it has cost. Because it has 
cost so much and taken so long and in--just in general been so 
poorly executed as a development program, it needs, in order to 
justify that, to be able to say that it has accomplished things 
that it can not accomplish and never was intended to 
accomplish. Had we put a space station up having, you know, the 
volumetric equivalent of a couple of Skylabs docked nose-to-
nose with the power array that it had, we would have been able 
to do microgravity research, materials processing research we 
would have been able to do very nearly as much as we expect to 
do on International Space Station at a tiny fraction of the 
cost, and everybody would regard it as having been a great 
victory to obtain those results for that cost. The path we went 
down is what is flawed, not the results that we are trying to 
obtain.
    Chairman Boehlert. Thank you very much.
    The gentleman's time has expired.
    Mr. Lampson. Thank you, Mr. Chairman.
    Chairman Boehlert. And we want to make sure we go down the 
right path, the correct path, with this proposed initiative, 
and that is why we are spending so much time on it, and that is 
why we appreciate your input.
    Dr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman.
    I have a number of questions, but let me first of all 
comment, since everyone is estimating what it is going to cost 
to go to Mars, I would agree with $130 billion one way. I think 
we need to--I am suggesting we look for volunteers who would 
want to make a one-way trip. It would certainly save a lot of 
money. But I am convinced it would cost considerably more if we 
really are serious about bringing a human to Mars and bringing 
them back home. I don't want to get into the debate now, but I 
have substantial reasons for believing that.

              Funding Priorities of Science or Exploration

    What I want to get into is the old question of science 
versus exploration or science versus hardware, if you like. And 
I am very concerned about what I see happening. I was impressed 
with Mr. Augustine's comment that astronauts should not be 
truck drivers; they should be participating in scientific 
research, bringing equipment to space, fixing equipment in 
space, and so forth. And it seems to me the Hubble Telescope 
precisely fits that definition whereas now we see Hubble being 
canceled, ostensibly for safety reasons, and I think the 
Administrator is very sincere in believing that it is unsafe. 
But at the same time, we are going to have to bring Shuttles up 
to Space Station and back to bring crew up and resupply and so 
forth. That is just the background for asking, particularly Dr. 
Fisk first, and I ask the others to chime in. What do you see 
happening to science, and I am referring not just to space 
science, but also to the Earth science that is done from space, 
which has been invaluable? It seems to me, that is going to be 
shorted if we suddenly decide to put a lot of extra money into 
the Station, into the Moon, into the Mars mission, and so 
forth. And once again, science would be left in the dust, and 
the money would go into exploration and hardware. I would like 
to see them combined, and I agree with that statement. I 
haven't seen it happen so far. We will start with Dr. Fisk.
    Dr. Fisk. This is an interesting discussion for, again, 
those of us who are veterans of this. For long periods of time, 
this battle was framed in a--sort of a humans versus--human 
space flight versus science. And you know, we argued, you know, 
did the Space Station and the Shuttle take too much resources 
and so on? And was it taken from the more productive, based on 
our judgment, science programs? This--today, it is a sort of 
different story, if you think about it. I mean, actually the 
space science budget of NASA aggregated, has grown, is actually 
growing in the President's initiative. And what you see, 
however, is there is a sort of a science versus science part of 
this where the science which is directly related to the 
exploration initiative, particularly the solar system 
exploration and parts of the Origins Program and so on, are 
prospering, because they are an integral part of this.
    We have introduced a lunar probes program, you know, as a 
precursor to understand the Moon and the human exploration 
part. The Mars program has grown and so on. But there are parts 
of the science program, which have, as a result, been cut. And 
so you sort of--you know, it is presented as sort of an 
interesting battle to the scientists, because it is sort of 
science versus science not science versus the human exploration 
program. And I think the--you know, as I tried to say in my 
remarks, I think that it is important that we don't go there on 
that science versus science side, because it is not obvious 
where you want to put the line as to which science is 
supported--is supportive of the space--of the exploration issue 
and which is not.
    I would argue that Sun-Earth Connections, which was on the 
other science side here, is an essential component of any 
exploration initiative. We are sending people out into an 
environment. We had better understand it and be able to predict 
it. I would argue that the structure and evolution of the 
universe is as much an exploration activity as is the Origins 
program. And so I think I would prefer that they had not gone 
in and said we have got good science and lesser science in this 
thing, because I don't think that that is a justifiable 
position, but it is not science as a whole versus human space 
flight. One of the beauties of this initiative, to me, is that 
it is the first time I have seen in the history of NASA that 
they have really tried to integrate robotic science and human 
space flight in a synergistic way, and for at least those 
disciplines that have been judged to be an important part of 
the science program. Earth science, as I say, is a special 
issue, because, you know, it is--we could argue that we are 
exploring our planet, but that is not quite--you know, I 
don't--I think we simply have to recognize that NASA has a 
responsibility here that it should not falter on to provide 
this level of support. I mean, there are many presidential 
priorities besides exploration, and one of them is global 
climate change issues and such things as that, and NASA has an 
obligation to fulfill those, and it has to fit somewhere in 
this program.
    Mr. Ehlers. Any more comments?
    Dr. Shirley. Yeah, I would just like to comment that the 
Hubble Space Telescope--I happen to agree with the 
Administrator's decision on HST, because I think we could build 
a robotic mission for less than the cost of a Shuttle launch 
that could do the repair. We have been building robots that 
could grapple a spinning satellite since 1986 or '87. I mean, 
it is not that hard to do. We don't have to have people doing 
it, and there are reasons of exposure, and so on, for the 
astronauts.
    The other one is--my main concern is that infrastructure 
will eat science. Infrastructure will eat exploration, and that 
our passion for infrastructure is--the--NASA's passion for 
infrastructure is so strong that unless we bring in some 
outside perspectives--I mean, let us take the space elevator. 
It may be a completely crazy idea, but shouldn't we at least 
look at it? I mean, if you made an investment in some alternate 
way of getting stuff up into space, maybe it would pay for 
itself. I am not saying it is the right answer, but NASA is not 
even looking at anything like that, so I think we need to--
infrastructure and get to where we want to go and get 
accomplished what we want to accomplish, and that is going to 
be really difficult with NASA's current set up.
    Chairman Boehlert. Thank you very much.
    The gentleman's time has expired.
    It should be noted that the Earth science project actually 
would decline through '09, and that doesn't even factor in 
inflation, so that is a--it is rather a substantial cut in 
spending for Earth science.
    Mr. Gutknecht.
    Mr. Gutknecht. Thank you, Mr. Chairman.

                       Effects of Budget Changes

    Just first an editorial comment. I think, at some point, we 
are going to have to do a better job, you and us and everybody, 
of explaining costs and benefits to the American taxpayer. I 
don't know how long the American taxpayers are going to be 
paying billions of their grandchildren's money growing more 
crystals. We have been doing that for a long time, and I am not 
sure which each iteration of new crystals is really doing, so 
I--that is an editorial comment. I think we all have to think 
about talking to our constituencies about, you know, what are 
the real benefits of this, because this is a big cost.
    One of the questions I was going to ask, it is my 
understanding, as a Member of the House Budget Committee, that 
the Senate budget resolution endorsed the President's plan but 
reduced the amount of funding from what the President had 
requested and essentially said to NASA to move ahead, but go 
more slowly. What effect do any of you think that that will 
ultimately have on the long-term goal?
    Chairman Boehlert. While you are pondering the answer, just 
let me point out to the distinguished Vice Chairman of the 
Committee that that is precisely what our mission is right 
here, self-imposed. We want to find out, as much as humanly 
possible, within reasonable guesstimates, what the costs will 
be and what the benefit will be. And that is what the whole 
drill is about, and that is why we are having distinguished 
witnesses like you to enlighten us.
    Now who wants to go first?
    Dr. Fisk. Should I try?
    Chairman Boehlert. Dr. Fisk.
    Dr. Fisk. As far as the President's initiative is 
concerned, you have sort of got--you know, if we agree on the 
goal, what we are trying to do, then you have kind of got three 
issues: you have content, you have budget, and you have 
schedule. And if you freeze two of those, you say I like the 
content but the budget is limited, the schedule is your 
variable. And you know, the question is: Can you make 
reasonable progress on this on that sort of a schedule? And the 
schedule can be negative on something if you can't make 
progress at all, I suppose. And so I think this is the issue 
that you face.
    You know, if the budget situation of the Nation is such 
that it is not possible to give NASA the request that it--that 
the President asks for, then you basically are determining the 
pace on this initiative, assuming that you agree that the--we 
have an exploration initiative, we are going to proceed 
incrementally. To do that, we are going to develop some 
infrastructure to send humans into space, we are going to use 
the Space Station to qualify humans, and so on and so forth, 
then you are setting the pace. At some point, the pace becomes 
completely unacceptable, I mean, you know, no progress. I mean, 
we talk--we worry about sustaining this through multiple 
administrations.
    Well, the only way that is going to happen in practical 
terms is that we have in each Congressional cycle, let us be 
blunt, some visible signs of progress. If NASA launches 
something, there is a robotic mission to the Moon, there are 
robotic missions to Mars, we start qualifying the vehicles, and 
so on, and that is, to me, the pacing item that whether or not 
there is within this program there are sufficient resources to 
make visible signs of progress as you go through it.
    Dr. Griffin. I would like to make a comment, also. I think 
I would certainly be in support of an additional allocation of 
funds to NASA, but even if that doesn't happen, I think the 
fundamental argument on the table is what sort of a space 
program do you want to buy with the money that is currently 
being made available. As I said earlier, and I will say it 
again, I agree, and Len and I have had our battles over the 
years, but I agree completely with what Len has said regarding, 
you know, reprioritizing what goes on in science. And some of 
it does not seem to be well motivated. The idea of not 
understanding, if you will, space weather when we seek to 
undertake a new voyage--new voyages of exploration in the solar 
system, it seems fundamentally wrong-headed.
    But leaving aside, for a moment, the issues of change on 
the margin in the science program, the fundamental issue on the 
table is what sort of a human space program do you want to buy 
with the money that is being spent on human space flight as we 
bring the Station to a close and retire the Shuttle? And I 
think that is the debate topic. I think the goal that the 
President has proposed is a much better goal or set of goals 
than those which have been proposed previously.
    Dr. Shirley. I don't disagree with the goals. What I 
disagree is how we are going to go about reaching them, because 
I am concerned that if we just keep doing what we have been 
doing for the last 50 years, we will just get more of what we 
have got, which will not accomplish what Len is talking about. 
We won't make tangible progress. We will send robotic missions. 
I mean, we are doing that. Every 26 months there is going to be 
something new hitting Mars, but making progress in the human 
arena, for instance, retiring the Shuttle and the current 
program is retired before they have got even the crew 
exploration vehicle, and the crew exploration vehicle won't 
handle cargo. And it--and none of the European or Japanese ones 
will handle downmass, so you could have an experiment like the 
Centrifuge up there, and say you need to fix it and you want to 
bring it down, you can't bring it down, because there is 
nothing to do that with.
    So the approach of okay, this is what we have got and we 
are going to, you know, go in this direction without looking at 
any other direction is what my main fear is, because I have 
seen it happen over and over again.
    Dr. Young. I won't give a cost estimate, but I would like 
to just very briefly return to your editorial comment. Yes, 
NASA and those of us who work with NASA must do a much better 
job at communicating to the public. The importance and the 
excitement, and it is not just growing another crystal. A lot 
of good material has come out of it. The public, in fact, given 
the appropriate information, as we know from the Hubble Space 
Telescope, can get very excited about such non-trivial 
questions as where did we come from, where are we going, what 
were the origins of this universe, what will be the fate of our 
planet. I wouldn't underestimate them.
    Chairman Boehlert. The gentleman's time has expired.
    Dr. Griffin, let me just point out that NASA has the 
biggest percentage increase in the non-discretionary, non-
security area, and you are asking for domestic. And you are 
asking--you would like to see an increase, and I can understand 
that. And there isn't a Committee in this Congress that doesn't 
have the fluent, skilled people in their disciplines making the 
same argument. Our problem is where do we get it from and--in 
relationship to other areas of science. Once again, I am not 
comparing this to outside the science field, within the science 
field and within the NASA programs. I think the President was 
rather prudent in what he called for over the long period and 
the investment he is asking from Congress and the American 
people for his vision to be implemented. But money is not easy 
to come by. And we have to consider all areas of science, and I 
stress that.
    Mr. Feeney.

                      Studies of Space Exploration

    Mr. Feeney. Thank you, Mr. Chairman. Dr. Shirley, I have 
listened as you have suggested that we have some additional 
workshops, we review some additional potential for the human 
space program. You have mentioned, for example, the space 
elevator. My concern is, though, that while you are basically 
criticizing this proposal as having tunnel vision or being too 
focused, my concern is sort of the opposite of yours and that 
is that we may be ultimately guilty of paralysis by analysis 
and reanalysis. And I don't think the two are mutually 
exclusive. We can continue looking at additional opportunities, 
but the beauty of the President's program is that it is a 
stepped approach, it is a flexible approach, it does lend 
itself, as Dr. Fisk suggested, into a ``pay as you go'' or 
``pay as you learn'' program. And so I would be concerned that 
we could now, without delay, agree on a first step that could 
be of huge benefits in the future regardless of what additional 
opportunities may present themselves as technology advances, as 
space fiction writers seep into the actual real world 
development and engineers, like Dr. Griffin, learn about the 
potential.
    But what I am really concerned about and would like to hear 
you address is that if we are going to go out one more time, 
because there are libraries full of studies about the potential 
for human and robotic space flight in the civilian arena, if we 
are going to go back to scratch, just a study of the studies 
would take a decade or two. And I would ask if you would 
comment, perhaps, whether it is not necessarily mutually 
exclusive to ask some of the probing questions you have asked 
without stopping in its tracks the space program.
    And then secondly, I would like the entire panel to comment 
on the debate about whether or not the Moon has any worthwhile 
resources, Helium-3, for example, because I think Dr. Shirley 
addressed that pretty directly as she is skeptical, to put it 
mildly, but I would like to hear--and then finally, as you 
address the--you know, what can we cultivate resource-wise on 
the Moon, if each of you would say a few words about the fact 
that there is no ultimate goal here. The President has stopped 
the portion of the future book that we are writing at landing a 
human being on Mars. But he has described this as a journey, 
and we don't--that is not the end of where history will leave 
us in space exploration, and we don't know what we will find. 
We don't know what the technological opportunities will be. We 
don't know what physiological capabilities will be able to 
assist humans.
    And so Dr. Shirley, if you will start with the paralysis by 
analysis problem you are proposing, and then if the other 
commentators will weigh in. Thank you.
    Dr. Shirley. I agree with you completely. We don't want to 
stop what we are doing. I certainly would not say that we 
wouldn't do the next robotic missions to Mars, that we wouldn't 
look for water on the Moon and so on. You are absolutely right. 
We want to keep doing that.
    What I am concerned with is that the next big 
infrastructure step, you know--for instance, the Moon. Let us 
say we are going to invest a lot of resources in going to the 
Moon and setting up a base and practicing for Mars, that is 
going to take a lot of money. My concern is that if we just do 
it the way we are going to do it, you know, we are going to 
build a heavy-lift launch vehicle, we are going to--and then we 
will invest a heck of a lot of money in something, which may 
have no other use whatsoever, but there are people who want to 
build heavy-lift launch vehicles.
    My only suggestion is that we step back, not from moving 
ahead and doing things. Let us finish the Station. We owe it to 
our international partners, if nothing else, to finish the 
Station. Let us start looking at launch vehicles and things. 
But before we take that big investment into the next X-33, 
which we spent a billion dollars on and then canceled because 
we were expecting too much of the technology or before the next 
thing we do, which I was just talking to Norm Augustine about, 
the next thing we start and then cancel, let us bring in some 
fresh perspectives, not to stop what we are doing, but to think 
about where we are going to go in the future. And frankly, you 
know, there is business getting involved in this right now. How 
can we exploit that? You know. We are not thinking about that 
at all. NASA isn't thinking, even remotely, about how to really 
form a partnership with the private launch vehicles. What are 
we going to do about China? You know, the first person on the 
Moon could be Chinese. The first person on Mars could be 
Chinese. Do we want that? Or do we care? You know. I think we 
ought to address those kinds of issues.
    So I think you are absolutely right. We need to continue 
what we are doing. We need to take those steps and not stop, 
but we need to think of when we take that next big step, how do 
we do it. And lunar resources, Helium-3 is fine. There is 
Helium-3 on the Moon. We found it. No problem. But how do you 
mine it? You are going to have to boost out of Earth's gravity 
well a heck of a lot of mining machinery in order to scrape it 
off of the surface. Then you are going to have to somehow burn 
it in a fusion reactor, and I would ask Congressman Ehlers how 
close we are to a fusion reactor. Not very close. It seems to 
be receding about one year per year, so it is highly 
speculative, and it could take a heck of a lot of resources to 
try to do it.
    There is no iron or steel on the Moon. Even if there were, 
to take the infrastructure to mine it and form it into 
something that would help us go to Mars is not there. You just 
boosted stuff out of the Earth's gravity well, you have dropped 
it into a 1/6 gravity well, and then you are going to boost it 
again. Why not just take it from the Earth in the first place, 
put it together in space, and go? So those are the kinds of 
debates I think we need to have. I am not saying I know the 
right answer, and I agree, we don't want to stop what we are 
doing, and I--believe me, I have been paralyzed by analysis. I 
have been working on all of these things since 1966, and we 
don't get there, and I want to see us get there by thinking of 
some fresh approaches and not just keep turning the crank the 
way we have been doing it for the last n years.
    Chairman Boehlert. Dr. Fisk.
    Dr. Fisk. Just a couple of random comments here. You said a 
number of very appropriate things here. Let us take it as a 
given that we are going to extend the human presence into the 
solar system in time, then the question, as Norm Augustine 
says, it is simply a question of when do we start and who does 
it. I am one of those people who thinks we should start now and 
the United States should do it. Lead, at least. And I think 
that is a sentiment that, hopefully, is widely shared.
    The question is--that you raised--of course a comment that 
you made is very much the appropriate one about presumably we 
are not going to stop. I mean, we are going to continue to do 
this. This is a--this is the journey we are planning to have 
here. My knowledge of the NASA plans is that they--the Moon is 
not a place that we are planning to stop or that we are 
planning to try and launch things from the Moon or use the 
resources to be able to get to Mars. It is premature to do 
that. But the plan is to try to use the Moon in an appropriate 
way to try to test out the capabilities on the route to Mars.
    Now presume we don't stop there on the Moon. Suppose we 
find resources that we can use. Suppose our technology improves 
to where we can think about mining the Moon, maybe not in 10 
years, 20 years, maybe in 50 years, maybe in 100 years, but 
presumably the event is to extend the human presence into the 
solar system and to use the resources, the capabilities that 
are available to us over that period of time, and as the--as 
appropriate or as the technology develops. I think that is a 
very appropriate plan. I think the main event to this thing is 
to begin to think on the time scales of not the decade--you 
know, not do we get to the Moon by 2020 but begin to recognize 
that this is the first step in the human expansion into the 
solar system, and it won't stop until we have done all of the 
appropriate things.
    Chairman Boehlert. The gentleman's time has expired.
    Mr. Smith.

                         Review of NASA Centers

    Mr. Smith. Regardless of the final decision in policy, 
whether we give a greater concentration for unmanned space 
flight for exploration or whether we don't, Senator Brownback 
has suggested that we review the ten NASA centers and have sort 
of a BRAC-type commission to review for greater, for lack of a 
better word, productivity and efficiency. Would you agree that 
a BRAC-type review is appropriate? We will start with you, Dr. 
Shirley, and then other comments, Dr. Young.
    Dr. Shirley. I think it is extremely appropriate, and I 
made, in my written remarks, the comparison with the Jet 
Propulsion Lab, not just because I worked there for 32 years, 
but because when people talk, JPL listens, because we are a 
contractor. We--JPL is a contractor. So we don't have the civil 
service, you know, workforce there in the background that you 
don't have to account really for where you put them. Every 
dollar of ours is scrutinized. Every dollar has to be agreed 
upon whereas when you are a civil service lab or a civil 
service center, you have a lot more flexibility to maybe be 
productive and maybe not be productive. There are an awful lot 
of good people at NASA. I am--there are terrific engineers and 
scientists at NASA, and I think they would be better served by 
looking at a potential for privatizing them in the sense that 
JPL is privatized. Or certainly, there may be redundant 
resources that should be looked at.

                  Manned and Robotic Space Exploration

    Mr. Smith. Any other comments on this issue? You know, 
there is--my experience is that any groups that use government 
funding are very wise to the political pressures on individual 
members that make those decisions. The Space Station, I think 
every state has some part of the Space Station, so groups from 
industry can come in from every state and meet, regardless of 
what the Members on this committee are, and say, ``Well, boy, 
this is really important to our jobs and our state. It has been 
spread around.''
    I want to talk about manned versus unmanned flight and get 
your reaction a little bit, and that is if exploration is the 
overriding goal, then why not choose missions that maximize the 
potential for new discoveries for tax dollars, every tax dollar 
expended, and that, in my mind, is the unmanned space flight? 
And what we are doing on Mars right now is just so exciting. 
But to what extent can robotic spacecraft accomplish these 
exploration goals instead of humans at--certainly at less cost 
and certainly less risk to human life? And Dr. Young or Dr. 
Griffin or Dr. Fisk?
    Dr. Young. Well, I will start on that and refer back to 
something that Dr. Fisk discussed a bit earlier. It is no 
longer a question, in the minds of most of us in this 
community, of human versus non-human exploration. We are all 
excited about what the robots are doing on the surface of Mars 
at this moment. The question is how do you use robots in 
conjunction with human exploration. But as far as choosing the 
mission that can be done robotically, that is just looking for 
your keys under the streetlight.
    The question is what are the important issues to find out 
about, and in the exploration of the solar system, clearly the 
origins of life is one of the foremost ones. In my opinion, the 
robotic missions are the appropriate precursor missions to tell 
you where to look and what to look for, but the examination is 
best done in situ by a trained biologist, scientist, astronaut.
    Dr. Fisk. I would agree with that. I mean, this is an 
evolution again. And I mean, if it is conducted that way, it is 
an evolution, you know, robotics leading to humans. I mean, 
humans currently control the missions on the Martian surface. 
There is a 20-minute delay or whatever is the time. Oh, I am 
sorry. Is that better? Humans currently control the missions on 
Mars, but they live in Pasadena, and the missions are on the 
ground. It might be appropriate, you know, to do this in an 
evolutionary way with humans in Martian orbit for awhile and 
maybe not on the surface immediately and so on. But I mean, you 
have to think that through. But the idea is to accomplish the 
exploration, you are absolutely correct, but recognize that the 
human brain, the--you know, does introduce a capability that 
will be a long time before we can completely--we could 
duplicate with robotics. But their assisting each other is the 
ultimate goal to this thing.
    You know, I think that is going to be the natural evolution 
of this thing, and that could well be--we have to be careful--
the natural evolution of the science will be robotics to 
robotics with humans.
    Mr. Smith. I mean, with humans going out there regardless 
of what we are able to accomplish with the robotics and the----
    Dr. Fisk. I think we are going to----
    Mr. Smith.--nanotechnology?
    Dr. Fisk. I think we are going to send robotics out there, 
we are going to learn things, and we are going to continue to--
and it will evolve to where the human and the robots are closer 
together than they are today.
    Mr. Smith. Thank you.
    And Dr. Griffin, maybe react a little bit, and thank you 
from the University of Michigan. Just in terms of--it has been 
sort of my impression that man in outerspace and our space 
platform, the Space Station, was primarily to decide and learn 
how man can survive in outerspace as opposed to the 
exploration. So maybe sort of mend that into your response on 
this question.
    Dr. Griffin. Well, certainly for the last 30 years or more, 
because humans have not ventured beyond low-Earth orbit, any 
involvement with humans on a scientific basis has been as 
equipment operators, which is essential, or as test subjects, 
but they have not been exploring planets, because we haven't 
been going there. So I think we have got to get out of that.
    I would say, overall--my own opinion is that--well, NASA's 
chief scientist, John Grunsfeld, recently, for public 
consumption, pointed out that the amount--the total amount of 
exploration on Mars to be accomplished by both MER A [Mars 
Exploration Rover] and MER B would be approximately equivalent 
to what one human geologist would do in one afternoon. And that 
is not a criticism of MER A or MER B on Mars; they are doing 
wonderful things, and they are doing things we cannot afford to 
do at present in any other way. But I think it is important to 
note that the 90-day missions, which are being forecast for 
those rovers, would be one day of activity for a human being. 
There is a lot of leverage in having a human even leaving aside 
the issues, which Len Fisk has pointed out, with which I 
strongly agree, that the human provides a certain adaptability 
and capability to be serendipitous that we don't get by other 
means.
    Trying to decide today what the ultimate role of new worlds 
can assume in human civilization is like--is very much like 
saying in 1600 that we are going to go settle Jamestown in 
Virginia because we hear they can grow good tobacco. And it was 
true. It was not wrong, but it was so woefully incomplete as to 
be misleading. And yet it remains a fact that the initial 
settlement of Virginia was done because people wanted to get 
tobacco.
    Chairman Boehlert. Thank you, gentlemen.
    The gentleman's time has expired. Here is how we are going 
to----
    Mr. Smith. May I have--submit questions in writing to the 
panel?
    Chairman Boehlert. By all means, and all Members will have 
the opportunity to submit questions in writing, which will be 
presented to the witnesses, and we would ask that you respond 
in a timely manner, if possible.
    Here is how we are going to proceed as we move to 
conclusion. I have one further question, and then Dana 
Rohrabacher, the Chair of the Subcommittee on Space and 
Aeronautics will take over the Chair to recognize Ms. Jackson 
Lee. She will have a question. And then Mr. Akin, if he is 
here, will have a question, and that will wrap it up, because I 
know you have schedules you have to adhere to, too.

                       Retiring the Space Shuttle

    Here is my question. A number of you have mentioned that 
retiring the Shuttle in 2010 seems unrealistic, yet the entire 
funding of the President's initiative depends on freeing up 
money now spent on the Shuttle. Do all of you agree that 2010 
seems unrealistic? What date seems more reasonable? And what 
additional work on the Shuttle will need to be done if it is 
going to remain in service longer, keeping in mind what the 
Gehman Commission said there would be a necessity for 
recertification in 2010.
    So one, is 2010 realistic? Two, what date, if you don't 
agree that that is realistic, would seem more reasonable? And 
what additional work do you foresee? Who wants to tackle that 
first? Dr. Griffin.
    Dr. Griffin. I will go. I think the date is approximately 
realistic. I wouldn't want to get wrapped around on the axle of 
whether it was 2010 or 2011. I would not want to see it go 
until 2013 or 2014. I think the way to view the situation is 
that the requirement should be posed to the managers and 
engineers charged with executing the remainder of the Station 
and Shuttle programs, and they should be held accountable to 
meet those goals. And if they can't, then we need to find new 
managers and engineers not in the program.
    Chairman Boehlert. Dr. Shirley.
    Dr. Shirley. The only--my only concern is that it is--you 
can retire the Shuttle, but what are you going to do then? We 
have obligations for operating the Station, and we need to have 
a realistic scenario and a realistic set of alternatives if we 
are going to retire the Shuttle. Certainly there are risks with 
the Shuttle, but frankly, I was on a recent study, and there is 
just as much risk with the other approaches they are proposing. 
So I am not saying you shouldn't retire the Shuttle, I am just 
saying that if you do, you better have something else in mind 
or you are giving up the Station.
    Chairman Boehlert. Dr. Young.
    Dr. Young. I don't know if 2010 is the right date or not, 
but I do know that it would be unfortunate if we went through 
another substantial period without having, from the United 
States, reliable access to space for humans. I don't think it 
is a very good idea for us to be in the position of depending 
entirely upon our international partners for access to the 
International Space Station or for other activities in space.
    Chairman Boehlert. Dr. Fisk.
    Dr. Fisk. Very similar answers: set the goals, decide what 
you are doing. If the Space Station is to be completed, make 
sure the Shuttle is there to complete it. It will work 
backwards from what it is you want to do, put the Shuttle into 
the right--and make it an endgame as quickly as you can. The 
Shuttle has outlived its usefulness now. We need alternatives, 
and it is--but decide how to do it, you know, whether you are 
going to complete the Space Station, if you are going to 
resupply the Space Station, if you are going to use the Space 
Station, make sure you have the capability. Work backwards, put 
the Shuttle in its proper role, make it end as soon as you can.
    Chairman Boehlert. You are all aware of the Gehman 
Commission and one of the many findings of the Gehman 
Commission was that arbitrary deadlines and the pressure to 
meet them, even when reasonable people would agree that they 
were unrealistic, made some problems within NASA. So--but if we 
don't meet the 2010 deadline with retiring the Shuttle, then 
the Gehman Commission has said, and NASA has embraced their 
recommendations, that it would require recertification to keep 
it going beyond 2010, which in and of itself is a very costly 
enterprise. So does any of that change any of your thinking?
    Dr. Griffin. Well, I think you can always adjust the goals 
of an engineering project as you move out in its execution, and 
you can decide whether the adjustment is reasonable and 
rational or is being caused by failure to execute properly. 
Those are decisions you can make as time goes on. But if you do 
not initially set a goal and a schedule, or as Len says, work 
backwards to them, what those goals and schedules imply, you 
will never get there.
    Dr. Shirley. I would just like to add one thing from 
science fiction from Robert Heinlein's ``The Moon is the 
Earth's Mistress,'' Tom Stoffel. It means there ain't no such 
thing as a free lunch. Or free launch.
    Chairman Boehlert. Or free launch.
    Well, hearing some of the coverage of the aftermath of the 
Columbia tragedy, a number of times high-level officials in 
NASA were quoted as saying part of the problem was that 
Congress didn't meet NASA's budget expectations, and when 
Congress doesn't meet an agency's budget expectations, I would 
suggest it is very much in order to adjust those expectations 
and goals, because, as you say, there ain't no free lunch.
    With that, let me turn the chair over to Chairman 
Rohrabacher and recognize in the process, Ms. Jackson Lee.

                 National Vision for Space Exploration

    Ms. Jackson Lee. Thank you very much, Mr. Chairman and to 
the Ranking Member for holding these important hearings. To the 
panel, let me apologize for my entry into the room. I was 
flying on aircraft that Chuck Yeager, obviously, in breaking 
the speed barrier, mine did not. And so, although I am a strong 
advocate of aviation and the space program, I thank you for 
your indulgence as I ask these questions.
    Yesterday--first of all, let me say that the inspiration of 
this space program is spreading across the Nation. Yesterday, 
in Houston, I was with General Howell of NASA Johnson at a 
business luncheon where individuals were gathered to hear the 
vision and the mission and to, I guess, in essence, raise their 
hand in committal--commitment to helping us with this effort, 
both on the national level and certainly in educating our 
respective communities.
    I think what I got out of that meeting is the importance of 
now renaming this vision to call it the Nation's mission for 
space or national space mission. I would welcome your comment 
on how we broaden this so that the stakeholders go beyond the 
beltway, because I believe that what Camelot did in that 
timeframe was to get everyone thinking they might be next in 
terms of being able to go forward.
    So let me just offer a few comments and then just raise 
these questions, and forgive me if you have answered them, and 
I would appreciate it in the succinct way that you would. I 
think that the points made about Admiral Gehman's comments 
about arbitrary timelines are very crucial but also his 
comments about safety. And I don't believe you will get the 
American public to truly buy in until you convince them this 
thing called space and travel to space is safe and it is 
viable. So I would appreciate you highlighting the importance 
of wedding the safety of the Space Station as well as human 
space travel and your comment on the value of the Shuttle now, 
we realize that we look to the future, but the value of the 
Shuttle now.
    The other thing is to note that this nation is becoming 
increasingly diverse. We don't see diversity much in our 
industry. We don't see diversity much in our very fine 
astronaut corps, whom I have the greatest respect for and we 
were doing a lot of embracing yesterday as a number of 
astronauts were at the luncheon. We spent a lot of time 
together. But we have got to begin to see in the industry and 
in this effort the faces of Hispanics and African Americans and 
Asians, and we certainly have done a fair job internationally 
with our international partners. But I welcome your thoughts on 
that.
    And then my final point and let you all answer it is that 
Dr. Griffin says in his testimony that the entire Apollo 
program was about $130 billion in today's dollars. And so I 
would like to ask you what--to the panelists, was it worth it? 
What was the return on the investment, something we will have 
to make to the American public in terms of technology, 
education, inspiration of our youth, international leadership, 
economic stimulus, and you may have other factors? Did we 
dream? Did we grow? I know for a fact that we have done some 
things in health research. And would we expect a similar return 
on $130 billion to go to Mars, as we discussed today, or the 
Moon, because I think the way we get to the next step on the 
journey is by making the entire Nation stakeholders, and I 
yield to Dr. Griffin, and would ask everyone if you were taking 
studious notes of my questions.
    Dr. Griffin. Wow. Give me 30 seconds. For my----
    Ms. Jackson Lee. In the----
    Dr. Griffin. From my part, Apollo was worth it. I tend to 
take a big picture view. I answer the question by analogy. If 
you look back at Renaissance Spain, what do you think of? You 
think of Queen Isabella, King Ferdinand, and Columbus' voyages. 
You don't think about battles between the Spanish and the Moors 
over who was going to control Spain and things that were 
actually very influential, but when you look back 500 years, 
you remember Columbus.
    500 years from now, people will not be concerned about 
budget battles that we hold in Congress. They will remember 
that the United States caused the Apollo missions to happen. 
What have--we built an entire technology around that, the 
aerospace technology, which is the best in the world. Our 
entire defense establishment relies on it. We could have gotten 
it in other ways, I don't dispute that, but that is the way 
that we got it. We inspired at least a couple of generations of 
young people to obtain technical training, and they have used 
it in areas far outside aerospace. Norm Augustine was emphatic 
in pointing out the current discrepancy between U.S. engineers 
and scientists graduating and those in other countries. I 
strongly submit that the way to motivate scientific, technical, 
engineering training in the United States is not to have NASA 
adopt an education office, but to have NASA do the kinds of 
things that make young people want to get the education they 
need to get in order to participate.

               Motivation for Science and Math Education

    Dr. Shirley. I really appreciate your comments on 
diversity, having been there through the--when I was the only 
female engineer at JPL to where there are now 20 percent.
    Ms. Jackson Lee. And women are included, you are right.
    Dr. Shirley. So I think that it is very important for us to 
be able to engage people, especially young people. At the 
Science Fiction Museum, one of our prime objectives is to use 
science fiction to attract young people to be interested in 
science and engineering. And Dr. Young and I were just having a 
conversation about how many of our colleagues and our students 
say, ``I got interested in this because I read science 
fiction.'' It is very important, though, not to do what Dr. 
Young said, for NASA to figure out how to sell what it wants to 
do better. What we need to do is to get everybody involved in 
formulating what NASA or what the Nation, I completely agree 
with calling it the national--or maybe even the international 
endeavor if we wanted to go that way. But it is not taking what 
NASA wants to do and selling it to people, which is what NASA 
always does. It is involving people in formulating what we are 
going to do and where we are going to go, and that is how they 
are going to get behind it.

           Risks of Human Space Flight Versus Other Endeavors

    By the way, as far as safety, this is risky business. It is 
not going to be completely safe. People will pay $65,000 to be 
guided up Mount Everest with a high probability of dying, much 
higher than going up on the Shuttle. So safety, you have to be 
careful about trying to make things so safe that you can't 
afford them. And so I think we need to really put safety into 
perspective. When these astronauts go, they know they are 
taking a risk, and they choose to do it. And I don't think you 
should deprive people of that opportunity.
    As far as return on investment, I think the lift of the 
human spirit that Apollo gave us was uncountable. I think the 
lift of the human spirit that Pathfinder did, my rover, I 
personally was involved with the little rover that went first, 
and so I feel like these are my grandchildren. They are on Mars 
now. But the number of web hits we get, the amount of 
excitement that is going on around even robotic missions, and 
if we make human missions really driven by what people think 
humans should be doing, I think we can generate that kind of 
excitement around human exploration.
    Ms. Jackson Lee. You--on the safety, you had mentioned to 
make it as safe as it can be.
    Dr. Shirley. As safe as we can afford.
    Dr. Griffin. 10 percent of people who have climbed Mount 
Everest have died.
    Dr. Shirley. And they paid to do it.
    Ms. Jackson Lee. Thank you, Dr. Shirley.
    Dr. Young.
    Dr. Young. Let me try to respond briefly to each one of the 
questions. As far as the question of was Apollo worth it, I 
agree with Dr. Shirley and Dr. Griffin. Absolutely, it was the 
seminal event of the 20th Century. It pushed science, 
technology, and education in a way that nothing else has.
    Diversity. I feel very much involved with, and very 
strongly about it as the director of the Massachusetts Space 
Grant Consortium. Space Grant, as you are probably aware, in 
each of the 50 states plus DC and Puerto Rico, has, as one of 
its principle goals, increasing the percentage of women and 
underrepresented minorities in the state's program. And it is 
achieving those goals. It could achieve them better, 
incidentally, if the funding for it went up to the request, but 
it is going in those directions through education in K through 
12, education in college, and beyond. And we have to keep 
going. There is a long way to go, but it is effective.
    On safety, this is risky business. Going into space is not 
easy, and I think that, as was said earlier, if we may--if we 
are too risk averse, we will never do anything. On the other 
hand, there is no justification for going into space merely to 
show the flying. We must go in--go there because there is a 
return in terms of science, in terms of technology, in terms of 
commercialization, that is that it is worthwhile. I, for one, 
believe that the Hubble Space Telescope must be serviced and 
that it is worth taking the risk in that case.
    Dr. Fisk. Being--sitting at the end of the panel, I get to 
say ``Ditto,'' probably on these things, but let me just--so 
let me not reiterate the statements, many of which I agree 
with. Let me just comment a bit on the safety issue. I don't--
we have this impression that the American public is very risk 
averse. You know, we simply will be intolerant if anyone is 
lost in space. I don't actually agree with that. I think the 
American public is justifiably intolerant of losing people in 
space if they don't understand the reason for which we are 
there. What--why was the risk taken? We should never send 
humans into space or--unless we can defend the reason that they 
were there and they were needed to be there and there was 
something exciting to do. And if we have done so, and despite 
the best that we could do, there is an accident, I think we are 
tolerant of that as a people. We have lost people before. And 
we lose people in many--we lose military people all of the 
time. And so I think this vision is very important to us, 
because it provides the rationale for why we are sending people 
forth into space. And if we buy the vision, then we have to buy 
the risks that go along with it, and we have to explain to 
people that there is a risk associated with it. But first the 
vision, then comes the acceptance of the risk. Without the 
vision, there is not the--no risk--no loss is ever tolerable.
    Ms. Jackson Lee. I thank the Chairman. I thank the 
Committee.
    Mr. Rohrabacher. [Presiding.] Thank you very much. Thank 
you.
    Dr. Ehlers has a question.

      Costs of Human Space Exploration Compared to Other National 
                               Objectives

    Mr. Ehlers. Thank you, Mr. Chairman. I appreciate your 
courtesy of letting me go ahead of you, but I have just been 
notified I have votes in another Committee in a few minutes.
    I first want to clarify a few things. In response to your 
question, Dr. Shirley, about fusion, my estimate is we will be 
ready in about 40 years, which is about the time I expect we 
would reach Mars without it. And 40 years is not a scientific 
estimate; it is a political estimate, given the way things work 
around here and the lack of a firm commitment, as Dr. Griffin 
said, about, you know, just saying--realize you are going to be 
in space and let us allocate a certain amount of money to it. I 
am just not optimistic about getting there much sooner, unless 
it costs much less than the Congress anticipates.
    I would say, however, we do tend to treat NASA the way we 
treat the Navy. We have as many arguments about whether to 
build a new battleship or a new submarine as we do about 
whether or not to go to the Moon. And so the problem is the 
lack of long-term stability in funding and the lack of long-
term planning on the part of both NASA and the Congress.
    Let me add another comment before I leave. It seems to me 
that the keystone of the direction we are going to take is 
going to be what happens with the CEV, the Crew Exploratory 
Vehicle? I think Congress, without realizing it at this point, 
perhaps not even realizing it later, is going to look at that 
as the test of whether NASA can really produce something at a 
fairly quick rate at a fairly reasonable cost. And so NASA, I 
think, has a tremendous amount of work to do on the design. I 
have talked to them. They know roughly what they want to do, 
but there are dozens of different options on how to do it. And 
they are going to have to narrow that down fairly quickly. They 
are going to have to come up with a concrete plan, get the 
money from us, and show that they can do it. And if they do, I 
think that there is a much higher probability of continuing 
with the rest of the plan. If that turns out to be another X-33 
disaster, then we are talking very, very long time spans and 
very limited money in the future.
    And I just wanted to get that on the record as well as one 
other comment. In the argument about robotics versus humans, 
clearly humans are more versatile, adaptable, analytical, and 
so forth, but the cost ratio, as I see it, is about 1,000 for 
one human. And I think we have got to do a fair amount of 
robotic exploration before we can intelligently send a human 
being out there to--so that we can optimize the use of the 
human being in deciding where the person should land, what they 
should--what equipment should go along, what they should be 
doing.
    With that, I will yield back. Mr. Chairman, thank you for 
the time, and I have to go back.
    Mr. Rohrabacher. Just in time. Just in time.
    Mr. Ehlers. Thank you.

                          Space Shuttle Risks

    Mr. Rohrabacher. Would the panel like to comment at all on 
that or if we could just--all right.
    I have a couple observations and then we will--and a couple 
questions. First of all, I forget who it was. You probably 
know. Was it Melville who believes the safest ship never leaves 
port? Was that--was it Melville who said that? I just--that 
quote sticks in my mind as we are discussing the risks that are 
involved in various space missions.
    I would like to say, for the record, as well, today, when 
we are talking about the risks, that this focus on risk, and I 
think you have indicated, is a bit out of proportion, 
especially when you are talking to--compare it to people going 
up to Mount Everest, and then we realize that we are really 
involved with scientific missions and pushing the envelope in 
terms of human capabilities in America's space program, but 
that risk is certainly something well thought out and worth 
taking. I would challenge NASA to keep those admonitions in 
mind when trying to determine whether or not we are going to 
rescue the Hubble Telescope, because, from what I understand, 
NASA is planning to have one or two shake-down missions for the 
Shuttle that will essentially be aimed at proving whether or 
not the Shuttle is safer or not. But those missions will not be 
at the same time accomplishing something tangible, like saving 
the Hubble Telescope.
    And so I would suggest that if NASA is going to test the 
Shuttle, it do so by conducting a legitimate mission and that 
is to put the gyro and the batteries in the Hubble Telescope, 
because that is one space project that we have paid for that, 
even though it got off to a very rough start, seems to have had 
such phenomenal success in providing us a benefit back for the 
costs that we have incurred. So that would be something that I 
would suggest tonight--or today that NASA take a serious look 
at and say the risk of another Shuttle mission, even--because 
we are going to do it anyway and then assigning them a job 
would be a cost-effective way of dealing with this--with the 
question at hand.

                    Questions About Ice on the Moon

    A couple things about what has been said here today. Dr. 
Shirley, is there not hydrogen and oxygen on the Moon as well? 
And we know there is some amount of water. Wouldn't this be of 
some benefit to have a storage--a resource available to us on 
the Moon of hydrogen and oxygen?
    Dr. Shirley. Well, the water, maybe, is most likely ice in 
the permanently shadowed regions at the pole. And some of these 
lunar missions that Len Fisk mentioned, are going to go and see 
if it is really there. I mean Clementine took a look at lunar 
orbit----
    Mr. Rohrabacher. Right.
    Dr. Shirley.--took a look, but we are not sure it is there.
    Mr. Rohrabacher. Wouldn't that be of immense value if----
    Dr. Shirley. Possibly, except what it most likely is is a 
bunch of icy dirt, and we don't know how much there is, and 
getting at it and mining it is going to take lots and lots of 
equipment to be shipped from the Earth. Now all I am saying is 
you have to ship everything you use to get those resources from 
the gravity well of the Earth----
    Mr. Rohrabacher. Sure.
    Dr. Shirley.--and you need to look at the trade.
    Mr. Rohrabacher. Well, you quoted Tom Stoffel from ``The 
Moon is the Earth's Mistress.'' And I seem to remember in ``A 
Stranger in a Strange Land'' that we were talking about water 
as being the most valuable resource. So you might keep that in 
mind.
    Dr. Shirley. Well, we know there is water on Mars.
    Dr. Griffin. Could I comment for just a moment?
    Mr. Rohrabacher. Certainly.
    Dr. Griffin. Even if we don't find water or find that it is 
not, early on, cost effective to mine it, let me point out that 
7/8 of the mass of the liquid hydrogen and liquid oxygen 
propellant combination is due to liquid oxygen. 7/8 of the 
mass. If--and we know that parts of the lunar soil contain as 
much as 40 percent oxygen by weight, it is fairly easy to 
extract that oxygen simply by roasting the soil. The earliest 
lunar resource extraction that I predict we will perform will 
be to extract that oxygen, use it either on the Moon, or ship 
it elsewhere in lunar space, possibly into Earth orbit, there 
should be a way to make those trades among the more favorable 
ones that we can do. If we end up shipping hydrogen from Earth, 
instead of having to ship hydrogen plus oxygen, we will have 
saved 7/8 of the up-mass necessary to supply propellant for 
going to Mars or doing whatever. That is a nice place to start, 
and it is not an insignificant gain.
    Chairman Rohrabacher. I think that that is an excellent way 
to end this discussion today, however, just--maybe one more 
question, and that is, you know, we have got this--we have been 
talking about the way NASA works and the--we have heard NASA 
has got to do things differently to succeed. We have this X-
Prize now that is really inspiring people to develop new types 
of suborbital vehicles. Is there an X-Prize type concept that 
we might use to encourage people to develop things that would 
help us in this next stage of----
    Dr. Griffin. No fair. That was one of my questions to you.
    Chairman Rohrabacher. So that--but what should they be?
    Dr. Shirley. Well, I think that NASA's idea of the 
``Challenge'' prizes, which is in their plan is not a bad idea. 
The only thing I am worried about is that we can challenge 
people all we want, but will NASA actually use the results. And 
what I am worried about is that there is an awful lot of 
technology out there that NASA pays for and they never use 
because it is not part of the existing infrastructure and the 
way things are done. So yes, those prizes would be a good idea, 
but there needs to be an additional component in where is the 
gate in which you start--you know, how do you infuse those into 
this block that they are talking about----
    Chairman Rohrabacher. Okay.
    Dr. Shirley. Into this spiral development. How does that 
work?
    Chairman Rohrabacher. Okay. And one last thought on the 
elevator. I think the elevator is worth looking into. If we are 
going to spend billions of dollars in recreating the Saturn V 
rocket, I mean, something that we did back in 1960, I mean, let 
us start using our imagination to build something we haven't 
built before and could do--could possibly work. But then again, 
if it doesn't work, boy, that would be the biggest boondoggle 
in the history of all humankind.
    So those are the decisions we have got to look to and we 
have got to talk about seriously. I want to thank each and 
every one of the panelists for coming today and making your 
contribution to the really important discussion that will lead 
to the decision-making that will lead us to the next step in 
human exploration of space.
    So thank you all very much. We are adjourned.
    [Whereupon, at 12:46 p.m., the Committee was adjourned.]
                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Norman R. Augustine, Former Chief Executive Officer, 
        Lockheed Martin; Chair, Advisory Committee on the Future of the 
        U.S. Space Program

Questions submitted by Chairman Sherwood Boehlert

Q1.  To the best of your knowledge, are there alternative ``end 
states'' to assembly of the Space Station other than that which NASA 
currently plans that would meet all or most of our international 
commitments, would require less expenditures of funding, and would 
still allow the necessary science to be conducted on the effects of 
space on human physiology?

A1. I am personally unaware of any particular ``end states'' in the 
Space Station program other than that which is currently planned. This 
is, however, an important question worthy of exploration by those in a 
position to conduct a more knowledgeable evaluation.

Q2.  At the hearing, Dr. Fisk recommended that NASA proceed step by 
step with the exploration initiative to ``learn as you go.'' What do 
you believe are the significant steps that NASA must take as it 
implements the initiative, and what kind of milestones or gates do you 
believe, if any, Congress should set to ensure that the initiative is 
proceeding well and NASA is properly learning as it is going?

A2. ``Learning'' for the space exploration initiative can be grouped 
into three basic categories. The first of these has to do with the 
engineering steps required, to accomplish the mission, including 
identifying an appropriate mission architecture, developing advanced 
propulsion systems and creating manufacturing capabilities (for example 
the production of propellants) at locations other than the Earth's 
surface. Second, additional learning is needed of the long-term effects 
of space exposure on humans, particularly in the trans-Earth-Mars 
environment. Third, a great deal of knowledge remains to be obtained 
concerning the nature of Mars, its history and the implications thereof 
for those of us here on Earth.
    I believe that any ``gates'' that the Congress elects to impose 
should be focused on the first two of the above-mentioned areas of 
endeavor. As the mission is further defined, critical milestones should 
become more apparent. It is probably premature to establish specific 
gates at this point and time--although highly appropriate once the 
project is definitized.

Q3.  What recommendations, if any, would you make on how best to 
organize NASA to undertake the President's space exploration 
initiative?

A3. I would recommend that a strong project office led by an 
experienced project manager be established reporting directly to NASA 
headquarters with full authority over all contractor and NASA center 
activities relating to the undertaking.

Q4.  We are now totally dependent on the Russians to provide crew 
rescue with their Soyuz vehicles. However, Russia fulfills its Soyuz 
obligations to the international partners in April 2006. After that 
time, it is not clear how NASA plans to provide a crew rescue 
capability for astronauts on-board the Space Station.

        <bullet>  Do you believe NASA should develop its own crew 
        rescue capsule for the Space Station? How soon do you think a 
        crew rescue capsule could be developed?

        <bullet>  Do you believe that the Crew Exploration Vehicle 
        should be designed to service the Space Station as well as 
        carry out missions beyond low-Earth orbit?

A4. The Commission on the U.S. Space Program, which I chaired about a 
decade ago, recommended that NASA develop a crew rescue vehicle for the 
Space Station as well as for other possible future missions. While I do 
not have the basis to make an estimate as to how long it would take to 
conduct such a development today, it continues to be, in my opinion, an 
appropriate undertaking--assuming that the U.S. remains committed to 
operating the Space Station. The reviews conducted by our Commission on 
the Future of the U.S. Space Program, based upon then available 
projections of technology, indicated that a crew exploration vehicle 
could be designed to serve a Space Station as well as support missions 
beyond low-Earth orbit. This is an issue which is quite amenable to 
engineering analysis and should not require a great deal of subjective 
decision-making.

Questions submitted by Representative Bart Gordon

Q1.  What, if any, are your biggest concerns with respect to the 
President's space exploration initiative? What should Congress be 
focusing its attention on as we evaluate the initiative?

A1. In my opinion, the President's initiative is a sensible and 
appropriate one. My principal concern would be that an undertaking of 
this magnitude, inevitably involving non-trivial risk, should be 
undertaken only with fully adequate funds.
    This is necessary to provide financial reserves, backup technical 
approaches and to conduct the necessary tests and analyses to reduce 
risk to an acceptable level.

Q2.  It has been argued that one of the main rationales for human space 
exploration is its inspirational value. However, the Mars Pathfinder 
and the Spirit and Opportunity Mars Rovers have demonstrated that 
robotic missions are capable of capturing the public imagination.

        <bullet>  Given that, what do you think are the most compelling 
        justifications for human exploration?

        <bullet>  When should human exploration missions be 
        contemplated--that is, should they be deferred until as much as 
        possible has been accomplished robotically, or should human 
        missions be an early goal? Why?

A2. Robotic missions do capture the public imagination, yet, in my 
judgment, there is a very great difference between placing humans on 
Mars as compared to exploring Mars with robots. One need only consider 
the difference in reaction to the early Soviet robotic lunar missions 
and the mission of Neil Armstrong and Buzz Aldrin. The Commission on 
the Future of the U.S. Space Program contrasted the likely public 
impact of a hypothetical rocket launch to place instruments on the 
summit of Mt. Everest as compared with Sir Edmund Hillary and Tenzing 
Norgay's inspiring climb to the summit. Nonetheless, there are 
important roles for both robotic and human exploration. Robotic 
exploration is at its best in gathering large quantities of data and 
performing relatively routine tasks at very remote or hazardous 
locations. Humans are at their best when undertaking tasks requiring 
great flexibility and real-time decision-making.
    With regard to timing, there should undoubtedly be overlapping 
missions of robots and humans, with robotic activity beginning at an 
earlier time not only because of its earlier feasibility but also 
because of its role in reducing the risk of human missions.

Q3.  What do you consider an appropriate role for the private sector to 
be in the exploration of the solar system?

A3. I believe strongly in the power of the free enterprise system and 
therefore conclude that the private sector should have primary 
responsibility for carrying out missions to explore the solar system. 
At the same time, I believe that the government bears an important 
responsibility and capability for the oversight and direction of the 
work to be undertaken in the private sector.

Q4.  One of the key questions we will have to wrestle with as we 
evaluate the President's proposed initiative is whether NASA has the 
capabilities needed to carry it out successfully. Experienced NASA 
personnel will be retiring just as the initiative is getting going. New 
employees will not have any significant experience in human space 
flight and will need time to acquire it. At the management levels of 
NASA, many of the key human space flight and exploration positions 
currently are held by retired generals and Admirals with no previous 
space-related experience.

        <bullet>  How confident are you that NASA will have the 
        experience and skills based needed to conduct the initiative 
        safely and successfully?

        <bullet>  If you aren't, what would you recommend be done?

A4. During the Apollo Program NASA and the Department of Defense were 
generally considered to represent the leading edge of technology--and 
therefore were able to attract many of the Nation's ``best and 
brightest'' in the fields of science and engineering. Today, many of 
those individuals are instead attracted to such fields as 
bioengineering, nanotechnology and informatics. For NASA to draw the 
needed capabilities for a human Mars mission will require a clear and 
unambiguous long-term commitment to the exploration of space, 
particularly providing reasonable certainty that the needed funds will 
be available.
    I might note that I recently came across a photograph of the 
control room during the Apollo missions and my immediate reaction was, 
``They look like a bunch of kids!'' Indeed, those of us involved in the 
early days of the space program were ``a bunch of kids.'' This is not 
to say that experience is unimportant; it is obviously very important. 
At the same time, the energy and creativity of young people and the 
focus of their educational experience on the very latest technological 
advancements is not to be under-estimated.

Q5.  Your 1990 committee recommended that the space science program be 
given the highest priority for funding, and that science activity 
should be the ``fulcrum of the entire civil space effort.''

        <bullet>  Did your committee ever debate whether exploration 
        should be the main focus of the civil space program?

        <bullet>  If so, why did you reject that in favor of a science-
        based focus?

A5. The Committee on the Future of the U.S. Space Program identified a 
number of possible objectives for America's space program. We concluded 
that a ``balanced'' program would be the most appropriate program for 
America to pursue, and that such a balanced program should include 
unmanned missions, manned missions, science, and exploration 
activities. Nonetheless, we did indicate that within a ``balanced 
program'' science should be given a degree of preeminence. Although 
there were many reasons for this conclusion, foremost was the fact that 
new knowledge is principally the product of science, and that new 
knowledge underpins much of the progress one can anticipate in fields 
ranging from engineering to the health of the Nation's economy.

Q6.  Your 1990 report argued for a ``go as you pay'' approach to a 
human mission to Mars, indicating that there is no particular urgency 
in accomplishing such a mission. Would canceling or deferring existing 
and planned Earth and space science activities, as well as R&D on 
advanced aeronautical and space transportation systems in order to 
shift money to the President's exploration initiative be consistent 
with your committee's conception of a ``go as you pay'' approach?

A6. Clearly, any program of human exploration of Mars must compete 
against alternative undertakings in the budget process. Nonetheless, 
our committee's conception of a ``go as you pay'' philosophy would be 
consistent with the notion that other priority missions should not be 
disrupted to make possible an early human mission to Mars. Equally 
important, it was our intent that any Mars mission should be fully 
funded, including the provision of appropriate reserves to deal with 
contingencies. Any Mars mission will inevitably represent a major 
engineering undertaking, one which should be pursued in as efficient a 
manner as possible, but in no case should ``corners be cut''--given the 
importance of the mission to our nation's image and the implications 
for risk of the astronauts involved in the project.

Questions submitted by Representative Nick Lampson

Q1.  At our committee hearing last February 12, we asked the Director 
of the Office of Science and Technology Policy and the Administrator of 
NASA if the President had asked the cost of the Moon/Mars initiative, 
and, if so, what was he told. Their responses did not provide much 
clarification.

        <bullet>  How much uncertainty in cost estimating should 
        Congress be willing to tolerate in large scale, long-term 
        programs like the President's initiative?

        <bullet>  Would you, as a corporation chief executive officer 
        and as a board member, be willing to commit to long-term, high-
        risk programs if you were told that the anticipated length of 
        time for the program made it impossible to provide accurate 
        cost estimates? If so, why?

        <bullet>  If the cost estimates are likely to be uncertain, 
        what measures should Congress use to assess the agency's 
        performance in implementing its initiative?

A1. This is an important and provocative question. First and foremost, 
the necessary ``proof of principle'' developmental work should be 
undertaken to reduce the uncertainties in cost estimating as much as 
possible. On the other hand, in any enormous technological undertaking, 
including a human mission to Mars, uncertainties will always remain and 
some cost risks will simply need to be managed because they can never 
be entirely limited. Given this circumstance, one needs to rely to a 
considerable degree upon statistical estimations of cost. This is not a 
particularly satisfactory situation since we will have only one Mars 
program and thus statistical averages are not particularly meaningful. 
Nonetheless, it should be possible to assign reasonable probabilities 
to various cost outcomes such that one could estimate, say, an 80 
percent confident cost; a 50 percent confident cost and a 20 percent 
confident cost.
    With regard to the perspective of a board member or chief executive 
addressing long-term, high-risk programs, virtually all corporate 
research has in it highly inaccurate cost estimates and schedules. As 
an undertaking moves towards engineering development, however, it would 
be expected that considerable refinement of those estimates should be 
possible. While most corporate directors would be reluctant to commit 
to programs that could threaten the existence of a firm (i.e., where 
cost uncertainties are sufficiently great to make this outcome a 
meaningful possibility), it would not be uncommon to make commitments 
for programs with enormously high payoffs yet harboring significant but 
``survivable'' downsides. One of the problems with corporate America 
today is its focus on near-term, high confidence outcomes at the 
expense of longer-term, higher-risk (but higher payoff) pursuits.
    In managing major projects with uncertainties in cost and schedule, 
three lessons stand out. The first of these is that a series of major 
programmatic gates should be established and modified as knowledge is 
gained. The program should be reassessed at each of those gates. 
Second, reserves in terms of schedule, funds and technical approaches 
should be established commensurate with the uncertainties being 
confronted. Third, specific risks should be identified and plans 
created to manage those risks.

Q2.  Although Congress has not yet come to any decisions on the 
President's proposed space initiative, NASA is proceeding to cancel 
already planned hypersonics R&D projects as well as advanced rocket 
engine R&D in order to free up money for the initiative. That would 
appear to run counter to the recommendation of your 1990 Committee that 
NASA needs to continue to invest in its technology base and not let 
funding be diverted.

        <bullet>  How concerned should we be, and what would you 
        recommend be done?

A2. While I believe that a human mission to Mars is the next logical 
step in the human space program and one well-worth undertaking, I 
believe it would have been the view of our committee that such a 
program should not be undertaken at the expense of other important 
scientific and technological accomplishments.
    There can be no question that one-day visitors from some nation 
will land on Mars. It is my earnest hope that they will be from the 
United States. Nonetheless, our committee recommended that the first 
step in a mission to Mars is to carefully define the mission 
architecture and to put in place the technological building blocks 
which reduce risk to an acceptable level. Only when that has been 
accomplished would it be appropriate to begin large-scale engineering 
activities associated with the conduct of the mission itself.
                   Answers to Post-Hearing Questions
Responses by Michael D. Griffin, President, In-Q-Tel; Former Chief 
        Engineer, NASA; Former Associate Administrator, Exploration 
        Systems, NASA

Questions submitted by Chairman Sherwood Boehlert

Q1.  To the best of your knowledge, are there alternative ``end 
states'' to assembly of the Space Station other than that which NASA 
currently plans that would meet all or most of our international 
commitments, would require less expenditures of funding, and would 
still allow the necessary science to be conducted on the effects of 
space on human physiology?

A1. Given the constraints we are assuming--meeting the international 
commitments and allowing the study of human physiology--I don't believe 
there are any alternative ``end states'' for the ISS, certainly none 
that allow us to save any money. Indeed, it can be argued, and I have 
argued, that we need to restore Habitation Module funding if we are 
indeed serious about our ISS commitments.
    That said, I believe the greatest opportunity to save money during 
the remainder of the ISS program might lie, not in what ``end state'' 
we reach, but how we go about getting there. NASA's own budget 
estimates, codified in its February ``sand chart,'' indicate that some 
$28B is planned to be expended on Shuttle operations between now and 
2011. I would submit that an earlier cessation to Shuttle operations, 
possibly at ``U.S. Core Complete'' or even before, would allow us to 
use presently programmed Shuttle operations money for the development 
of a shuttle-derived heavy lift launch vehicle. Once that vehicle is 
available, the remaining ISS modules could be deployed in clusters, 
using fewer launches, quite likely saving substantial money overall. I 
believe this issue should be examined more carefully than it has been 
to date.

Q2.  At the hearing, Dr. Fisk recommended that NASA proceed step by 
step with the exploration initiative to ``learn as you go.'' What do 
you believe are the significant steps that NASA must take as it 
implements the initiative, and what kind of milestones or gates do you 
believe, if any, Congress should set to ensure that the initiative is 
proceeding well and NASA is properly learning as it is going?

A2. I think that Dr. Fisk's comment is on point; indeed, NASA will have 
no choice but to ``learn as we go.'' Doing so is a fact of life, and we 
should structure the exploration program to accommodate that reality.
    Nothing in NASA's current infrastructure or flight programs is 
oriented toward return to the Moon or missions to the near-Earth 
asteroids or Mars. A long period of infrastructure development will be 
necessary to recreate, and go beyond, the capabilities the Nation 
possessed at the time of Apollo. Among the steps necessary to take are:

        (a)  Operational Earth-orbital CEV NLT 2009, significantly 
        sooner than currently planned.

        (b)  ISS Habitation Module, extendable to lunar/Mars surface 
        use, by 2010.

        (c)  Heavy-lift launch vehicle NLT 2011.

        (d)  Lunar lander system augmentation of CEV by 2012.

        (e)  Development of lunar surface-suit technology ready for 
        operational deployment by 2013.

        (f)  First manned lunar return by 2014.

        (g)  Lunar surface nuclear power reactor available by 2015.

        (h)  Robotic demonstration of in-situ resource utilization on 
        Mars by 2016.

        (i)  Ground tests of nuclear thermal space propulsion engine by 
        2017.

        (j)  Mission to Phobos/Deimos by 2018.

        (k)  Robotic demonstration of Mars entry/descent/lander systems 
        by 2019.

        (l)  Manned landing on Mars by 2020.

    NASA should be required to offer a plan to meet these goals, or a 
similar set of such goals, by approximately the dates indicated. The 
periods of time specified for the accomplishment of the stated goals 
are consistent with past practice in the U.S. civil space program; NASA 
should be held to such performance in the future. The plan will be 
developed in stages, and should take into account the necessity to 
learn from ongoing operations. Congress should be easily able to judge 
whether the plan is being met, or not, and take action accordingly.

Q3.  What recommendations, if any, would you make on how best to 
organize NASA to undertake the President's space exploration 
initiative?

A3. My own opinion is that NASA's organization is not, per se, the 
problem. There are minor issues; for example, at present there exists 
unnecessary and harmful competition between Codes M, T, S, and U, with 
no overriding authority short of the Deputy Administrator--who cannot 
be expected in intervene in day-to-day programmatic issues--to make 
decisions as appropriate to further the initiative. But this and 
similar matters are easily remedied. More broadly significant is the 
fact that NASA needs a clear statement of purpose from the Congress, 
supporting the President's direction on the exploration initiative. If 
Congress does not concur with, and support financially, the stated 
vision, it cannot be attained. Congress must verify that competent 
people are selected to manage NASA to achieve the stated vision; 
aggressive goals should be set, and accountability for their 
achievement must be demanded.

Q4.  We are now totally dependent on the Russians to provide crew 
rescue with their Soyuz vehicles. However, Russia fulfills its Soyuz 
obligations to the international partners in April 2006. After that 
time, it is not clear how NASA plans to provide a crew rescue 
capability for astronauts on-board the Space Station.

Q4a.  Do you believe NASA should develop its own crew rescue capsule 
for the Space Station? How soon do you think a crew rescue capsule 
could be developed?

A4a. The ISS CRV should be a derivative of the planned Earth-orbital 
version of the CEV; there is no need to have two separate designs. Done 
expeditiously, the first versions of this vehicle should be available 
by 2009. In the meantime, NASA should be exempted from the Iran Non-
Proliferation Act, and should purchase additional Soyuz vehicles from 
Russia to serve the CRV function.

Q4b.  Do you believe that the Crew Exploration Vehicle should be 
designed to service the Space Station as well as carry out missions 
beyond low-Earth orbit?

A4b. From the answer above, ``yes.''

Questions submitted by Representative Bart Gordon

Q1.  What, if any, are your biggest concerns with respect to the 
President's space exploration initiative? What should Congress be 
focusing its attention on as we evaluate the initiative?

A1. I will begin by noting, as I did in testimony, that I believe the 
vision for the space exploration initiative enunciated on 14 January by 
President Bush is essentially the right vision. Further, I believe this 
view is held by most people in the space policy community. Indeed, the 
geography of the solar system leaves us little flexibility in the 
matter; the Moon, Mars, and Near-Earth Asteroids are the logical 
destinations. Each is interesting in its own right, and collectively 
they constitute the places we can envision reaching over the course of 
the next couple of generations. So I have no concerns about the vision 
itself.
    I am concerned about the perception that the vision constitutes, or 
should constitute, a wholly new burden upon NASA and the federal 
budget. I do not believe this is so, or should be so. While some amount 
of ``new money'' would be highly desirable, it should be small. The 
essential argument to be held concerns what NASA and the Nation should 
be doing with the money already allocated to manned space flight. The 
argument should not be about how much new money is required, or how 
much money should be redirected from other NASA enterprises into manned 
space flight. When and as we see the results obtained from implementing 
this new vision, we can reconsider how much of our nation's treasury 
should be allocated to it.
    Congress should focus on the broad thrust and timeliness of the 
goals NASA enunciates and works toward. Architectural details are not 
as relevant as broad measures of merit. It is worth noting that, during 
Apollo, 18 months passed between the decision by President Kennedy and 
the Congress of that time to initiate the program, and the final 
decision to adopt lunar orbit rendezvous as the architecture by which 
the mission would be accomplished. Yet, the goal was achieved in eight 
years and two months following Kennedy's historic announcement. The 
entire Gemini program--ten manned flights in twenty months--was 
implemented in four years from announcement to completion. These are 
the kinds of things to which Congress should be attending. When NASA 
announces--years in advance--that the first manned flight of CEV will 
take place in 2014, ten years from the present, it should raise the 
reddest of red flags. A program paced according to such a schedule is 
inherently unwieldy and unworkable, and the Congress should require 
better.

Q2.  It has been argued that one of the main rationales for human space 
exploration is its inspirational value. However, the Mars Pathfinder 
and the Spirit and Opportunity Mars Rovers have demonstrated that 
robotic missions are capable of capturing the public imagination.

Q2a.  Given that, what do you think are the most compelling 
justifications for human exploration?

A2a. Humans are intensely interested in exploration, as shown 
repeatedly by the interest in robotic explorers such as Pathfinder, 
Spirit, and Opportunity, and for that matter the Hubble Space 
Telescope. The best rationale for human exploration is exactly the same 
as for robotic exploration--to learn and know new things, to know new 
places, to make those places part of the human scope and experience. 
While there are places only robots can go, it remains true that, as Mr. 
Augustine has put it, there is a difference between placing an 
instrumented package at the top of Mt. Everest, and its conquest by 
Hillary and Tenzing. When magnified to encompass whole new worlds that 
difference, difficult to quantify but impossible to ignore, is 
precisely the difference between robotic and human planetary 
exploration. I believe that difference is worth the money and the risk 
to human life with which it is purchased.

Q2b.  When should human exploration missions be contemplated--that is, 
should they be deferred until as much as possible has been accomplished 
robotically, or should human missions be an early goal? Why?

A2b. Historically, when it was possible to do so, space exploration by 
humans has been preceded by a measured program of robotic exploration, 
as much to determine the characteristics of the environment as for any 
scientific purpose. And it is worth noting that robotic exploration has 
continued even after the cessation of the Apollo voyages, over three 
decades ago. So, while the two endeavors are usefully coupled, it is 
not appropriate to defer human exploration until ``as much as possible 
has been accomplished robotically.'' That goal is not reachable; there 
is no end to useful robotic exploration. Human exploration should being 
when robotic exploration has revealed enough of the environment to 
allow us to know where we want to go, and why, and what hazards are 
likely to be encountered.

Q3.  What do you consider an appropriate role for the private sector to 
be in the exploration of the solar system?

A3. My quick answer on this point is ``as much as possible, as soon as 
possible.'' To the extent that the U.S. Government--through NASA--can 
express requirements to be satisfied and a price to be paid for meeting 
them, we will be better off. NASA's proper role is to design the 
mission architectures to be implemented. The more that we can adopt 
best commercial aerospace practices and procedures during such 
implementation, as opposed to adopting a classic captive government 
contractor model, the better off we will be.

Q4.  One of the key questions we will have to wrestle with as we 
evaluate the President's proposed initiative is whether NASA has the 
capabilities needed to carry it out successfully. Experienced NASA 
personnel will be retiring just as the initiative is getting going. New 
employees will not have any significant experience in human space 
flight and will need time to acquire it. At the management levels of 
NASA, many of the key human space flight and exploration positions 
currently are held by retired generals and Admirals with no previous 
space-related experience.

Q4a.  How confident are you that NASA will have the experience and 
skills based needed to conduct the initiative safely and successfully?

A4a. I am not confident that the NASA management team today has the 
experience and skill necessary to implement the vision, for precisely 
the reasons implied by the question--many of the individuals in 
question simply have not acquired their career experience in the space 
business. Military systems acquisition, to use a phrase coined by a 
friend at NASA, is simply not the same as building the Nina, the Pinta, 
and the Santa Maria, if the analogy is not overdrawn.
    Space systems engineering and development is not an endeavor 
wherein one can do one's on-the-job-training by starting at the top. It 
should not be necessary to insist that NASA bring on-board, as top-
level management, people with top-level space flight engineering and 
management experience. But apparently it is, and Congress should so 
insist.

Q4b.  If you aren't, what would you recommend be done?

A4b. Today's NASA is as it is because it was assembled to serve the 
needs of what is, frankly, a rather mundane program, the flying of the 
Space Shuttle and the assembly of the International Space Station. More 
than one observer has characterized it as a space ``jobs program'' and, 
while somewhat unfair, this characterization is not entirely 
inappropriate. NASA has retained, at the working level, a very large 
share of the best people in the aerospace industry, simply because of 
their passion for the Agency's mission. But while this is so, it 
remains true that, by and large, the best people do not flock to 
routine or mundane programs. This is especially true when salaries, by 
industry standards, are very low and when, as now, we seem more 
concerned about government-industry ``revolving door'' issues than with 
doing what is necessary to make it simple and easy for government to 
attract and retain the best talent.
    If we can address the above concerns, and if the new exploration 
initiative is approved, endorsed, and funded by Congress at reasonable 
levels and with apparent bipartisan consensus, it will not be difficult 
to attract the best people from industry, government, and the 
laboratories to manage it. This was the experience of the Strategic 
Defense Initiative Organization, Apollo, the ICBM program, and the 
Manhatten Project. The best people are drawn to the most challenging 
programs. So it will be again.

Questions submitted by Representative Nick Lampson

Q1.  Until several years ago, development of a new reusable launch 
vehicle that could significantly reduce the cost and increase the 
reliability of access to space was a major national goal. However the 
budget plan accompanying the President's new space initiative envisions 
no additional funding for such R&D through at least 2020. Do you 
believe that is an appropriate decision? If so, why? And if not, why 
not? What would you recommend be done?

A1. I think it is wholly inappropriate for the Nation--through NASA--
not to be funding such a development. While I have consistently 
championed the re-development of a heavy-lift launch vehicle to enable 
return to the Moon, and expeditions to Mars, it remains true that most 
of our nation's day-to-day spacelift requirements will be in the 
smaller size range, say 10 metric tons as a round number, with no 
intent to be overly precise with this estimate. Space launch costs will 
remain unacceptably high until we take on the problem of developing 
operational, substantially reusable, launch vehicles for this payload 
class. This remains an R&D problem, and the government agency in whose 
bailiwick it logically falls is NASA. Development of such technology 
should be viewed as a requirement, an obligation, of the Nation's space 
agency, wholly apart from its mission to explore. It must be demanded, 
and funded, by the Congress, and the Agency's managers should be held 
to account for its completion. This is the single highest-priority 
space technology development need confronting the United States.
                   Answers to Post-Hearing Questions
Responses by Donna L. Shirley, Director, Science Fiction Museum; Former 
        Manager, Jet Propulsion Laboratory's Mars Program; Former 
        Assistant Dean, University of Oklahoma Aerospace Mechanical 
        Engineering Department

Questions submitted by Chairman Sherwood Boehlert

Q1.  To the best of your knowledge, are there alternative ``end 
states'' to assembly of the Space Station other than that which NASA 
currently plans that would meet all or most of our international 
commitments, would require less expenditures of funding, and would 
still allow the necessary science to be conducted on the effects of 
space on human physiology?

A1. Unfortunately, I am not familiar enough with the current design of 
the Station to answer specifically whether the development could be 
truncated to save money without breaking our international commitments. 
Certainly I would think that restricting experiments to those on 
physiology would help, but the international elements of the Station 
are not all focused on these issues. In addition, many of the elements 
of the Station that remain to be flown have already been built at 
considerable expense and it isn't clear how much would be saved by not 
flying them.
    As Dr. Young pointed out in his testimony, physical preparation for 
a long zero-g or even partial-g trip requires that a centrifuge be 
included in the Station and I don't know the status of construction of 
this facility.
    On the economic principle that ``sunk cost'' should not be included 
when making an economic decision NASA or an independent entity (e.g., 
the GAO) should be charged with looking at the cheapest way to achieve 
the goals of satisfying our international commitments while getting the 
physiological information necessary to design human exploration 
missions. This may or may not include completing the Station as 
planned.
    Of course all of these issues are dependent on the choices made 
about access to space. The picture will be very different with and 
without the Shuttle.

Q2.  At the hearing, Dr. Fisk recommended that NASA proceed step by 
step with the exploration initiative to ``learn as you go.'' What do 
you believe are the significant steps that NASA must take as it 
implements the initiative, and what kind of milestones or gates do you 
believe, if any, Congress should set to ensure that the initiative is 
proceeding well and NASA is properly learning as it is going?

A2. NASA has procedures in place in its management instructions, (e.g., 
NMI 7120.5A. ``NASA Program and Project Management Processes and 
Requirements''), which require independent reviews of programs before 
they are allowed to obligate money. These reviews have not always been 
held for large, politically sensitive projects like Station. NASA 
should develop a specific plan and program to complete the Station, 
focusing on international commitments and physiology, and have these 
plans reviewed by independent entities per its own policies.
    The plans should indeed be ``learn as you go,'' and should be 
decision-tree based. For instance, what must be known about Shuttle 
reliability to return it to flight? What are other ways of supplying 
the Station and what should be done to exercise these options? NASA 
should be capable of answering these questions. Unfortunately, I am not 
sanguine that NASA has the internal capability to make these trades, 
particularly in the politically intense climate in which it must 
operate. I would suggest that reviews be held, per the NMI 7120.5A, at 
the various budgetary phases, and that the GAO or OMB be included in 
these regular in order to give Congress insight.
    Specific steps would be, in the next six months:

        --  Develop a return-to-flight plan for the Shuttle.

        --  Develop the minimum list of mission requirements for 
        Station support to human exploration.

        --  Compare this list with already-built elements of the 
        Station and select only those elements that are needed to meet 
        the requirements.

        --  Do the same for international elements.

        --  Develop a set of alternatives to the Shuttle, including the 
        use of private and international launch capability, and develop 
        a set of metrics for selecting between the alternatives, 
        including costs.

    Then, in the six months after that, select the alternatives to 
pursue, and revise the current Station plans to head in this direction. 
Review progress at least on an annual basis and ensure that the metrics 
are actually measured and are used to make decisions about how to 
proceed.

Q3.  What recommendations, if any, would you make on how best to 
organize NASA to undertake the President's space exploration 
initiative?

A3. I strongly recommend that a BRAC-like process be applied to NASA. 
It is not clear that all of the human space flight centers are needed 
to efficiently operate a human exploration program. Next, I believe 
that NASA would be much more effectively operated if its centers were 
converted to contractor-operated facilities, such as JPL is now.
    Finally, I believe that NASA needs competition, at least in the 
area of launch capability. While none of the current private launch 
companies can replace the Shuttle, they could conduct resupply 
operations within a few years which would require the Shuttle only to 
launch the very large payloads. There is no reason that if the private 
launch companies can launch tourists with an acceptable level of risk 
they should not also be able to launch crews to the Station.

Questions submitted by Representative Bart Gordon

Q1.  What, if any, are your biggest concerns with respect to the 
President's space exploration initiative? What should Congress be 
focusing its attention on as we evaluate the initiative?

A1. My biggest concern, as I mentioned in my Testimony, is that the 
Moon initiative is a diversion from the real exploration of Mars, and 
that good, rigorous analysis is needed to really evaluate whether, for 
instance, the use of lunar resources (e.g., oxygen) is worth the cost 
of obtaining them. There are many advocates for a lunar initiative who 
seem to be basing their advocacy on this resource issue. This is a 
fertile area for analysis, but should be done independently of those 
advocates. In Apollo, Marshall and Johnson were advocating different 
approaches to reaching the Moon. One center insisted that rendezvous of 
elements in Earth orbit was best; the other wanted to have the 
rendezvous in lunar orbit. The spacecraft manager, Joe Shea, required 
each of the centers to analyze and advocate the point of view that they 
didn't hold. This revealed a lot of excellent issues and the decision 
to use lunar rendezvous was the outcome. NASA might take this approach 
to Moon vs. Mars.
    My second concern is that the initiative is so under-funded as to 
be infeasible. Even with non-human exploration projects being slain all 
over NASA, the projected near-term budgets for specific elements such 
as the Crew Exploration Vehicle seem to be very low. While there 
appears to be ample funding over the long-term, at least in terms of 
the total dollars planned, without a specific action plan it is very 
difficult to assess whether this is indeed the case. Congress should 
put a budget cap on this activity, insist that specific plans and 
designs be developed and costed, per NASA NMI's, and insist on very 
hard-nosed reviews of these plans and designs.
    My third concern is that all non-exploration science should not be 
sacrificed for the exploration program. Canceling or curtailing the 
Sun-Earth Connection, for example, will leave a gaping hole in data 
needed to assess the safety of human missions beyond LEO.

Q2.  It has been argued that one of the main rationales for human space 
exploration is its inspirational value. However, the Mars Pathfinder 
and the Spirit and Opportunity Mars Rovers have demonstrated that 
robotic missions are capable of capturing the public imagination.

        <bullet>  Given that, what do you think are the most compelling 
        justifications for human exploration?

        <bullet>  When should human exploration missions be 
        contemplated--that is, should they be deferred until as much as 
        possible has been accomplished robotically, or should human 
        missions be an early goal? Why?

A2. As a person intimately involved in the rover missions, I can attest 
to the fascination that these missions had for the public. The most 
compelling justification for humans is, as I stated in my testimony, 
that humans need to explore--including taking risks to ``be there'' 
personally. Humans are unlikely to ever be as cost-effective as robots 
for carrying out science.
    However, if we defer humans until robots have ``completed'' their 
exploration tasks, we will never send humans. Even exploring a relative 
small planet like Mars will take many, many years. We need to 
robotically collect enough data about Mars (or the Moon) to reduce the 
risk that humans will not survive the trip, or that they will not be 
useful when they get there. Then we need to get on with figuring out 
how best to let humans do what they need to do--to explore. And this 
exploration with humans will necessitate that robots go along as 
precursors to set up infrastructure, as associates in exploration, and 
as extenders of human senses and capabilities.

Q3.  What do you consider an appropriate role for the private sector to 
be in the exploration of the solar system?

A3. I think the government should provide incentives to the fledgling 
private launch industry, much as it incentivized the early aviation 
industry. There is currently little competition to drive down launch 
costs. Consideration should be given, not just to ``prizes'' of a few 
tens of millions of dollars, but to allowing private industry to bid on 
carrying out elements of the human exploration program.
    NASA should have a much more open decision process about selecting 
objectives and architectures for human exploration, which would allow 
the private sector to propose how they would accomplish these 
objectives.

Q4.  One of the key questions we will have to wrestle with as we 
evaluate the President's proposed initiative is whether NASA has the 
capabilities needed to carry it out successfully. Experienced NASA 
personnel will be retiring just as the initiative is getting going. New 
employees will not have any significant experience in human space 
flight and will need time to acquire it. At the management levels of 
NASA, many of the key human space flight and exploration positions 
currently are held by retired generals and Admirals with no previous 
space-related experience.

        <bullet>  How confident are you that NASA will have the 
        experience and skills based needed to conduct the initiative 
        safely and successfully?

        <bullet>  If you aren't, what would you recommend be done?

A4. I am not at all confident that NASA will have the capabilities to 
implement this program, and I recommend that a BRAC-type process be 
implemented to look at closing and/or repurposing some centers. In 
addition, I recommend converting civil service centers to contractor-
operated entities like JPL.
    I am uncomfortable with assuming that a military management model 
is best for NASA (or for a national/international space enterprise 
whether led by NASA or by another agency). In addition to the lack of 
space experience I am concerned with the mentality of military 
commanders as applied to what will probably be a very diverse 
enterprise. I recently completed a study of the management of an Air 
Force facility and one problem was the lack of flexibility and 
creativity imposed by the intrinsic ``command and control'' philosophy 
of the military.
    NASA has lost many, many highly qualified people because of the 
downsizing frenzy in the 1990's. I believe that some of these people 
could be recaptured and put to good use if they saw a real chance to 
accomplish something in space. However, whether the current top-level 
management at NASA is capable of identifying and selecting the right 
people with the right experience is very unclear.
    As we have learned at JPL, younger people can take on tremendous 
responsibilities and succeed. I would recommend a mix of people, like 
those at JPL and their contractors, who are creative, motivated, 
flexible and hard working be given the responsibility for implementing 
elements of the human exploration program. This would be facilitated by 
``privatizing the centers.''
                   Answers to Post-Hearing Questions
Responses by Laurence R. Young, Apollo Program Professor, Massachusetts 
        Institute of Technology (MIT); Founding Director of the 
        National Space Biomedical Research Institute (NSBRI)

Questions submitted by Chairman Sherwood Boehlert

Q1.  If NASA's work on the Space Station is to be completed around 
2016, do you think that researchers will have learned enough about 
countermeasures and risks to the human body to embark on longer 
missions to the Moon and Mars? How much could be learned instead on 
missions to the Moon as envisioned by the President's exploration 
initiative?

A1. Yes, if we proceed with an adequate number of test subjects and 
follow a well-considered experimental plan with subjects who will stick 
with the test protocols we should learn enough by 2016 to proceed on 
longer interplanetary missions. The risk will be reduced, of course, by 
further testing, but another 12 years, with the right on-orbit 
equipment and adequate up-down capacity should make the risk 
acceptable.
    As to going to the Moon first--I find that difficult to justify. 
Although life support systems could be tested on the Moon they could 
also be verified on a LEO artificial gravity craft, at lower cost and 
with more control. We will need to learn how to operate at Martian 
gravity eventually, and the lunar experience will only be of marginal 
benefit.

Q2.  Is there a coupling between the effects of microgravity and 
radiation on human health while astronauts are in space or are the 
effects separable?

A2. I am not an expert in radiation, but can only report on the 
findings of others. The NRC Space Studies Board, in 2000 saw no reason 
to explore such coupling, and most other reports indicate no strong 
relationship between radiation and microgravity. However, there is some 
evidence from early Russian animal experiments suggesting that 
radiation effects were more severe during space flight than during 
ground experiments. This is not, in my view, a high priority issue.

Q3.  In your written testimony you advocate the development of a 
centrifuge for humans on the Space Station, yet the centrifuge planned 
for the Space Station will only hold small mammals. How critical is it 
for NASA to develop a human centrifuge for research on the Space 
Station? Without a human centrifuge, will we know enough before we ask 
astronauts to embark on ventures beyond low-Earth orbit?

A3. Both a human centrifuge and the planned animal centrifuge are high 
priority items for the Space Station. In the early plans for the 
current animal centrifuge a second rotating arm was included, which 
could spin synchronously with the main wheel to exchange habitats 
without stopping the centrifuge. This ``servicing arm'' could also be 
adapted to spinning of astronauts for short periods of artificial 
gravity. The servicing arm and its human rotator capability were 
eliminated to reduce costs. It now seems to me that both the animal and 
human stimulators are absolutely necessary in order to understand and 
reduce to practice the artificial gravity universal antidote against 
the debilitating effects of weightlessness. Just as the FDA proceeds 
from drug testing on small animals to large animals to human clinical 
trials we must evaluate our countermeasure in logical steps. It must be 
proven in LEO before employing it on the way to Mars. The concepts and 
preliminary designs of such a short radius centrifuge were spelled out 
in a 1999 NASA-NSBRI international workshop on artificial gravity 
chaired by William Paloski of JSC and myself. The proposal for a flight 
human centrifuge ready for experiments on the ISS by 2009 has been 
proposed to Code U as part of the Human Research Initiative.

Q4.  To what extent has the research agenda on the Space Station been 
limited by a lack of capacity to transport logistics, cargo, and 
experiments to and from the Space Station?

A4. The absence of regular Space Shuttle flights to and from the ISS 
and the lack of up/down capacity has already impacted the research 
agenda. The limited crew on-board has reduced the pace of conducting 
human experiments. No animal experiments can be accomplished without a 
glovebox on orbit and the transport of animals to and from the ISS. 
Several experiments have been delayed by months to years. The situation 
will only get worse if the Shuttle is retired in 2010 and the CEV is 
not operational until 2014 or later. Furthermore, the current research 
agenda is impacted by the inability to conduct life sciences 
investigations effectively immediately post-flight research requiring 
access to astronauts immediately after landing is not possible when 
they return on a Soyuz. Additionally, the recent NRA suggests that 
proposals not include testing of astronauts prior to R+4, which is well 
beyond the critical period of re-adaptation. In my opinion, the U.S. 
should not abandon the Shuttle until our own next generation vehicle is 
operational.

Questions submitted by Representative Bart Gordon

Q1.  What, if any, are your biggest concerns with respect to the 
President's space exploration initiative? What should Congress be 
focusing its attention on as we evaluate the initiative?

A1. I am in favor of the vision of human exploration of Mars. My main 
concerns are budget and competition for funding. Until a realistic Mars 
exploration plan is enunciated it is difficult to know how much this 
will cost and over how many years the initial development will last. 
However, in keeping with the President's initiative we have already 
begun to close down other important science and technology projects. I 
am also concerned about the projected lack of U.S. human launch 
capability between 2010 and the operation of the CEV, as discussed in 
my answer to Chairman Boehlert's last question.

Q2.  It has been argued that one of the main rationales for human space 
exploration is its inspirational value. However, the Mars Pathfinder 
and the Spirit and Opportunity Mars Rovers have demonstrated that 
robotic missions are capable of capturing the public imagination.

Q2a.  Given that, what do you think are the most compelling 
justifications for human exploration?

A2a. Robotic missions are outstanding precursors to human exploration--
but they return neither the scientific nor the non-scientific value of 
human voyages. Many, many of my students at MIT are attracted to the 
space program by the human exploration challenge--either as astronauts 
or as explorers on the ground. Robots don't carry the same appeal. The 
human benefit is somewhat intangible, but it certainly motivates young 
people into careers in science and engineering. The opportunity for a 
trained human to observe, sample and form hypotheses about Mars is 
unlikely to be matched by robots in the foreseeable future.

Q2b.  When should human exploration missions be contemplated--that is, 
should they be deferred until as much as possible has been accomplished 
robotically, or should human missions be an early goal? Why?

A2b. Human exploration should be contemplated as soon as we are 
confident in our countermeasures against the deleterious effects of 
weightlessness and radiation. They should be an early goal--but not the 
first goal.

Q3.  What do you consider an appropriate role for the private sector to 
be in the exploration of the solar system?

A3. The private sector, in its traditional role of developing new 
technology for space exploration, should be encouraged and rewarded for 
technology transfer to benefit of humanity on Earth. Eventually they 
will be involved in space tourism, but in the near-term I believe that 
the direct commercial benefits of solar system exploration are limited.

Q4.  One of the key questions we will have to wrestle with as we 
evaluate the President's proposed initiative is whether NASA has the 
capabilities needed to carry it out successfully. Experienced NASA 
personnel will be retiring just as the initiative is getting going. New 
employees will not have any significant experience in human space 
flight and will need time to acquire it. At the management levels of 
NASA, many of the key human space flight and exploration positions 
currently are held by retired generals and Admirals with no previous 
space-related experience.

        <bullet>  How confident are you that NASA will have the 
        experience and skills based needed to conduct the initiative 
        safely and successfully?

        <bullet>  If you aren't, what would you recommend be done?

A4. NASA alone currently has the experience and skills to conduct this 
mission. However, with the aging NASA workforce the program will have 
to move along smartly to recruit a new generation. The appeal of NASA 
will be augmented by the initiative. The new NASA scholarship program 
will encourage young college students to get involved. More funding to 
Space Grant and support of NASA Fellows will help to renew the capable 
leadership. Just provide the jobs and the challenges, I believe, and 
the capable young people will come to accomplish the difficult tasks. 
We need to bring people into NASA now, however, to have them available 
as leaders in the next 5-10 years.

Questions submitted by Representative Nick Lampson

Q1.  In your testimony you state: ``the most important piece of 
additional equipment to meet the research goals is a short radius human 
centrifuge for the study of intermittent artificial gravity inside the 
International Space Station.''

Q1a.  Please explain why you feel it is so important to have a human 
centrifuge.

A1a. Without it we cannot explore and then demonstrate the 
effectiveness of artificial gravity in overcoming the deleterious 
effects of weightlessness on muscle, bone, cardiovascular and sensory-
motor systems. And without an adequate countermeasure we dare not send 
astronauts on a 2-3 year mission.

Q1b.  Has development of such a human centrifuge been a priority of the 
research community in the past, and if so, why hasn't it been included 
in NASA's research planning?

A1b. A human centrifuge has been called for in most if not all of the 
NRC Committee on Space Biology and Medicine reports since the 1970's, 
as well as in the reports of the various NASA advisory committees on 
the Space Station. It has been eliminated primarily because of cost, in 
favor of the smaller and cheaper animal centrifuge. There was also 
concern that vibration from the spinning arm would disturb the quiet 
environment necessary for the materials science microgravity studies.

Q1c.  Addition of such a human centrifuge runs counter to NASA's 
current plan to limit the amount of new facilities on the Station and 
to bring its research activities to a close in 2016 if possible. How 
difficult do you think it would be to develop such a centrifuge, how 
long would it take, and what would it cost?

A1c. A human centrifuge would not be difficult--and feasibility studies 
have already been conducted. There were proposals to fly one in the 
Shuttle mid-deck or in Spacehab several years ago. A space flight 
version could be operational on the ISS by 2009. I am not qualified to 
estimate its cost.

Q2.  The entire research program of the International Space Station has 
been designed around the availability of the Space Shuttle to take up 
and return laboratory equipment, samples, and animal and plant 
specimens.

        <bullet>  What will be the impact on the Station's usefulness 
        for research if the Space Shuttle is no longer available after 
        Station assembly is completed in 2010 or soon thereafter?

        <bullet>  What would you recommend be done?

A2. In response I repeat my answer to the similar question posed by 
Chairman Boehlert:

    The absence of regular Space Shuttle flights to and from the ISS 
and the lack of up/down capacity has already impacted the research 
agenda. The limited crew on-board has reduced the pace of conducting 
human experiments. No animal experiments can be accomplished without a 
glovebox on orbit and the transport of animals to and from the ISS. 
Several experiments have been delayed by months to years. The situation 
will only get worse if the Shuttle is retired in 2010 and the CEV is 
not operational until 2014 or later. Furthermore, the current research 
agenda is impacted by the inability to conduct life sciences 
investigations effectively immediately post-flight research requiring 
access to astronauts immediately after landing is not possible when 
they return on a Soyuz. Additionally, the recent NRA suggests that 
proposals not include testing of astronauts prior to R+4, which is well 
beyond the critical period of readaptation. In my opinion, the U.S. 
should not abandon the Shuttle until our own next generation vehicle is 
operational.
                   Answers to Post-Hearing Questions
Responses by Lennard A. Fisk, Chair, Space Studies Board (SSB), 
        National Academy of Sciences; Chair, Department of Atmospheric, 
        Oceanic, and Space Sciences, University of Michigan; Former 
        Associate Administrator, Space Science and Applications, NASA

Questions submitted by Chairman Sherwood Boehlert

Q1.  To the best of your knowledge, are there alternative ``end 
states'' to assembly of the Space Station other than that which NASA 
currently plans that would meet all or most of our international 
commitments, would require less expenditures of funding, and would 
still allow the necessary science to be conducted on the effects of 
space on human physiology?

A1. I am not aware of such alternative end states. Our commitments to 
ESA and Japan, to provide for their use of the Columbus module and 
Japan Experiment Module (JEM) for their research programs, will require 
us to complete the basic ISS assembly. We would have to be relieved of 
this obligation to follow another course. Moreover, the NASA 
exploration initiative will require biomedical data on crew performance 
in microgravity, as well as the development of technology in support of 
exploration, all of which requires a capable space station.

Q2.  At the hearing, you recommended that NASA proceed step by step 
with the exploration initiative to ``learn as you go.'' What do you 
believe are the significant steps that NASA must take as it implements 
the initiative, and what kind of milestones or gates do you believe, if 
any, Congress should set to ensure that the initiative is proceeding 
well and NASA is properly learning as it is going?

A2. The first step should be to develop a relatively detailed 
architecture, which will specify the technology needed, robotic 
missions required, and how all these elements will be integrated in 
support of the exploration initiative.\1\ This is a major effort. NASA 
appears to be undertaking this now. However, I would encourage the 
agency to involve the broader scientific and industrial community. One 
of the lessons from the science program is that it feeds on the 
creative tension that exists between NASA and the broader science 
community.\2\ The human space flight program could do well to develop 
its own creative tension.
---------------------------------------------------------------------------
    \1\ National Research Council, Issues and Opportunities Regarding 
the U.S. Space Program: A Summary Report of a Workshop on National 
Space Policy. National Academies Press, Washington, D.C., 2004, p. 35.
    \2\ National Research Council, Issues and Opportunities Regarding 
the U.S. Space Program: A Summary Report of a Workshop on National 
Space Policy. National Academies Press, Washington, D.C., 2004, pp. 1, 
38.
---------------------------------------------------------------------------
    With an architectural plan in place, milestones and decision points 
can then be specified. It would be unwise at this point to attempt to 
specify in detail how we will get to Mars, or even what it would cost. 
These cannot be determined today. Rather, we should ask what the first 
steps are within a likely architecture, and how they will provide 
options for the next steps and so on, and measure our progress through 
accomplishing these successive steps.

Q3.  Steven Weinberg recently wrote an article in The New York Review 
of Books entitled ``The Wrong Stuff' (see attachment) in which he says 
that ``as the Moon and Mars missions absorb more and more money, the 
golden age of cosmology is going to be terminated.''

     Do you agree with Dr. Weinberg's assessment? How can Congress 
ensure that any cost growth for infrastructure does not adversely 
effect funding for science, especially if Congress is unable to provide 
NASA as a whole with greater funding?

A3. Termination is an unlikely possibility. An intellectual issue as 
basic and as vibrant as current cosmology cannot be killed. Rather, the 
issue is balance within the science program. It has long been a policy 
of space science to attempt, within available resources, to have each 
of the major science disciplines advance at a reasonable pace. All of 
the major science disciplines are judged to be important for 
understanding the universe in which we live. The exploration mission 
threatens that balance by declaring some science disciplines to be more 
important for exploration than others, such as cosmology. We should 
all, the science community and Congress, encourage NASA not to 
distinguish among its science disciplines, but rather to develop and 
execute plans that allow each to progress as expeditiously as resources 
allow.

Q4.  What recommendations, if any, would you make on how best to 
organize NASA to undertake the President's space exploration 
initiative?

A4. I would not like to comment in any detail on the NASA organization. 
The Presidential Commission on Moon, Mars and Beyond is expected to 
offer advice here. One general comment, however: NASA has many 
missions, of which exploration, as they now define it, is only one. An 
organizational structure has to be found that allows each of NASA's 
missions to succeed, while encouraging as much integration of 
activities across the agency as possible.

Q5.  We are now totally dependent on the Russians to provide crew 
rescue with their Soyuz vehicles. However, Russia fulfills its Soyuz 
obligations to the international partners in April 2006. After that 
time, it is not clear how NASA plans to provide a crew rescue 
capability for astronauts on-board the Space Station.

        <bullet>  Do you believe NASA should develop its own crew 
        rescue capsule for the Space Station? How soon do you think a 
        crew rescue capsule could be developed?

        <bullet>  Do you believe that the Crew Exploration Vehicle 
        should be designed to service the Space Station as well as 
        carry out missions beyond low-Earth orbit?

A5. There are numerous choices here. The crew rescue vehicle is 
important for providing the maximum possible crew for the ISS, which in 
turn is necessary to achieve the scientific research on the ISS, 
particularly the biomedical research that will be necessary for the 
exploration initiative. The Soyuz, or perhaps more correctly multiple 
Soyuz vehicles can provide this, if we are willing to depend on and 
support the Russians. A separate U.S. crew rescue vehicle would be 
desirable. However, if it is to be developed separately, it could 
distract from the Crew Exploration Vehicle development that will be 
required to proceed with the initiative. Conversely, if the Crew 
Exploration Vehicle is designed also to serve as the crew rescue 
vehicle, there is a danger that it will be another example of promising 
too many capabilities for one development, which is a mistake NASA has 
made in previous developments, especially the Shuttle and the ISS.
    I believe this is yet another example of the necessity of a good 
architecture study for the exploration initiative, which should 
indicate what capabilities it is reasonable to expect of the Crew 
Exploration Vehicle. Following that determination, it should be 
possible to specify the options for the crew rescue vehicle, and decide 
whether there are any that are both technically and politically 
acceptable.

Questions submitted by Representative Bart Gordon

Q1.  What, if any, are your biggest concerns with respect to the 
President's space exploration initiative? What should Congress be 
focusing its attention on as we evaluate the initiative?

A1. Let me start by saying that I am very supportive of the exploration 
initiative. I believe it defines realistic and realizable goals for 
human space flight. However, I do have concerns:

    Foremost among the concerns is the arbitrary bifurcation of science 
into disciplines that are judged to be supportive of exploration and 
those that are not, the so-called ``other science.'' I consider this 
split to be arbitrary and not based on any defendable argument. For 
example, Sun-Earth Connection, one of the science themes in NASA's 
Office of Space Science, is clearly important for human exploration 
since it is concerned with the radiation environment of space; yet much 
of it is designated ``other science.'' The Structure and Evolution of 
the Universe theme, also labeled as ``other science,'' is concerned 
with basic cosmology, and this is certainly exploration. Earth science 
has a mandate all its own. I would eliminate this arbitrary division, 
and provide for the balanced science program that has been so 
successful throughout the history of the space program.
    I am also concerned that NASA is not reaching out adequately in its 
effort to develop an architectural design of the new exploration 
initiative. The ongoing studies of how to pursue this bold venture 
should involve the broader space community in the U.S. industry and 
academia--and also engage our international partners. Broadening that 
activity will result in a better design, as well as broader political 
support.

Q2.  It has been argued that one of the main rationales for human space 
exploration is its inspirational value. However, the Mars Pathfinder 
and the Spirit and Opportunity Mars Rovers have demonstrated that 
robotic missions are capable of capturing the public imagination.

        <bullet>  Given that, what do you think are the most compelling 
        justifications for human exploration?

        <bullet>  When should human exploration missions be 
        contemplated--that is, should they be deferred until as much as 
        possible has been accomplished robotically, or should human 
        missions be an early goal? Why?

A2. It is a judgment call as to whether we can derive as much 
inspirational value from robots as we can from human presence. My 
personal judgment is we cannot. Humans relate to other humans; humans 
can communicate the experience. You can drive auto-racing cars 
remotely. Do you think it would be as interesting to the public if all 
the drivers sat in the stands with remote control devices?
    I would also argue that we should expect that in time, hopefully 
within the next century, we will extend our civilization into the solar 
system. The human presence will be extended to other planets. The only 
issue for now, then, is when do we start and who leads it? The 
exploration initiative is intended to do that.
    That said, for the exploration of Mars both humans and robots will 
be necessary, working in synergy--human-assisted robots and robot-
assisted humans. Robots clearly need to go first. The delay time for 
communication between Earth and Mars will eventually require, at 
minimum, humans to be located in Mars orbit to direct robotic 
exploration. And then humans need to be on the surface of Mars using 
their reasoning skills to maximize the scientific return.

Q3.  What do you consider an appropriate role for the private sector to 
be in the exploration of the solar system?

A3. Exploration of this type will always be a governmental function, 
just as Columbus' voyages were, and Lewis and Clark's. However, the 
execution of this program will fall to industry and academia to 
accomplish. NASA does not build rockets, or for that matter most 
satellites, and American industry will have to step up to these tasks, 
just as they did during the Apollo program.

Q4.  One of the key questions we will have to wrestle with as we 
evaluate the President's proposed initiative is whether NASA has the 
capabilities needed to carry it out successfully. Experienced NASA 
personnel will be retiring just as the initiative is getting going. New 
employees will not have any significant experience in human space 
flight and will need time to acquire it. At the management levels of 
NASA, many of the key human space flight and exploration positions 
currently are held by retired generals and Admirals with no previous 
space-related experience.

        <bullet>  How confident are you that NASA will have the 
        experience and skills based needed to conduct the initiative 
        safely and successfully?

        <bullet>  If you aren't, what would you recommend be done?

A4. First of all, I think it is important to recognize that questions 
about the required skills and capabilities to carry out the exploration 
initiative are not just a NASA problem, but rather a problem throughout 
the space industry. Many of our best space engineers and scientists, in 
industry and at universities, entered the space program or were 
inspired to do so during the Apollo era. They are now at the end of 
their careers.
    The workforce necessary for a sustained program leading to a human 
mission to Mars does not now exist. In simple terms, by the time we are 
ready to send a human to Mars we will need 50,000 to 75,000 new space 
engineers and scientists.
    The task of providing this workforce will fall to American 
universities. NASA should thus make providing the required workforce an 
integral part of its planning for the new initiative and be concerned 
with and assist the university community in performing its essential 
role.
    It is important to note that this issue is not simply about 
encouraging K-12 students to pursue math and science. The workforce 
needed for the exploration initiative is small compared to the Nation's 
expected output of engineers and scientists. Rather, the issue is 
encouraging the best and the brightest to pursue careers in space. 
Students often make career decisions as undergraduates, which again 
emphasizes the important role that universities will have to play in 
the new space initiative.

Questions submitted by Representative Nick Lampson

Q1.  As NASA Associate Administrator for space science you had direct 
influence on many of NASA's current robotic missions. The Hubble Space 
Telescope is the most direct example of a successful integration of 
human and robotic space activities. There was also the case where the 
crew of STS-41C repaired the Solar Maximum Mission satellite in orbit. 
To what extent should future space telescopes be designed for long-term 
operation and periodic servicing by humans?

A1. The Hubble Space Telescope is certainly an excellent example of 
integrated robotic and human space activities. Without Shuttle repair 
and servicing, Hubble would have been a great disappointment, rather 
than the outstanding success it has become.
    As for future missions involving human servicing, the NRC plans to 
pursue a study of Large Optical Systems in Space. The study will 
examine the goals of large telescopes in space across many agency needs 
and consider factors of location, infrastructure, assembly, operations, 
and servicing.

Q2.  What, if any, scientific activities on the Moon will require the 
presence of astronauts? What priority does the scientific community 
assign to those scientific activities relative to other potential space 
science projects?

A2. The primary reason for going back to the Moon will probably be to 
practice for sending humans to Mars. Science can be done, and the 
presence of humans can facilitate that science. However, science 
exploration of the Moon can probably also be done robotically.
    Particularly ambitious goals for the Moon, e.g., setting up 
astronomical observatories, that would require humans are worthy of 
further study.
    NRC reports have not dealt with lunar science in recent years, 
since the thrust of solar system exploration has been Mars and the 
other planets and small bodies. It would be worthwhile to re-examine 
the goals of lunar science in light of the Moon as an immediate 
destination for both the robotic and human space flight program.


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



</pre></body></html>
